No. _______

In the Supreme Court of the United States
__________
THE LITTLE SISTERS OF THE POOR
JEANNE JUGAN RESIDENCE,
v.

Petitioner,

THE STATE OF CALIFORNIA, ET AL.,
Respondents.
__________
ON PETITION FOR A WRIT OF CERTIORARI TO THE UNITED
STATES COURT OF APPEALS FOR THE NINTH CIRCUIT

__________

PETITION FOR A WRIT OF CERTIORARI
__________
PAUL D. CLEMENT
ERIN E. MURPHY
KIRKLAND & ELLIS LLP
1301 Pennsylvania Ave. NW
Washington, D.C. 20004
(202) 389-50000

MARK. L. RIENZI
Counsel of Record
ERIC C. RASSBACH
LORI H. WINDHAM
DIANA M. VERM
CHRISTOPHER PAGLIARELLA
THE BECKET FUND FOR
RELIGIOUS LIBERTY
1200 New Hampshire
Ave., N.W., Suite 700
Washington, D.C. 20036
(202) 955-0095
mrienzi@becketlaw.org

Counsel for Petitioner

QUESTION PRESENTED
In Little Sisters of the Poor Saints Peter & Paul
Home v. Pennsylvania, No. 19-431, and Trump v.
Pennsylvania, No. 19-454, the Court granted certiorari to determine, among other things, whether the
federal government lawfully exempted religious objectors from the regulatory requirement to provide health
plans that include contraceptive coverage.
This case involves a challenge to the same regulations. Here, as in the pending cases, the court of appeals has enjoined the rules on the theory that RFRA
and the Affordable Care Act not only do not require,
but do not even allow, the religious exemption rules.
This case presents a very similar scenario, the same
regulations, and the same legal conclusions reached by
the court of appeals.
The question presented is:
Whether the federal government lawfully exempted religious objectors from the regulatory requirement to provide health plans that include contraceptive coverage?

ii
PARTIES TO THE PROCEEDINGS AND
CORPORATE DISCLOSURE STATEMENT
Petitioner, the Little Sisters of the Poor Jeanne Jugan Residence, was defendant-intervenor-appellant
below. The Little Sisters do not have any parent entities and do not issue stock.
The State Respondents are the State of California,
the State of Connecticut, the State of Delaware, the
District of Columbia, the State of Hawaii, the State of
Illinois, the State of Maryland, the State of Minnesota
by and through its Department of Human Services,
the State of New York, the State of North Carolina,
the State of Rhode Island, the State of Vermont, the
Commonwealth of Virginia, and the State of Washington.
The federal government Respondents, who were
defendants-appellees below, are: Alex M. Azar, Secretary of the U.S. Department of Health & Human Services; the U.S. Department of Health & Human Services; Eugene Scalia, Secretary of the U.S. Department of Labor; the U.S. Department of Labor; Steven
Tener Mnuchin, Secretary of the U.S. Department of
the Treasury; and the U.S. Department of the Treasury (the agencies).
The March for Life Education and Defense Fund
appeared below as defendant-intervenor-appellant
and is also a Respondent.

iii
RELATED PROCEEDINGS
The district court’s opinion granting a nationwide
preliminary injunction against the interim final rules
is reported at California v. Azar, 281 F. Supp. 3d 806
(N.D. Cal. Dec. 21, 2017) (No. 17-05783), and the court
of appeals opinion upholding that injunction but narrowing its scope is reported at California v. Azar, 911
F.3d 558 (9th Cir. Dec. 13, 2018) (Nos. 18-15144, 1815166, 18-15255). This Court denied certiorari in Little Sisters of the Poor Jeanne Jugan Residence v. California, 139 S. Ct. 2716 (June 17, 2019) (No. 18-1192).

iv
TABLE OF CONTENTS
Page
QUESTION PRESENTED .......................................... i
PARTIES TO THE PROCEEDINGS AND
CORPORATE DISCLOSURE STATEMENT ...... ii
RELATED PROCEEDINGS .....................................iii
TABLE OF CONTENTS ........................................... iv
TABLE OF AUTHORITIES ...................................... vi
INTRODUCTION ....................................................... 1
OPINIONS BELOW ................................................... 1
JURISDICTION ......................................................... 2
CONSTITUTIONAL AND STATUTORY
PROVISIONS INVOLVED ................................... 2
STATEMENT OF THE CASE ................................... 2
REASONS FOR GRANTING THE PETITION....... 11
CONCLUSION ......................................................... 12
APPENDIX
Appendix A
Opinion, United States Court of Appeals for
the Ninth Circuit, State of California v. U.S.
Dep’t of Health& Human Servs., No. 19-15071
(Oct. 22, 2019) ..................................................... 1a
Appendix B
Order, United States District Court for the
Northern District of California, State of
California v. U.S. Dep’t of Health& Human
Servs., No. 17-5783 (Jan 13, 2019) ................... 51a

v
Appendix C
Relevant Statutory Provisions
42 U.S.C. 2000bb-1 ................................. 117a
42 U.S.C. 300gg-13 ................................. 118a
29 U.S.C. 1185d ...................................... 119a
26 U.S.C. 4980D ...................................... 120a
26 U.S.C. 4980H ...................................... 126a
26 U.S.C. 5000A ...................................... 133a
45 C.F.R. 147.132 .................................... 147a

vi
TABLE OF AUTHORITIES
Page(s)
Cases
ACLU v. Azar,
No. 4:17-cv-05772 (N.D. Cal.) ................................ 5
Armstrong v. Sebelius,
No. 1:13-cv-00563 (D. Colo. Oct. 7,
2014) ....................................................................... 7
Association of Christian Sch. v. Azar,
No. 1:14-cv-02966 (D. Colo. Dec. 10,
2018) ....................................................................... 6
Ave Maria Sch. of Law v. Sebelius,
No. 2:13-cv-00795 (M.D. Fla. July 11,
2018) ....................................................................... 6
Ave Maria Univ. v. Sebelius,
No. 2:13-cv-00630 (M.D. Fla. July 11,
2018) ....................................................................... 6
California v. Azar,
911 F.3d 558 (9th Cir. 2018) .................................. 6
California v. U.S. Dep’t of Health &
Human Servs.,
281 F. Supp. 3d 806 (N.D. Cal. 2017) .................... 5
California v. U.S. Dep’t of Health &
Human Servs.,
No. 19-15072 (9th Cir. Apr. 22, 2019) ................. 10

vii
Campbell v. Trump,
No. 1:17-cv-02455 (D. Colo.)................................... 5
Catholic Benefits Ass’n LCA v. Hargan,
No. 5:14-cv-00240 (W.D. Okla. Mar.
7, 2018) ................................................................... 7
Christian Emp’rs All. v. Azar,
No. 3:16-cv-00309 (D.N.D. May 15,
2019) ....................................................................... 7
Colorado Christian Univ. v. Health &
Human Servs.,
No. 1:13-cv-02105 (D. Colo. July 11,
2018) ....................................................................... 7
Conestoga Wood Specialties Corp. v.
Burwell,
No. 5:12-cv-06744 (E.D. Pa. Oct. 2,
2014) ....................................................................... 7
DeOtte v. Azar,
No. 4:18-cv-00825 (N.D. Tex. June 5,
2019) ....................................................................... 7
Dobson v. Azar,
No. 13-cv-03326 (D. Colo. Mar. 26,
2019) ....................................................................... 7
Dordt Coll. v. Azar,
No. 5:13-cv-04100 (N.D. Iowa June
12, 2018) ................................................................. 7
Geneva Coll. v. Sebelius,
No. 2:12-cv-00207 (W.D. Pa. July 5,
2018) ....................................................................... 7

viii
Gilardi v. Health & Human Servs.,
No. 1:13-cv-00104 (D.D.C. Oct. 20,
2014) ....................................................................... 7
Grace Sch. v. Azar,
No. 3:12-cv-00459 (N.D. Ind. June 1,
2018) ....................................................................... 7
Hobby Lobby Stores, Inc. v. Sebelius,
No. 5:12-cv-01000, 2014 WL 6603399
(W.D. Okla. Nov. 19, 2014) .................................... 7
Korte v. Health & Human Servs.,
No. 3:12-cv-1072 (S.D. Ill. Nov. 7,
2014) ....................................................................... 7
Lawrence v. Chater,
516 U.S. 163 (1996) .............................................. 12
Little Sisters of the Poor Jeanne Jugan
Residence v. California,
139 S. Ct. 2716 (2019) ............................................ 6
Little Sisters of the Poor v. Azar,
No. 1:13-cv-02611 (D. Colo. May 29,
2018) ................................................................... 7, 8
March for Life v. Burwell,
No. 1:14-cv-01149 (D.D.C. Aug. 31,
2015) ....................................................................... 8
Massachusetts v. U.S. Dep’t of Health &
Human Servs.,
No. 1:17-cv-11930 (D. Mass.) ................................. 5

ix
Medical Students for Choice v. Azar,
No. 1:17-cv-02096 (D.D.C.)..................................... 5
Pennsylvania v. Trump,
No. 2:17-cv-4540 (E.D. Pa. Jan. 13,
2019) ....................................................................... 5
Reaching Souls Int’l Inc. v. Azar,
No. 5:13-cv-01092 (W.D. Okla. Mar.
15, 2018) ................................................................. 7
Sharpe Holdings, Inc. v. Health &
Human Servs.,
No. 2:12-cv-00092 (E.D. Mo. Mar. 28,
2018) ....................................................................... 7
Shiraef v. Azar,
No. 3:17-cv-00817 (N.D. Ind.) ................................ 5
Southern Nazarene Univ. v. Hargan,
No. 5:13-cv-01015 (W.D. Okla. May
15, 2018) ................................................................. 7
Tyndale House Publishers, Inc. v. Burwell,
No. 1:12-cv-01635 (D.D.C. July 15,
2015) ....................................................................... 8
Washington v. Trump,
No. 2:17-cv-01510 (W.D. Wash.) ............................ 5
Wheaton Coll. v. Azar,
No. 1:13-cv-08910 (N.D. Ill. Feb. 22,
2018) ....................................................................... 7
Zubik v. Burwell,
136 S. Ct. 1557 (2016) ........................................ 2, 3

x
Zubik v. Sebelius,
No. 2:13-cv-01459 (W.D. Pa. Dec. 20,
2013) ....................................................................... 8
Statutes
28 U.S.C. 1254 ............................................................. 2
42 U.S.C. 2000bb ....................................................... 12
Regulations
45 C.F.R. 147.132 ........................................................ 4
81 Fed. Reg. 47,741 (July 22, 2016) ............................ 3
82 Fed. Reg. 21,675 (May 4, 2017) .............................. 3
82 Fed. Reg. 47,792 (Oct. 13, 2017) ..................... 3-4, 6
82 Fed. Reg. 47,838 (Oct. 13, 2017) ............................ 4
83 Fed. Reg. 57,536 (Nov. 15, 2018)............................ 8
84 Fed. Reg. 7714 (Mar. 4, 2019) ................................ 4
Other Authorities
U.S. Dep’t of Labor, FAQs About
Affordable Care Act Implementation
Part 36 (Jan. 9, 2017) ............................................. 3

INTRODUCTION
This Term in Little Sisters of the Poor Saints Peter
& Paul Home v. Pennsylvania, No. 19-431, and Trump
v. Pennsylvania, No. 19-454, the Court will consider
whether the federal government must—or even may—
exempt religious organizations like the Little Sisters
from the contraceptive mandate. The question this
case presents is identical to the primary question presented in No. 19-431. Like Little Sisters, this case involves a challenge to the exemption rules, a challenge
brought by multiple state attorneys general. Like Little Sisters, a federal district court enjoined those regulations, and a federal appeals court upheld that injunction.
Because the two cases involve the same legal questions, the same regulations, and strikingly similar factual scenarios, Petitioners respectfully request that
the Court hold this petition pending resolution of Little Sisters. Depending on the Court’s final ruling in
that matter, this petition should then be granted and
the case set for either plenary review or summary reversal. Alternatively, the Court should then grant the
petition, vacate the judgment below, and remand for
further proceedings.
OPINIONS BELOW
The court of appeals decision is reported at 941
F.3d 410 (Pet. App. 1a). The district court opinion
granting a preliminary injunction against the final
rules is reported at 351 F. Supp. 3d 1267 (Pet. App.
51a).

2
JURISDICTION
The court of appeals entered judgment on October 22, 2019. On December 23, 2019, Justice Kagan
granted an application for an extension of time within
which to file a petition for writ of certiorari and extended the time to and including February 19, 2020.
This Court has jurisdiction under 28 U.S.C. 1254(1).
CONSTITUTIONAL AND STATUTORY
PROVISIONS INVOLVED
The following statutory provisions are reproduced
in Appendix C (Pet. App. 117a-150a): 42 U.S.C.
2000bb-1, 42 U.S.C. 300gg-13, 29 U.S.C. 1185d, 26
U.S.C. 4980D, 26 U.S.C. 4980H, 26 U.S.C. 5000A, 45
C.F.R. 147.132.
STATEMENT OF THE CASE
Litigation over the contraceptive mandate regulations has been ongoing for eight years and counting,
since the mandate was first promulgated in August
2011 with insufficient consideration of its impact on
religious objectors. That litigation has now culminated
in case Nos. 19-431 and 19-454 granted by the Court
to be heard this Term.
In Zubik v. Burwell, the eight-member Court issued a per curiam order vacating the decisions of the
courts that had rejected RFRA challenges to the regulatory mechanism by which non-exempt religious nonprofits could comply with the contraceptive mandate.
136 S. Ct. 1557, 1560-1561 (2016). The Court ordered
the government not to impose taxes or penalties on the
petitioners for failure to comply with the contraceptive
mandate and remanded the cases to afford the parties

3
“an opportunity to arrive at an approach going forward” that would resolve the dispute. Id. at 1560. The
Court emphasized that it was not deciding the RFRA
question. Ibid. (“The Court expresses no view on the
merits of the cases.”). But its order assumed that the
executive branch had ample authority, independent of
a court order, to adopt an approach that would resolve
the dispute.
After the Zubik order, the agencies issued a Request for Information (RFI) on potential ways to modify the regulatory mechanism. 81 Fed. Reg. 47,741
(July 22, 2016). The parties, including representatives
of petitioners, met with the government to pursue a
path forward. No rulemaking resulted from that RFI,
and on January 9, 2017—two months after the 2016
presidential election and just eleven days before Inauguration Day—HHS stated on its website that it had
determined it was infeasible to modify the regulatory
mechanism. U.S. Dep’t of Labor, FAQs About Affordable Care Act Implementation Part 36 (Jan. 9, 2017),
https://perma.cc/R3LN-CMSH.
With a change in administration, however, the effort to fashion a broader religious accommodation continued. In May 2017, an executive order directed the
agencies to consider alternatives to the regulatory
mechanism. Exec. Order No. 13,798, Promoting Free
Speech and Religious Liberty, 82 Fed. Reg. 21,675
(May 4, 2017). In October 2017, the agencies modified
the contraceptive mandate regulations by issuing two
interim final rules, the Fourth and Fifth IFRs. 82 Fed.

4
Reg. 47,792 (Oct. 13, 2017) (Fourth IFR); 82 Fed. Reg.
47,838 (Oct. 13, 2017) (Fifth IFR). 1
The Fourth IFR did what the Little Sisters had
long sought: it expanded the religious exemption to apply to a broader group of religious objectors, including
the Little Sisters. See, e.g., 45 C.F.R. 147.132. The
Fifth IFR provided a similar exemption to employers
with moral objections. 2 The Fourth and Fifth IFRs
otherwise left the contraceptive mandate regulations
in place as to all employers previously covered. Ibid.
In the Fourth IFR, the agencies explained that the
IFR was prompted by this Court’s order in Zubik and
the need to resolve the ongoing litigation by religious
objectors. 82 Fed. Reg. at 47,796-47,799. The agencies
engaged in a lengthy analysis of their RFRA obligations and concluded, based in part upon the concessions before this Court and the information gathered
in the RFI process, that RFRA compelled them to
broaden the religious exemption. Id. at 47,799-47,806.
The IFRs were announced on October 6, 2017, and
were published in the Federal Register one week later.
See 82 Fed. Reg. 47,792 (Oct. 13, 2017). The IFRs were
Separately, the agencies also took steps to make Title X funded
services available to employees of exempted employers. 84 Fed.
Reg. 7714, 7734 (Mar. 4, 2019).
1

Many of the arguments presented here are relevant to both the
religious exemption (the Fourth IFR) and the moral exemption
(the Fifth IFR), but the Little Sisters address only the religious
exemption here.
2

5
immediately challenged in the present matter and in
others around the country. 3 California did not even
await their publication before filing this lawsuit challenging them. Compl., California v. U.S. Dep’t of
Health & Human Servs., No. 17-cv-05783 (N.D. Cal.
Oct. 6, 2017), Dkt. No. 1.
Because the lawsuit sought to invalidate an exemption that the Little Sisters have long sought and directly benefited them, the Little Sisters moved to intervene. March for Life also moved to intervene, and
the district court granted both motions. Order, California, No. 17-cv-05783 (N.D. Cal. Dec. 29, 2017), Dkt.
No. 115; Order, California, No. 17-cv-05783 (N.D. Cal.
Jan. 26, 2018), Dkt. No. 134.
In response to a motion for a preliminary injunction filed by California, Delaware, Maryland, New
York, and Virginia, the district court entered a nationwide injunction preventing the implementation of the
IFRs on December 21, 2017 due to a lack of prior notice
and comment. California v. U.S. Dep’t of Health & Human Servs., 281 F. Supp. 3d 806 (N.D. Cal. 2017). That
ACLU v. Azar, No. 4:17-cv-05772 (N.D. Cal.), dismissed without
prejudice Nov. 2, 2018; Campbell v. Trump, No. 1:17-cv-02455 (D.
Colo.), dismissed Sept. 11, 2018; Massachusetts v. U.S. Dep’t of
Health & Human Servs., No. 1:17-cv-11930 (D. Mass.), stayed
pending resolution of Little Sisters and Trump Feb. 5, 2020; Medical Students for Choice v. Azar, No. 1:17-cv-02096 (D.D.C.), dismissed without prejudice Feb. 2, 2018; Pennsylvania v. Trump,
No. 2:17-cv-4540 (E.D. Pa. Jan. 13, 2019), preliminary injunction
granted Dec. 15, 2017, preliminary injunction granted Jan. 13,
2019, injunction upheld, 930 F.3d 543 (3d Cir. 2019), certiorari
granted, No. 19-431, 2020 WL 254158 (Jan. 17, 2020); Shiraef v.
Azar, No. 3:17-cv-00817 (N.D. Ind.), dismissed without prejudice
Feb. 7, 2018; Washington v. Trump, No. 2:17-cv-01510 (W.D.
Wash.), dismissed without prejudice Dec. 19, 2018.
3

6
injunction was appealed to the Ninth Circuit, which
held that the plaintiff States met the “relaxed” requirements for standing to bring the procedural claim
on appeal. California v. Azar, 911 F.3d 558, 571 (9th
Cir. 2018). The Ninth Circuit also ruled in favor of the
States on their procedural claims, holding that the
IFRs likely violated the notice and comment provisions of the APA. Id. at 575-578. The Ninth Circuit
also held that a nationwide injunction was inappropriate and limited the injunction to the plaintiff States.
Id. at 582-584. Petitioners sought certiorari, which
this Court denied. Little Sisters of the Poor Jeanne Jugan Residence v. California, 139 S. Ct. 2716 (2019).
The Fourth IFR was prompted in part to resolve
the still-pending claims of religious employers like the
Little Sisters who objected to the regulatory mechanism. See 82 Fed. Reg. at 47,798-47,800. But once the
new IFRs were enjoined, those objectors who had not
yet resolved their cases were no longer able to rely on
the new rules and so were forced to continue to litigate.
Ultimately, that litigation resulted in sixteen additional permanent injunctions against the prior versions of the contraceptive mandate regulations—the
same versions that the district court reinstated below. 4

See Order, Association of Christian Sch. v. Azar, No. 1:14-cv02966 (D. Colo. Dec. 10, 2018), Dkt. No. 49; Order, Ave Maria Sch.
of Law v. Sebelius, No. 2:13-cv-00795 (M.D. Fla. July 11, 2018),
Dkt. No. 68; Order, Ave Maria Univ. v. Sebelius, No. 2:13-cv4

7
These new injunctions joined dozens of similar injunctions issued to for-profit business owners in the
wake of Hobby Lobby, and additional permanent injunctions against the regulatory mechanism for nonprofits issued before 2017. 5 These injunctions continue
00630 (M.D. Fla. July 11, 2018), Dkt. No. 72; Order, Catholic Benefits Ass’n LCA v. Hargan, No. 5:14-cv-00240 (W.D. Okla. Mar. 7,
2018), Dkt. No. 184; Order, Christian Emp’rs All. v. Azar, No.
3:16-cv-00309 (D.N.D. May 15, 2019), Dkt. No. 53; Order, Colorado Christian Univ. v. Health & Human Servs., No. 1:13-cv02105 (D. Colo. July 11, 2018), Dkt. No. 84; Order, DeOtte v. Azar,
No. 4:18-cv-00825 (N.D. Tex. June 5, 2019), Dkt. No. 76, appeal
docketed by putative intervenor, No. 19-10754 (5th Cir. July 5,
2019); Order, Dobson v. Azar, No. 13-cv-03326 (D. Colo. Mar. 26,
2019), Dkt. No. 61; Order, Dordt Coll. v. Azar, No. 5:13-cv-04100
(N.D. Iowa June 12, 2018), Dkt. No. 85; Order, Geneva Coll. v.
Sebelius, No. 2:12-cv-00207 (W.D. Pa. July 5, 2018), Dkt. No. 153;
Order, Grace Sch. v. Azar, No. 3:12-cv-00459 (N.D. Ind. June 1,
2018), Dkt. No. 114; Order, Little Sisters of the Poor v. Azar, No.
1:13-cv-02611 (D. Colo. May 29, 2018), Dkt. No. 82; Order, Reaching Souls Int’l Inc. v. Azar, No. 5:13-cv-01092 (W.D. Okla. Mar.
15, 2018), Dkt. No. 95; Judgment Order, Sharpe Holdings, Inc. v.
Health & Human Servs., No. 2:12-cv-00092 (E.D. Mo. Mar. 28,
2018), Dkt. No. 161; Order, Southern Nazarene Univ. v. Hargan,
No. 5:13-cv-01015 (W.D. Okla. May 15, 2018), Dkt. No. 109; Order, Wheaton Coll. v. Azar, No. 1:13-cv-08910 (N.D. Ill. Feb. 22,
2018), Dkt. No. 119.
See, e.g., Amended Final Judgment, Armstrong v. Sebelius, No.
1:13-cv-00563 (D. Colo. Oct. 7, 2014), Dkt. No. 82; Order, Conestoga Wood Specialties Corp. v. Burwell, No. 5:12-cv-06744 (E.D.
Pa. Oct. 2, 2014), Dkt. No. 82; Order, Gilardi v. Health & Human
Servs., No. 1:13-cv-00104 (D.D.C. Oct. 20, 2014), Dkt. No. 49; Order, Hobby Lobby Stores, Inc. v. Sebelius, No. 5:12-cv-01000, 2014
WL 6603399 (W.D. Okla. Nov. 19, 2014), Dkt. No. 98; Order of
Injunction, Korte v. Health & Human Servs., No. 3:12-cv-1072
5

8
to bind the agencies and prohibit them from enforcing
as to certain religious employers the very regulatory
mechanism that the district court in this case resurrected nationwide.
Among those litigants who obtained permanent injunctions were the Little Sisters’ Denver and Baltimore homes, as well as their Christian Brothers plan
and plan administrator. That injunction prohibits the
government from, among other things, enforcing the
contraceptive mandate against any entity so long as it
is on the Christian Brothers plan. Order at 2-3, Little
Sisters, No. 1:13-cv-02611 (D. Colo. May 29, 2018),
Dkt. No. 82.
While the appeal of the district court’s preliminary
injunction was pending, the agencies considered more
than 56,000 comments on the Fourth IFR and ultimately memorialized the religious exemption in a final
rule. 83 Fed. Reg. 57,536, 57,540 (Nov. 15, 2018) (Final
Rule). Following the publication of the Final Rule, the
States submitted an amended complaint joining more
plaintiff States, including Connecticut, the District of
Columbia, Hawaii, Illinois, Minnesota, North Carolina, Rhode Island, and Vermont. Am. Compl., California, No. 17-cv-05783 (N.D. Cal. Dec. 12, 2018), Dkt.
No. 170. The State of Washington dropped its own lawsuit and joined this one.
The States brought a second motion for a preliminary injunction, arguing that the Final Rule violates
(S.D. Ill. Nov. 7, 2014), Dkt. No. 89; Order, March for Life v. Burwell, No. 1:14-cv-01149 (D.D.C. Aug. 31, 2015), Dkt. No. 31; Order, Tyndale House Publishers, Inc. v. Burwell, No. 1:12-cv-01635
(D.D.C. July 15, 2015), Dkt. No. 53; Order, Zubik v. Sebelius, No.
2:13-cv-01459 (W.D. Pa. Dec. 20, 2013), Dkt. No. 81.

9
substantive provisions of the APA, and that the Final
Rule is tainted by the lack of comment on the IFRs.
The States submitted no evidence of any employer who
will drop coverage as a result of the Final Rule and
identified no women who stand to lose coverage as a
result of the Final Rule.
In granting the second preliminary injunction
brought by the augmented group of states, the district
court held that the States are likely to succeed on their
claim that the Final Rule violates the APA because it
is not in accordance with the law, finding that the
agencies did not have authority to exempt religious organizations under the Affordable Care Act. Pet App.
82a-85a. In so holding, the district court expressly declined to explain how the agencies had authority to issue the original 2013 religious employer exemption
and not the religious exemption in the Final Rule, because “the legality of [the prior religious employer] exemption is not before the Court.” Pet. App. 85a. Nor
did the court explain how, under its theory, the agencies had authority to issue the “accommodation” upon
which the court expressly relied in its RFRA holding.
Pet. App. 86a-92a. Because of that “accommodation,”
the court held that the Final Rule is not required by
the Religious Freedom Restoration Act, Pet. App. 86a92a. The court noted that it would need “substantially
greater detail” to “sufficiently address the merits of”
the claim that RFRA allows the agencies to create the
religious exemption. Pet. App. 105a-106a. Citing the
Ninth Circuit’s prior opinion narrowing the nationwide injunction, the district court limited the scope of
the injunction to only the plaintiff states. Pet. App.
115a.

10
The same panel of the Ninth Circuit upheld the
preliminary injunction. 6 The panel held that the agencies lacked authority to issue the Final Rule because
the ACA and RFRA neither require nor even permit
the religious exemption. The Ninth Circuit reaffirmed
the states’ standing to sue and concluded that “nothing
in the [Affordable Care Act] permit[ted] the agencies
to determine exemptions from the [contraceptive] requirement.” Pet. App. 6a. And even if the agencies
were authorized under RFRA to resolve a perceived violation, the Ninth Circuit continued, in this case the
exemption would not have been authorized because
the exemption “contradicts congressional intent that
all women have access to appropriate preventative
care” and “the religious exemption operate[d] in a
manner fully at odds with the careful, individualized,
and searching review mandate[d] by RFRA.” Pet. App.
33a-34a. And “[r]egardless of * * * the agencies’ authority [under] RFRA,” the Ninth Circuit went on, “the
accommodation process likely does not substantially
burden the exercise of religion and hence does not violate RFRA.” Pet. App. 35a.
Judge Kleinfeld dissented to raise mootness concerns. In his view, the Pennsylvania district court’s nationwide injunction, partly at issue in Little Sisters,
meant that the injunction before the Ninth Circuit was
“entirely without effect.” Pet. App. 47a.

Pennsylvania and New Jersey, respondents in Little Sisters,
filed an amicus brief with the Ninth Circuit noting their shared
interest with the states in this case. Massachusetts Amicus Br.,
California v. U.S. Dep’t of Health & Human Servs., No. 19-15072,
(9th Cir. Apr. 22, 2019), Dkt. No. 87.
6

11
After this Court granted certiorari in Little Sisters
and Trump, the district court stayed proceedings on
summary judgment pending the Court’s decision in
those cases. Stay, California, No. 17-cv-05783, Dkt.
No. 411 (Jan. 22, 2020).
REASONS FOR GRANTING THE PETITION
This case presents a question identical to one of the
questions presented in Little Sisters of the Poor Saints
Peter & Paul Home v. Pennsylvania, No. 19-431:
whether the federal government lawfully exempted religious objectors from the regulatory requirement to
provide health plans that include contraceptive coverage. 7 The Ninth Circuit held that neither the Affordable Care Act nor RFRA authorized federal agencies to
grant such an exemption. Indeed, the Ninth Circuit
held that the Affordable Care Act so explicitly required
that all health plans include contraceptive coverage
that even RFRA could not overcome it. And even if
RFRA could have authorized the agencies’ exemption,
the Ninth Circuit concluded, the previously crafted
regulatory mechanism likely did not substantially
burden the exercise of religion.
The Ninth Circuit’s decision is wrong for essentially the same reasons as the Third Circuit’s. Both de-

The first question presented in Trump is similar: “1. Whether
the agencies had statutory authority under the ACA and the Religious Freedom Restoration Act of 1993, 42 U.S.C. 2000bb et seq.,
to expand the conscience exemption to the contraceptive-coverage
mandate.” Pet., Trump, No, 19-454 (Oct. 3, 2019). The second
question presented in Little Sisters and the only question presented here are identical. Pet., Little Sisters, No. 19-431 (Oct. 1,
2019).
7

12
cisions resuscitate the incorrect view that the regulatory mechanism is fully compliant with RFRA. In so
doing, the Ninth Circuit took it upon itself to tell the
Little Sisters that using the regulatory mechanism to
comply with the contraceptive mandate does not, in
fact, violate their sincerely held religiously beliefs.
Both decisions limit RFRA to only a judicial remedy,
rather than allowing the government to comply with
Congress’s order that it “shall not substantially burden a person’s exercise of religion.” 42 U.S.C. 2000bb1(a).
Accordingly, there is more than a “reasonable probability” that the Court’s decision in Little Sisters will
undermine the Ninth’s Circuit’s “premise” for striking
down the religious exemption. Lawrence v. Chater, 516
U.S. 163, 167 (1996) (per curiam). The question presented in this matter is identical to the question presented in Little Sisters. Holding this petition pending
the Court’s “own decisions” in this related matter is
fully warranted. Id. at 166. After Little Sisters and
Trump are resolved, the Court then should then grant
this petition and set this case for plenary review or enter summary reversal. Alternatively, the Court should
grant this petition, vacate the judgment below, and remand to the Ninth Circuit for further proceedings.
CONCLUSION
The petition should be held pending the Court’s
disposition of Little Sisters. Once Little Sisters has
been decided, the Court should set this case for plenary review or summary reversal. Alternatively, the
Court should grant the petition, vacate the decision
below, and remand for further proceedings.

13
Respectfully submitted.
PAUL D. CLEMENT
ERIN E. MURPHY
KIRKLAND & ELLIS LLP
1301 Pennsylvania Ave. NW
Washington, D.C. 20004
(202) 389-50000

MARK. L. RIENZI
Counsel of Record
ERIC C. RASSBACH
LORI H. WINDHAM
DIANA M. VERM
CHRISTOPHER PAGLIARELLA
THE BECKET FUND FOR
RELIGIOUS LIBERTY
1200 New Hampshire
Ave., N.W., Suite 700
Washington, D.C. 20036
(202) 955-0095
mrienzi@becketlaw.org

Counsel for Petitioner
FEBRUARY 2020

APPENDIX

1a
APPENDIX A
FOR PUBLICATION
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
STATE OF CALIFORNIA; STATE OF
DELAWARE; COMMONWEALTH OF
VIRGINIA; STATE OF MARYLAND;
STATE OF NEW YORK; STATE OF
ILLINOIS, STATE OF WASHINGTON;
STATE OF MINNESOTA; STATE OF
CONNECTICUT; DISTRICT OF
COLUMBIA; STATE OF NORTH
CAROLINA; STATE OF VERMONT;
STATE OF RHODE ISLAND; STATE
OF HAWAII,
Plaintiffs-Appellees,
v.
U.S. DEPARTMENT OF HEALTH &
HUMAN SERVICES; U.S.
DEPARTMENT OF LABOR; R.
ALEXANDER ACOSTA, in his
official capacity as Secretary of
the U.S. Department of Labor;
ALEX M. AZAR II, Secretary of
the United States Department
of Health and Human Services;
U.S. DEPARTMENT OF THE
TREASURY; STEVEN TERNER
MNUCHIN, in his official capacity
as Secretary of the U.S.
Department of the Treasury,
Defendants,

No. 19-15072
D.C. No.
4:17-cv-05783HSG

2a
and
THE LITTLE SISTERS OF THE POOR
JEANNE JUGAN RESIDENCE,
Intervenor-Defendant-Appellant.
STATE OF CALIFORNIA; STATE OF
DELAWARE; COMMONWEALTH OF
VIRGINIA; STATE OF MARYLAND;
STATE OF NEW YORK; STATE OF
ILLINOIS, STATE OF WASHINGTON;
STATE OF MINNESOTA; STATE OF
CONNECTICUT; DISTRICT OF
COLUMBIA; STATE OF NORTH
CAROLINA; STATE OF VERMONT;
STATE OF RHODE ISLAND; STATE
OF HAWAII,
Plaintiffs-Appellees,
v.
U.S. DEPARTMENT OF HEALTH &
HUMAN SERVICES; U.S.
DEPARTMENT OF LABOR; R.
ALEXANDER ACOSTA, in his
official capacity as Secretary of
the U.S. Department of Labor;
ALEX M. AZAR II, Secretary of
the United States Department
of Health and Human Services;
U.S. DEPARTMENT OF THE
TREASURY; STEVEN TERNER
MNUCHIN, in his official capacity

No. 19-15118
D.C. No.
4:17-cv-05783HSG

3a
as Secretary of the U.S.
Department of the Treasury,
Defendants-Appellants,
and
THE LITTLE SISTERS OF THE POOR
JEANNE JUGAN RESIDENCE,
Intervenor-Defendant.
STATE OF CALIFORNIA; STATE OF
DELAWARE; COMMONWEALTH OF
VIRGINIA; STATE OF MARYLAND;
STATE OF NEW YORK; STATE OF
ILLINOIS, STATE OF WASHINGTON;
STATE OF MINNESOTA; STATE OF
CONNECTICUT; DISTRICT OF
COLUMBIA; STATE OF NORTH
CAROLINA; STATE OF VERMONT;
STATE OF RHODE ISLAND; STATE
OF HAWAII,
Plaintiffs-Appellees,
v.
U.S. DEPARTMENT OF HEALTH &
HUMAN SERVICES; U.S.
DEPARTMENT OF LABOR; R.
ALEXANDER ACOSTA, in his
official capacity as Secretary of
the U.S. Department of Labor;
ALEX M. AZAR II, Secretary of
the United States Department
of Health and Human Services;
U.S. DEPARTMENT OF THE

No. 19-15150
D.C. No.
4:17-cv-05783HSG
OPINION

4a
TREASURY; STEVEN TERNER
MNUCHIN, in his official capacity
as Secretary of the U.S.
Department of the Treasury,
Defendants,
and
MARCH FOR LIFE EDUCATION AND
DEFENSE FUND,
Intervenor-Defendant-Appellant.
Appeals from the United States District Court for the
Northern District of California
Haywood S. Gilliam, Jr., District Judge, Presiding
Argued and Submitted June 6, 2019
San Francisco, California
Filed October 22, 2019
Before: J. Clifford Wallace, Andrew J. Kleinfeld,
and Susan P. Graber, Circuit Judges.
Opinion by Judge Wallace;
Dissent by Judge Kleinfeld
__________________________________________________
SUMMARY*
__________________________________________________

This summary constitutes no part of the opinion of the court. It
has been prepared by court staff for the convenience of the reader.
*

5a
Affordable Care Act
The panel affirmed the district court’s preliminary
injunction barring enforcement in several states of
final federal agency rules that exempt employers with
religious and moral objections from the Affordable
Care Act’s requirement that group health plans cover
contraceptive care without cost sharing.
The panel first held that the plaintiff states had
standing to sue. The panel held that the panel’s prior
decision in California v. Azar, 911 F.3d 558, 566–68
(9th Cir. 2018), and its underlying reasoning foreclosed
any arguments otherwise. The panel determined that
plaintiffs failed to identify any new factual or legal
developments since the panel’s prior decision that
required the panel to reconsider standing here.
The panel noted that the day after the district court
issued its injunction of limited scope, covering the
territory of the thirteen plaintiff states plus the
District of Columbia, a district court in Pennsylvania
issued a similar nationwide injunction. See
Pennsylvania v. Trump, 351 F. Supp. 3d 791, 835 (E.D.
Pa.), aff’d 930 F.3d 543 (3d Cir.), petition for cert. filed,
___ U.S.L.W. ___ (U.S. Oct. 1, 2019) (No. 19-431). The
panel held that despite the nationwide injunction from
Pennsylvania, under existing precedent, this appeal
was not moot.
The panel held that the district court did not abuse
its discretion in concluding that the plaintiff states
were likely to succeed on the merits of their claim
brought under the Administrative Procedure Act. The
panel held that given the text, purpose, and history of
42 U.S.C. § 300gg–13(a)(4), also known as the Women’s
Health Amendment, the district court did not err in

6a
concluding that the agencies likely lacked statutory
authority under the Affordable Care Act to issue the
final rules. The panel determined that, at the
preliminary injunction stage, the evidence was
sufficient to hold that providing free contraceptive
services was a core purpose of the Women’s Health
Amendment and that nothing in the statute permitted
the agencies to determine exemptions from the
requirement.
The panel rejected the argument that the
regulatory regime that existed before the rules’
issuance—i.e., the accommodation process—violated
the Religious Freedom Restoration Act and that the
Act required or at least authorized the federal agencies
to eliminate the violation by issuing the religious
exemption. The panel held that even assuming that
agencies were authorized to provide a mechanism for
resolving perceived Religious Freedom Restoration Act
violations, the Act likely did not authorize the religious
exemption at issue in this case. The panel held that the
religious exemption contradicts congressional intent
that all women have access to appropriate preventative
care and the exemption operates in a manner fully at
odds with the careful, individualized, and searching
review mandated by the Religious Freedom
Restoration Act.
The panel held that regardless of the question of
whether the agencies had authority pursuant to the
Religious Freedom Restoration Act to issue the
exemption, the accommodation process likely did not
substantially burden the exercise of religion and hence
did not violate the Act. The panel noted that an
organization with a sincere religious objection to
arranging contraceptive coverage need only send a self-

7a
certification form to the insurance issuer or a thirdparty administrator or send a written notice to the
Department of Health and Human Services. Once the
organization has taken the simple step of objecting, all
actions taken to pay for or provide the organization’s
employees with contraceptive care is carried out by a
third party, i.e., insurance issuer or third-party
administrator. The panel held that because appellants
likely failed to demonstrate a substantial burden on
religious exercise, there was no need to address
whether the government had shown a compelling
interest or whether it has adopted the least restrictive
means of advancing that interest.
The panel held that the district court did not abuse
its discretion by concluding that the plaintiff states
were likely to suffer irreparable harm absent an
injunction. Referring to the panel’s discussion in its
prior opinion, the panel reiterated that plaintiff states
will likely suffer economic harm from the final rules,
and such harm would be irreparable because the states
will not be able to recover monetary damages flowing
from the final rules. This harm was not speculative; it
was sufficiently concrete and supported by the record.
Finally, the panel held that there was no basis to
conclude that the district court erred by finding that
the balance of equities tipped sharply in favor of the
plaintiff states and that the public interest tipped in
favor of granting the preliminary injunction.
Dissenting, Judge Kleinfeld stated that because of
the nationwide injunction from Pennsylvania, this case
was moot and that the panel lacked jurisdiction to
address the merits.

8a
COUNSEL
Brinton Lucas (argued), Sharon Swingle, Lowell V.
Sturgill Jr., and Karen Schoen, Appellate Staff; David
L. Anderson, United States Attorney; Hashim M.
Mooppan, Deputy Assistant Attorney General; Joseph
H. Hunt, Assistant Attorney General; Civil Division,
United States Department of Justice, Washington,
D.C.; for Defendants-Appellants.
Mark Rienzi (argued), Eric C. Rassbach, Lori H.
Windham, Diana M. Vern, Chase T. Harrington, and
Chris Pagliarella, The Becket Fund for Religious
Liberty, Washington, D.C., for Intervenor-DefendantAppellant The Little Sisters of the Poor Jeanne Jugan
Residence.
Kenneth J. Connelly (argued), David A. Cortman, and
Kevin H. Theriot, Alliance Defending Freedom,
Scottsdale, Arizona; Gregory S. Baylor and Christen
M. Price, Alliance Defending Freedom, Washington,
D.C.; Brian R. Chavez- Ochoa, Chavez-Ochoa Law
Offices Ins., Valley Springs, California; for IntervenorDefendant-Appellant March for Life Education and
Defense Fund.
Karli A. Eisenberg (argued) and Nimrod Pitsker Elias,
Deputy Attorneys General; Kathleen Boergers,
Supervising Deputy Attorney General; Michael L.
Newman, Senior Assistant Attorney General; Xavier
Becerra, Attorney General; Office of the Attorney
General, Sacramento, California; William Tong,
Attorney General; Maura Murphy Osborne, Assistant
Attorney General; Office of the Attorney General,
Hartford, Connecticut; Kathleen Jennings, Attorney
General; Ilona Kirshon, Deputy State Solicitor; Jessica
M. Willey and David J. Lyons, Deputy Attorneys

9a
General;
Delaware
Department
of
Justice,
Wilmington, Delaware; Karl A. Racine, Attorney
General; Loren L. AliKhan, Solicitor General; Caroline
S. Van Zile, Deputy Solicitor General; Graham E.
Phillips, Assistant Attorney General; Office of the
Attorney General, Washington, D.C.; Clare Connors,
Attorney General; Erin Lau, Deputy Attorney General;
Department of the Attorney General, Honolulu,
Hawaii; Kwame Raoul, Attorney General; Elizabeth
Morris, Assistant Attorney General; Office of the
Attorney General, Chicago, Illinois; Brian E. Frosh,
Attorney General; Steven M. Sullivan, Solicitor
General; Kimberly S. Cammarata, Senior Assistant
Attorney General; Attorney General’s Office,
Baltimore, Maryland; Keith Ellison, Attorney General;
Jacob Campion, Assistant Attorney General; Office of
the Attorney General, St. Paul, Minnesota; Letitia
James, Attorney General; Barbara D. Underwood,
Solicitor General; Lisa Landau, Bureau Chief, Health
Care Bureau; Steven C. Wu, Deputy Solicitor General;
Ester Murdukhayeva, Assistant Solicitor General;
Office of the Attorney General, New York, New York;
Joshua H. Stein, Attorney General; Sripriya
Narasimhan, Deputy General Counsel; Department of
Justice, Raleigh, North Carolina; Peter F. Neronha,
Attorney General; Michael W. Field, Assistant
Attorney General; Office of the Attorney General,
Providence, Rhode Island; Thomas J. Donovan Jr.,
Attorney General; Eleanor Spottswood, Assistant
Attorney General; Attorney General’s Office,
Montpelier, Vermont; Mark R. Herring, Attorney
General; Toby J. Heytens, Solicitor General; Samuel T.
Towell, Deputy Attorney General; Office of the
Attorney General, Richmond, Virginia; Robert W.
Ferguson, Attorney General; Jeffrey T. Sprung and

10a
Alicia O. Young, Assistant Attorneys General; Office of
the Attorney General, Seattle, Washington; for
Plaintiffs-Appellees.
Dwight G. Duncan, Colbe Mazzarella, North
Dartmouth, Massachusetts, for Amici Curiae
Residents and Families of Residents at Homes of the
Little Sisters of the Poor.
Ken Paxton, Attorney General; Jeffrey C. Mateer, First
Assistant Attorney General; Kyle D. Hawkins,
Solicitor General; Jason R. LaFond, Assistant Solicitor
General; Office of the Attorney General, Austin, Texas;
Steve Marshall, Attorney General of Alabama; Leslie
Rutledge, Attorney General of Arkansas; Christopher
M. Garr, Attorney General of Idaho; Lawrence
Wasden, Attorney General of Idaho; Jeff Landry,
Attorney General of Louisiana; Eric Schmitt, Attorney
General of Missouri; Tim Fox, Attorney General of
Montana; Doug Peterson, Attorney General of
Nebraska; Mike Hunter, Attorney General of
Oklahoma; Alan Wilson, Attorney General of South
Carolina; Sean Reyes, Attorney General of Utah;
Patrick Morrisey, Attorney General of West Virginia;
for Amici Curiae States of Texas, Alabama, Arkansas,
Georgia, Idaho, Louisiana, Missouri, Montana,
Nebraska, Oklahoma, South Carolina, Utah, and West
Virginia.
Miles E. Coleman, Nelson Mullins Riley &
Scarborough LLP, Greenville, South Carolina, for
Amici Curiae Constitutional Law Scholars.
Stephanie N. Taub and Lea E. Patterson, First Liberty
Institute, Plano, Texas, for Amicus Curiae First
Liberty Institute.

11a
Daniel L. Chen, Gibson Dunn & Crutcher LLP, San
Francisco, California; Paul Collins and Robert E.
Dunn, Gibson Dunn & Crutcher LLP, Palo Alto,
California; for Amicus Curiae Religious Sisters of
Mercy.
Elizabeth O. Gill, ACLU Foundation of Northern
California, San Francisco, California; Minouche
Kandel, ACLU Foundation of Southern California, Los
Angeles, California; Brigitte Amiri, ACLU Foundation,
New York, New York; David Loy, ACLU Foundation of
San Diego & Imperial Counties, San Diego, California;
for Amici Curiae American Civil Liberties Union,
ACLU of Northern California, ACLU of Southern
California, ACLU of San Diego and Imperial Counties,
Anti-Defamation League, Leadership Conference on
Civil and Human Rights, and National Urban League.
Priscilla Joyce Smith, Yale Law School, Brooklyn, New
York, for Amicus Curiae Program for the Study of
Reproductive Justice at Yale Law School.
Jamie A. Levitt and Rhiannon N. Batchelder, Morrison
& Foerster LLP, New York, New York, for Amici
Curiae American Association of University Women,
Service Employees International Union, and 16
Additional Professional, Labor, and Student
Associations.
Diana Kasdan and Joel Dodge, Center for
Reproductive Rights, New York, New York; Dariely
Rodriguez, Dorian Spence, and Phylicia H. Hill,
Lawyers’ Committee for Civil Rights Under Law,
Washington, D.C.; for Amici Curiae Center for
Reproductive Rights, Lawyers’ Committee for Civil
Rights Under Law, California Women’s Law Center,
GLBTQ Legal Advocates & Defenders, Latinojustice

12a
PRLDEF, Lawyers for Civil Rights, Legal Momentum,
Legal Voice, Mississippi Center for Justice, National
Center for Lesbian Rights, Public Counsel, and
Women’s Law Project.
Maura Healey, Attorney General; Elizabeth N. Dewar,
State Solicitor; Jonathan B. Miller, Jon Burke, and
Julia E. Kobick, Assistant Attorneys General;
Elizabeth Carnes Flynn, Special Assistant Attorney
General; Office of the Attorney General, Boston,
Massachusetts; Thomas J. Miller, Attorney General,
Office of the Attorney General, Des Moines, Iowa;
Aaron M. Frey, Attorney General, Office of the
Attorney General, Augusta, Maine; Gurbir S. Grewal,
Attorney General, Office of the Attorney General,
Trenton, New Jersey; Hector Balderas, Attorney
General, Office of the Attorney General, Santa Fe, New
Mexico; Josh Shapiro, Attorney General, Office of the
Attorney General, Harrisburg, Pennsylvania; for Amici
Curiae Massachusetts, Iowa, Maine, New Jersey, New
Mexico, and Pennsylvania.
Fatima Gross Graves, Gretchen Borchelt, Michelle
Banker, and Sunu Chandy, National Women’s Law
Center, Washington, D.C.; Jane Liu, National Asian
Pacific American Women’s Forum, Washington, D.C.;
Sequoia Ayala and Jill Heaviside, Sisterlove Inc.,
Atlanta, Georgia; Jeffrey Blumenfeld, Lowenstein
Sandler LLP, Washington, D.C.; Naomi D.
Barrowclough, Lowenstein Sandler LLP, Roseland,
New Jersey; for Amici Curiae National Women’s Law
Center, National Latina Institute for Reproductive
Health, Sisterlove Inc., and National Asian Pacific
American Women’s Forum.
Bruce H. Schneider, Michele L. Pahmer, and Giliana
Keller, Stroock & Stroock & Lavan LLP, New York,

13a
New York, for Amici Curiae Brief of Health
Professional
Organizations,
American
Nurses
Association, American College of Obstetricians and
Gynecologists, American Academy of Nursing,
American Academy of Pediatrics, Physicians for
Reproductive Health, and California Medical
Association.
Leah R. Bruno, Alan S. Gilbert, Cicely R. Miltich, and
Jacqueline A. Giannini, Dentons US LLP, Chicago,
Illinois; Joel D. Siegel, Dentons US LLP, Los Angeles,
California; for Amici Curiae U.S. Women’s Chamber of
Commerce and National Association for Female
Executives.
Cindy Nesbit, The Sikh Coalition, New York, New
York; Sirine Shebaya, Nimra Azmi, Muslim Advocates,
Washington, D.C.; Richard B. Katskee, Carmen N.
Green, and Alison Tanner, Americans United for
Separate of Church and State; for Amici Curiae
Religious and Civil- Rights Organizations.
Barbara J. Parker, City Attorney; Maria Bee, Erin
Bernstein, Malia McPherson, and Caroline Wilson;
Office of the City Attorney, Oakland, California; James
R. Williams, County Counsel; Greta S. Hansen, Laura
S. Trice, and Lorraine Van Kirk, San Jose, California;
Office of the County Counsel, San Jose, California; for
Amici Curiae 14 Cities, Counties, and Local Agencies.
__________________________________________________
OPINION
WALLACE, Circuit Judge:
The Affordable Care Act (ACA) and the regulations
implementing it require group health plans to cover
contraceptive care without cost sharing. Federal

14a
agencies issued final rules exempting employers with
religious and moral objections from this requirement.
The district court issued a preliminary injunction
barring the enforcement of the rules in several states.
We have jurisdiction under 28 U.S.C. § 1292, and we
affirm.
I.
We recounted the relevant background in a prior
opinion. See California v. Azar, 911 F.3d 558, 566–68
(9th Cir. 2018). We reiterate it here as necessary to
resolve this appeal.
The ACA provides:
A group health plan and a health insurance
issuer offering group or individual health
insurance coverage shall, at a minimum provide
coverage for and shall not impose any cost
sharing requirements for . . . with respect to
women, such additional preventive care and
screenings . . . as provided for in comprehensive
guidelines supported by the Health Resources
and Services Administration [HRSA]. . . .
42 U.S.C. § 300gg-13(a)(4) (also known as the Women’s
Health Amendment). HRSA established guidelines for
women’s preventive care that include any “[FDA]
approved
contraceptive
methods,
sterilization
procedures, and patient education and counseling.”
Group Health Plans and Health Insurance Issuers
Relating to Coverage of Preventive Services Under the
Patient Protection and Affordable Care Act, 77 Fed.
Reg. 8,725-01, 8,725 (Feb. 15, 2012). The three
agencies responsible for implementing the ACA—the
Department of Health and Human Services, the
Department of Labor, and the Department of the

15a
Treasury (collectively, agencies)—issued regulations
requiring coverage of all preventive care contained in
HRSA’s
guidelines.1
See,
e.g.,
45
C.F.R.
§ 147.130(a)(1)(iv).
The agencies also recognized that religious
organizations may object to the use of contraceptive
care and to the requirement to offer insurance that
covers such care. For those organizations, the agencies
provide two avenues for alleviating those objections.
First, group health plans of certain religious
employers, such as churches, are categorically exempt
from the contraceptive care requirement. See Coverage
of Certain Preventive Services Under the Affordable
Care Act, 78 Fed. Reg. 39,870, 39,874 (July 2, 2013).
Second, nonprofit “eligible organizations” that are not
categorically exempt can opt out of having to “contract,
arrange, pay, or refer for contraceptive coverage.” Id.
To be eligible, the organization must file a selfcertification form stating (1) that it “opposes providing
coverage for some or all of any contraceptive services
required to be covered under [the regulation] on
account of religious objections,” (2) that it “is organized
and operates as a nonprofit entity,” and (3) that it
“holds itself out as a religious organization.” Id. at
39,893. The organization sends a copy of the form to its
insurance issuer or third-party administrator (TPA),
which must then provide contraceptive care for the
organization’s employees without any further
Certain types of plans, called “grandfathered” plans, were
statutorily exempt from the contraceptive care requirement. See
generally Final Rules for Grandfathered Plans, Preexisting
Condition Exclusions, Lifetime and Annual Limits, Rescissions,
Dependent Coverage, Appeals, and Patient Protections Under
the Affordable Care Act, 80 Fed. Reg. 72,192-01 (Nov. 18, 2015).
1

16a
involvement by the organization. Id. at 39,875–76. The
regulations refer to this second avenue as the
“accommodation,” and it was designed to avoid
imposing on organizations’ beliefs that paying for or
facilitating coverage for contraceptive care violates
their religion. Id. at 39,874.
The agencies later amended the accommodation
process in response to legal challenges. First, certain
closely-held for-profit organizations became eligible for
the accommodation. See Coverage of Certain
Preventive Services Under the Affordable Care Act, 80
Fed. Reg. 41,318-01, 41,343 (July 14, 2015); see also
Burwell v. Hobby Lobby Stores, Inc., 573 U.S. 682, 736
(2014). Second, instead of directly sending a copy of the
self-certification form to the issuer or TPA, an eligible
organization could simply notify the Department of
Health and Human Services in writing, which then
would inform the issuer or TPA of its regulatory
obligations. 80 Fed. Reg. at 41,323; see also Wheaton
Coll. v. Burwell, 134 S. Ct. 2806, 2807 (2014).
Various organizations then challenged the
amended accommodation process as a violation of the
Religious Freedom Restoration Act (RFRA). The
actions reached the Supreme Court, and the Supreme
Court vacated and remanded to afford the parties “an
opportunity to arrive at an approach going forward
that accommodates petitioners’ religious exercise while
at the same time ensuring that women covered by
petitioners’ health plans receive full and equal health
coverage, including contraceptive coverage.” Zubik v.
Burwell, 136 S. Ct. 1557, 1560 (2016) (internal
quotation marks and citation omitted). The Court
“express[ed] no view on the merits of the cases,” and
did not decide “whether petitioners’ religious exercise

17a
has been substantially burdened, whether the
[g]overnment has a compelling interest, or whether the
current regulations are the least restrictive means of
serving that interest.” Id.
The agencies solicited comments on the
accommodation process in light of Zubik, but
ultimately declined to make further changes. See Dep’t
of Labor, FAQs About Affordable Care Act
Implementation
Part
36,
at
4,
www.dol.gov/sites/default/files/ebsa/about-ebsa/ouractivities/resource-center/faqs/aca-part-36.pdf.
The
agencies concluded, in part, that “the existing
accommodation regulations are consistent with RFRA”
because “the contraceptive-coverage requirement
[when viewed in light of the accommodation] does not
substantially burden the[ ] exercise of religion.” Id.
On May 4, 2017, the President issued an executive
order directing the secretaries of the agencies to
“consider issuing amended regulations, consistent with
applicable law, to address conscience-based objections
to” the ACA’s contraceptive care requirement.
Promoting Free Speech and Religious Liberty, Exec.
Order No. 13,798, 82 Fed. Reg. 21,675, 21,675 (May 4,
2017). Thereafter, effective October 6, 2017, the
agencies effectuated two interim final rules (IFRs)
which categorically exempted certain entities from the
contraceptive care requirement. See Religious
Exemptions and Accommodations for Coverage of
Certain Preventive Services Under the Affordable
Care Act, 82 Fed. Reg. 47,792, 47,792 (Oct. 13, 2017);
Moral Exemptions and Accommodations for Coverage
of Certain Preventive Services Under the Affordable
Care Act, 82 Fed. Reg. 47,838-01, 47,838 (Oct. 13,
2017). The first exempted all entities “with sincerely

18a
held religious beliefs objecting to contraceptive or
sterilization coverage” and made the accommodation
optional for them. 82 Fed. Reg. at 47,808. The second
exempted “additional entities and persons that object
based on sincerely held moral convictions,” “expand[ed]
eligibility for the accommodation to include
organizations with sincerely held moral convictions
concerning contraceptive coverage,” and made the
accommodation optional for those entities. 82 Fed. Reg.
at 47,849.
California, Delaware, Maryland, New York, and
Virginia sued the agencies and their secretaries,
seeking to enjoin the enforcement of the IFRs and
alleging that they are invalid under the Administrative
Procedure Act (APA). The district court, in relevant
part, held that the plaintiff states had standing to
challenge the IFRs and issued a nationwide
preliminary injunction based on the states’ likelihood
of success on their procedural APA claim—that the
IFRs were invalid for failing to follow notice and
comment rulemaking. After issuing the injunction, the
district court allowed Little Sisters of the Poor, Jeanne
Jugan Residence (Little Sisters) and March for Life
Education and Defense Fund (March for Life) to
intervene.
We affirmed the district court except as to the
nationwide scope of the injunction. See California, 911
F.3d at 585. We limited the geographic scope of the
injunction to the states that were plaintiffs in the case.
See id. Shortly after the panel issued the opinion, the
final rules became effective on January 14, 2019,
superseding the IFRs. See Religious Exemptions and
Accommodations for Coverage of Certain Preventive
Services Under the Affordable Care Act, 83 Fed. Reg.

19a
57,536-01, 57,536 (Nov. 15, 2018); Moral Exemptions
and Accommodations for Coverage of Certain
Preventive Services Under the Affordable Care Act, 83
Fed. Reg. 57,592-01, 57,592 (Nov. 15, 2018). The final
rules made “various changes . . . to clarify the intended
scope of the language” in “response to public
comments,” 83 Fed. Reg. at 57,537, 57,593. However,
the parties agree that the final rules are materially
identical to the IFRs for the purposes of this appeal.
The plaintiff states then amended their complaint
to enjoin the enforcement of the final rules. They
alleged a number of claims, including that the rules are
substantively invalid under the APA. The amended
complaint joined as plaintiffs the states of Connecticut,
Hawaii, Illinois, Minnesota, North Carolina, Rhode
Island, Vermont, and Washington, and the District of
Columbia. The district court determined that the final
rules were likely invalid as “arbitrary, capricious, an
abuse of discretion, or otherwise not in accordance with
law,” and issued a preliminary injunction. In light of
the concerns articulated in our prior opinion, see
California, 911 F.3d at 582–84, the geographic scope of
the injunction was limited to the plaintiff states. The
district court then proceeded to ready the case for trial.
The agencies, Little Sisters, and March for Life appeal
from the preliminary injunction.
II.
We review standing de novo. See Navajo Nation v.
Dep’t of the Interior, 876 F.3d 1144, 1160 (9th Cir.
2017). We review a preliminary injunction for abuse of
discretion. See Network Automation, Inc. v. Advanced
Sys. Concepts, Inc., 638 F.3d 1137, 1144 (9th Cir. 2011).
“In deciding whether the district court has abused its
discretion, we employ a two-part test: first, we

20a
‘determine de novo whether the trial court identified
the correct legal rule to apply to the relief requested’;
second, we determine ‘if the district court’s application
of the correct legal standard was (1) illogical,
(2) implausible, or (3) without support in inferences
that may be drawn from the facts in the record.’”
Pimentel v. Dreyfus, 670 F.3d 1096, 1105 (9th Cir.
2012) (quoting Cal. Pharmacists Ass’n v. MaxwellJolly, 596 F.3d 1098, 1104 (9th Cir. 2010)). The review
is highly deferential: we must “uphold a district court
determination that falls within a broad range of
permissible conclusions in the absence of an erroneous
application of law,” and we reverse “only when” we are
“convinced firmly that the reviewed decision lies
beyond the pale of reasonable justification under the
circumstances.” Microsoft Corp. v. Motorola, Inc., 696
F.3d 872, 881 (9th Cir. 2012) (first quoting Grant v.
City of Long Beach, 715 F.3d 1081, 1091 (9th Cir.
2002); then quoting Harman v. Apfel, 211 F.3d 1172,
1175 (9th Cir. 2000)).
III.
We again hold that the plaintiff states have
standing to sue. As the agencies properly recognize,
our prior decision and its underlying reasoning
foreclose any arguments otherwise. See California, 911
F.3d at 570–74; Nordstrom v. Ryan, 856 F.3d 1265,
1270–71 (9th Cir. 2017) (holding that, where a panel
previously held in a published opinion that the plaintiff
has standing, that ruling is binding under “both the
law-of-the-case doctrine and our law-of-the-circuit
rules”); see also Rocky Mountain Farmers Union v.
Corey, 913 F.3d 940, 951 (9th Cir. 2019) (“[L]aw of the
case doctrine generally precludes reconsideration of an
issue that has already been decided by the same court,

21a
or a higher court in the identical case”); Miranda v.
Selig, 860 F.3d 1237, 1243 (9th Cir. 2017) (“[U]nder the
law-of-the-circuit rule, we are bound by decisions of
prior panels[] unless an en banc decision, Supreme
Court decision, or subsequent legislation undermines
those decisions” (internal quotation marks and
alterations omitted)).
Little Sisters and March for Life have not identified
any new factual or legal developments since our prior
decision that require us to reconsider standing here. To
the contrary, a recent decision by the Supreme Court
strongly supports our previous holding that the
plaintiff states have standing. In Department of
Commerce v. New York, 139 S. Ct. 2551, 2566 (2019),
the Supreme Court held that the plaintiff states had
standing, even though their claims of harm depended
on unlawful conduct of third parties, because their
theory of standing “relies . . . on the predictable effect
of Government action on the decisions of third parties.”
See also id. (“Article III requires no more than de facto
causality” (internal quotation marks omitted)). Here,
the plaintiff states’ theory of causation depends on
wholly lawful conduct and on the federal government’s
own prediction about the decisions of third parties. See
California, 911 F.3d at 571–73.
IV.
The thoughtful dissent suggests that this appeal is
moot because, the day after the district court issued its
injunction of limited scope, covering the territory of the
thirteen plaintiff states plus the District of Columbia,
a district court in Pennsylvania issued a similar
nationwide injunction. See Pennsylvania v. Trump, 351
F. Supp. 3d 791, 835 (E.D. Pa.), aff’d 930 F.3d 543 (3d
Cir.), petition for cert. filed, ___ U.S.L.W. ___ (U.S. Oct.

22a
1, 2019) (No. 19-431). According to the dissent, the
nationwide injunction prevents us from giving effective
relief to the parties here and, accordingly, moots this
appeal. We ordered supplemental briefing on whether
this appeal is moot, and the parties unanimously
agreed that this appeal is not moot despite the
nationwide injunction from Pennsylvania. We agree.
As an initial matter, to our knowledge, no court has
adopted the view that an injunction imposed by one
district court against a defendant deprives every other
federal court of subject matter jurisdiction over a
dispute in which a plaintiff seeks similar equitable
relief against the same defendant. Instead, “in
practice, nationwide injunctions do not always
foreclose percolation.” Spencer E. Amdur & David
Hausman, Nationwide Injunctions and Nationwide
Harm, 131 Harv. L. Rev. F. 49, 53 (2017). For example,
both this court and the Fourth Circuit recently
“reviewed the travel bans, despite nationwide
injunctions in both.” Id. at n.27.
The dissent appears to raise the “potentially serious
problem” of “conflicting injunctions” that arise from the
“forum shopping and decisionmaking effects of the
national injunction.” Samuel L. Bray, Multiple
Chancellors: Reforming the National Injunction, 131
Harv. L. Rev. 417, 462–63 (2017). Although courts have
addressed this problem in the past, no court has done
so based on justiciability principles.
For example, we have held that, “[w]hen an
injunction sought in one proceeding would interfere
with another federal proceeding, considerations of
comity require more than the usual measure of
restraint, and such injunctions should be granted only
in the most unusual cases.” Bergh v. Washington, 535

23a
F.2d 505, 507 (9th Cir. 1976). Significantly, however,
the attempt “to avoid the waste of duplication, to avoid
rulings which may trench upon the authority of sister
courts, and to avoid piecemeal resolution of issues that
call for a uniform result” has always been a prudential
concern, not a jurisdictional one. W. Gulf Mar. Ass’n v.
ILA Deep Sea Local 24, S. Atl. & Gulf Coast Dist. of
ILA, 751 F.2d 721, 729 (5th Cir. 1985).
The dissent claims that the majority is “making the
same mistake today that we made in Yniguez v.
Arizonans for Official English, when in our zeal to
correct what we thought was a wrong, we issued an
injunction on behalf of an individual regarding her
workplace.” Dissent at 43 (footnote omitted). Yniguez
is inapposite.
There, the United States Supreme Court reversed
our decision, holding that the plaintiff’s “changed
circumstances—her resignation from public sector
employment to pursue work in the private sector—
mooted the case stated in her complaint.” Arizonans for
Official English v. Arizona, 520 U.S. 43, 72 (1997).
Here, by contrast, the facts and circumstances
supporting the preliminary injunction have not
materially changed such that we are unable to affirm
the relief that the plaintiff states seek to have affirmed.
This is therefore not a case in which “the activities
sought to be enjoined already have occurred, and the
appellate courts cannot undo what has already been
done” such that “the action is moot, and must be
dismissed.” Foster v. Carson, 347 F.3d 742, 746 (9th
Cir. 2003) (quoting Bernhardt v. Cty. of Los Angeles,
279 F.3d 862, 871 (9th Cir. 2002)). Article III simply
requires that our review provide redress for the

24a
asserted injuries, which the district court’s preliminary
injunction achieves.
The dissent’s logic also proves too much. If a court
lacks jurisdiction to consider the propriety of an
injunction over territory that is already covered by a
different injunction, then the Pennsylvania district
court lacked jurisdiction to issue an injunction beyond
the territory of the thirty-seven states not parties to
this case. After all, when the Pennsylvania district
court issued its injunction, the district court here had
issued its injunction of limited geographic scope. We
hesitate to apply a rule that means that the
Pennsylvania district court plainly acted beyond its
jurisdiction. At most, then, the dissent’s reasoning
would lead us to conclude that the Pennsylvania
injunction is limited in scope to the territory of those
thirty-seven non- party states. Under that
interpretation, the two injunctions complement each
other and do not conflict.
In any event, even if the Pennsylvania injunction
has a fully nationwide scope, we nevertheless retain
jurisdiction under the exception to mootness for cases
capable of repetition, yet evading review. “A dispute
qualifies for that exception only if (1) the challenged
action is in its duration too short to be fully litigated
prior to its cessation or expiration, and (2) there is a
reasonable expectation that the same complaining
party will be subjected to the same action again.”
United States v. Sanchez-Gomez, 138 S. Ct. 1532, 1540
(2018) (internal quotation marks and citation omitted).
The first part is indisputably met here because the
interval between the limited injunction and the
nationwide injunction was one day—clearly “too short
[for the preliminary injunction] to be fully litigated

25a
prior to its cessation or expiration.” Id. (quoting Turner
v. Rogers, 564 U.S. 431, 439–40 (2011)).
The second part, too, is met because there is a
reasonable expectation that the federal defendants
will, again, be subjected to the injunction in this case.
See Enyart v. Nat’l Conf. of Bar Exam’rs, Inc., 630 F.3d
1153, 1159 (9th Cir. 2011) (applying the “capable of
repetition” exception on appeal from a preliminary
injunction and querying whether the defendant would
again be subjected to a preliminary injunction). In the
Pennsylvania case, a petition for certiorari challenges,
among other things, the nationwide scope of the
Pennsylvania injunction. See Petition for Writ of
Certiorari, Little Sisters v. Pennsylvania, at 31–33 (No.
19-431). Given the recent prominence of the issue of
nationwide injunctions, the Supreme Court very well
may vacate the nationwide scope of the injunction. See
Amanda Frost, In Defense of Nationwide Injunctions,
93 N.Y.U. L. Rev. 1065, 1119 (2018) (collecting
arguments for and against nationwide injunctions
against the backdrop of “the recent surge in nationwide
injunctions”).
But no matter what action, if any, the Supreme
Court takes, the preliminary injunction in the
Pennsylvania case is, like all preliminary injunctions,
of limited duration. Once the Pennsylvania district
court rules on the merits of that case, the preliminary
injunction will expire. At that point, the federal
defendants will once again be subjected to the
injunction in this case.
One possibility is to the contrary: the Pennsylvania
district court could rule in favor of the plaintiffs, choose
to exercise its discretion to issue a permanent
injunction, and choose to exercise its discretion to give

26a
the permanent injunction nationwide effect despite the
existence of an injunction in this case. That mere
possibility does not, however, undermine our
conclusion that, given the many other possible
outcomes in the Pennsylvania case, there remains a
“reasonable expectation” that the federal defendants
will be subjected to the injunction in this case. A
“reasonable expectation” does not demand certainty.
We acknowledge that we are in uncharted waters.
The Supreme Court has yet to address the effect of a
nationwide preliminary injunction on an appeal
involving a preliminary injunction of limited scope.
Our approach to mootness in this case is consistent
with the Supreme Court’s interest in allowing the law
to develop across multiple circuits. If, of course, our
assessment of jurisdiction is incorrect such that, for
example, we should stay this appeal pending the
outcome in Pennsylvania, then we welcome guidance
from the Supreme Court. Under existing precedent,
however, we conclude that this appeal is not moot.
V.
A preliminary injunction is a matter of equitable
discretion and is “an extraordinary remedy that may
only be awarded upon a clear showing that the plaintiff
is entitled to such relief.” Winter v. NRDC, 555 U.S. 7,
22 (2008) (citing Mazurek v. Armstrong, 520 U.S. 968,
972 (1997)). “A party can obtain a preliminary
injunction by showing that (1) it is ‘likely to succeed on
the merits,’ (2) it is ‘likely to suffer irreparable harm in
the absence of preliminary relief,’ (3) ‘the balance of
equities tips in [its] favor,’ and (4) ‘an injunction is in
the public interest.’” Disney Enters., Inc. v. VidAngel,
Inc., 869 F.3d 848, 856 (9th Cir. 2017) (quoting Winter,
555 U.S. at 20). Alternatively, an injunction may issue

27a
where the likelihood of success is such that “serious
questions going to the merits” were raised and the
balance of hardships “tips sharply toward the
plaintiff,” provided that the plaintiff can also
demonstrate the other two Winter factors. Alliance for
the Wild Rockies v. Cottrell, 632 F.3d 1127, 1131–32
(9th Cir. 2011).
The district court issued its injunction after
concluding that all four factors were met here. We
address each factor in turn.
A.
The APA requires that an agency action be held
“unlawful and [be] set aside” where it is “arbitrary,
capricious,” “not in accordance with the law,” or “in
excess of statutory jurisdiction.” 5 U.S.C. § 706(2). The
district court concluded that the plaintiff states are
likely to succeed on the merits of their APA claim or, at
the very least, raised serious questions going to the
merits. In particular, the district court determined
that the agencies likely lacked the authority to issue
the final rules and that the rules likely are arbitrary
and capricious. The district court did not abuse its
discretion in so concluding.
1.
“[A]n agency literally has no power to act . . . unless
and until Congress confers power upon it.” Louisiana
Pub. Serv. Comm’n v. FCC, 476 U.S. 355, 374 (1986).
In reviewing the scope of an agency’s authority to act,
“the question . . . is always whether the agency has
gone beyond what Congress has permitted it to do.”
City of Arlington v. FCC, 569 U.S. 290, 297–98 (2013).
The agencies have determined that the ACA gives
them “significant discretion to shape the content,

28a
scope, and enforcement of any preventative-services
guidelines adopted” pursuant to the Women’s Health
Amendment. Specifically, the agencies highlight that
“nothing in the statute mandated that the guidelines
include contraception, let alone for all types of
employers with covered plans.”
We examine the “plain terms” and “core purposes”
of the Women’s Health Amendment to determine
whether the agencies have authority to issue the final
rules. FERC v. Elec. Power Supply Ass’n, 136 S. Ct.
760, 773 (2016). The statute requires that group health
plans and insurance issuers “shall, at a minimum
provide coverage for and shall not impose any cost
sharing requirements for . . . with respect to women,
such additional preventive care and screenings . . . as
provided for in the comprehensive guidelines
supported by [HRSA].” 42 U.S.C. § 300gg-13(a)(4).
First, “shall” is a mandatory term that “normally
creates an obligation impervious to . . . discretion.”
Lexecon Inc. v. Milberg Weiss Bershad Hynes & Lerach,
523 U.S. 26, 35 (1998). By its plain language, the
statute states that group health plans and insurance
issuers must cover preventative care without cost
sharing. See BP Am. Prod. Co. v. Burton, 549 U.S. 84,
91 (2006) (“[S]tatutory terms are generally interpreted
in accordance with their ordinary meaning”).
The statute grants HRSA the limited authority to
determine which, among the different types of
preventative care, are to be covered. See Hobby Lobby,
573 U.S. at 697 (“Congress itself, however, did not
specify what types of preventive care must be
covered . . . Congress authorized [HRSA] . . . to make
that important and sensitive decision”). But nothing in
the statute permits the agencies to determine

29a
exemptions from the requirement. In other words, the
statute delegates to HRSA the discretion to determine
which types of preventative care are covered, but the
statute does not delegate to HRSA or any other agency
the discretion to exempt who must meet the obligation.
To interpret the statute’s limited delegation more
broadly would contradict the plain language of the
statute. See Arlington, 569 U.S. at 296 (“Congress
knows to speak in plain terms when it wishes to
circumscribe, and in capacious terms when it wishes to
enlarge, agency discretion”). Although the agencies
argue otherwise, “an agency’s interpretation of a
statute is not entitled to deference when it goes beyond
the meaning that the statute can bear.” MCI
Telecomms Corp. v. Am. Tel. & Tel. Co., 512 U.S. 218,
229 (1994).
Our interpretation is consistent with the ACA’s
statutory scheme. When enacting the ACA, Congress
did provide for religious and moral protections in
certain contexts. See, e.g., 42 U.S.C. § 18113 (assisted
suicide procedures). It did not provide for similar
protections
regarding
the
preventative
care
requirement. Instead, Congress chose to provide for
other exceptions to that requirement, such as for
grandfathered plans. See 42 U.S.C. § 18011. “[W]hen
Congress provides exceptions in a statute, . . . [t]he
proper inference . . . is that Congress considered the
issue of exceptions and, in the end, limited that statute
to the ones set forth.” United States v. Johnson, 529
U.S. 53, 58 (2000). In fact, after the ACA’s passage, the
Senate considered and rejected a “conscience
amendment,” 158 Cong. Rec. S538– 39 (Feb. 9, 2012);
id. at S1162–73 (Mar. 1, 2012), that would have
allowed health plans to decline to provide
contraceptive coverage contrary to asserted religious or

30a
moral convictions. See Doe v. Chao, 540 U.S. 614, 622
(2004) (reversing award of damages, in part, because of
“drafting history showing that Congress cut out the
very language in the bill that would have authorized
[them]”). While Congress’s failure to adopt a proposal
is often a “particularly dangerous ground on which to
rest an interpretation” of a statute, Interstate Bank of
Denver, N.A. v. First Interstate Bank of Denver, N.A.,
511 U.S. 164, 187 (1994), the conscience amendment’s
failure combined with the existence of other exceptions
suggests that Congress did not contemplate a
conscience exception when it passed the ACA.
The “core purpose[]” of the Women’s Health
Amendment further confirms our interpretation.
FERC, 136 S. Ct. at 773; see also Sec. Indus. Ass’n v.
Bd. of Governors of Fed. Reserve Sys., 468 U.S. 137, 143
(1984) (“A reviewing court ‘must reject administrative
constructions of [a] statute, whether reached by
adjudication or by rulemaking, that are inconsistent
with the statutory mandate or that frustrate the policy
that Congress sought to implement’” (quoting FEC v.
Democratic Senatorial Campaign Comm’n, 454 U.S.
27, 32 (1981))). The legislative history indicates that
the Amendment sought to “requir[e] that all health
plans cover comprehensive women’s preventative care
and screenings—and cover these recommended
services at little or no cost to women.” 155 Cong. Rec.
S12025 (Dec. 1, 2009) (Sen. Boxer); id. at S12028 (Sen.
Murray highlighting that a “comprehensive list of
women’s preventive services will be covered”); id. at
S12042 (Sen. Harkin stating that “[b]y voting for this
amendment . . . we can ensure that all women will
have access to the same baseline set of comprehensive
preventive benefits”). While legislators’ individual
comments do not necessarily prove intent of the

31a
majority of the legislature, here the Amendment’s
supporters and sponsors delineated that the types of
“preventive services covered . . . would be determined
by [HRSA] to meet the unique preventative health
needs of women.” Id. at S12025 (Sen. Boxer); see also
id. at S12027 (Sen. Gillibrand stating that “[t]his
amendment will ensure that the coverage of women’s
preventive services is based on a set of guidelines
developed by women’s health experts”); id. at S12026
(Sen. Mikulski stating that “[i]n my amendment we
expand the key preventive services for women, and we
do it in a way that is based on recommendations . . .
from HRSA”). In this case, at the preliminary
injunction stage, the evidence is sufficient for us to hold
that providing free contraceptive services was a core
purpose of the Women’s Health Amendment.
In response, the appellants highlight that they have
already issued rules exempting churches from the
contraceptive care requirement, invoking the same
statutory provision. See Group Health Plans and
Health Insurance Issuers Relating to Coverage of
Preventive Services under the Patient Protection and
Affordable Care Act, 76 Fed. Reg. 46621-01, 46,623
(Aug. 3, 2011). The legality of the church exemption
rules is not before us, and we will not render an
advisory opinion on that issue. See Alameda
Conservation Ass’n v. California, 437 F.2d 1087, 1093
(9th Cir. 1971). Moreover, the existence of one
exemption does not necessarily justify the authority to
issue a different exemption or any other exemption
that the agencies decide. Cf. California, 911 F.3d at
575–76 (stating that “prior invocations of good cause to
justify different IFRs—the legality of which are not
challenged here—have no relevance”).

32a
Given the text, purpose, and history of the Women’s
Health Amendment, the district court did not err in
concluding that the agencies likely lacked statutory
authority under the ACA to issue the final rules.
2.
Under RFRA, the government “shall not
substantially burden a person’s exercise of religion
even if the burden results from a rule of general
applicability” unless “it demonstrates that application
of the burden to the person—
(1) is in furtherance of a compelling governmental
interest; and (2) is the least restrictive means of
furthering that compelling governmental interest.” 42
U.S.C. § 2000bb- 1(a)–(b). The appellants argue that
the regulatory regime that existed before the rules’
issuance—i.e., the accommodation process—violated
RFRA. They argue that RFRA requires, or at least
authorizes, them to eliminate the violation by issuing
the religious exemption2 and “not simply wait for the
inevitable lawsuit and judicial order to comply with
RFRA.”
As a threshold matter, we question whether RFRA
delegates to any government agency the authority to
determine violations and to issue rules addressing
alleged violations. At the very least, RFRA does not
make such authority explicit. Compare 42 U.S.C.
§ 2000bb-1, with 47 U.S.C. § 201(b) (delegating agency
authority to “prescribe such rules and regulations as
may be necessary in the public interest to carry out the
RFRA pertains only to the exercise of religion; it does not
concern moral convictions. For that reason, the appellants’ RFRA
argument is limited to the religious exemption only. RFRA
plainly does not authorize the moral exemption.
2

33a
provisions of the Act”), and 15 U.S.C. § 77s(a) (“The
Commission shall have authority from time to time to
make, amend, and rescind such rules and regulations
as may be necessary to carry out the provisions of this
subchapter”). Instead, RFRA appears to charge the
courts with determining violations. See 42 U.S.C.
§ 2000bb-1(c) (providing that a person whose religious
exercise has been burdened “may assert that
violation . . . in a judicial proceeding” (emphasis
added)); Gonzales v. O Centro Espirita Beneficente
Uniao do Vegetal, 546 U.S. 418, 434 (2006) (“RFRA
makes clear that it is the obligation of the courts to
consider whether exceptions are required under the
test set forth by Congress”).
Moreover, even assuming that agencies are
authorized to provide a mechanism for resolving
perceived RFRA violations, RFRA likely does not
authorize the religious exemption at issue in this case,
for two independent reasons. First, the religious
exemption contradicts congressional intent that all
women have access to appropriate preventative care.
The religious exemption is thus notably distinct from
the accommodation, which attempts to accommodate
religious objectors while still meeting the ACA’s
mandate that women have access to preventative care.
The religious exemption here chooses winners and
losers between the competing interests of two groups,
a quintessentially legislative task. Strikingly,
Congress already chose a balance between those
competing interests and chose both to mandate
preventative care and to reject religious and moral
exemptions. The agencies cannot reverse that
legislatively chosen balance through rulemaking.

34a
Second, the religious exemption operates in a
manner fully at odds with the careful, individualized,
and searching review mandate by RFRA. Federal
courts accept neither self-certifications that a law
substantially burdens a plaintiff’s exercise of religion
nor blanket assertions that a law furthers a compelling
governmental interest. Instead, before reaching those
conclusions,
courts
make
individualized
determinations dependent on the facts of the case, by
“careful[ly]” considering the nature of the plaintiff’s
beliefs and “searchingly” examining the governmental
interest. Wisconsin v. Yoder, 406 U.S. 205, 215, 221
(1972). “[C]ontext matters.” Cutter v. Wilkinson, 544
U.S. 709, 723 (2005); see O Centro, 546 U.S. at 430–31
(“RFRA requires the Government to demonstrate that
the compelling interest test is satisfied through
application of the challenged law ‘to the person’—the
particular claimant whose sincere exercise of religion
is being substantially burdened” (quoting 42 U.S.C.
§ 2000bb-1(b)); Oklevueha Native Am. Church of Haw.,
Inc. v. Lynch, 828 F.3d 1012, 1015–17 (9th Cir. 2016)
(holding that, although plaintiffs in other cases had
established that a prohibition on the use of certain
drugs was a substantial burden on those plaintiffs’
exercise of religion, the plaintiffs in this case had not
met their burden of establishing that the prohibition
on cannabis use imposed a substantial burden on the
plaintiffs’ exercise of religion). In sum, the agencies
here claim an authority under RFRA—to impose a
blanket exemption for self-certifying religious
objectors—that far exceeds what RFRA in fact

35a
authorizes.3 See Hobby Lobby, 573 U.S. at 719 n.30
(noting that a proposed “blanket exemption” for
religious objectors “extended more broadly than the . . .
protections of RFRA” because it “would not have
subjected religious-based objections to the judicial
scrutiny called for by RFRA, in which a court must
consider not only the burden of a requirement on
religious adherents, but also the government’s interest
and how narrowly tailored the requirement is”).
Regardless of our questioning of the agencies’
authority pursuant to RFRA, however, it is of no
moment in this appeal because the accommodation
process likely does not substantially burden the
exercise of religion and hence does not violate RFRA.
“[A] ‘substantial burden’ is imposed only when
individuals are forced to choose between following the
tenets of their religion and receiving a governmental
benefit . . . or coerced to act contrary to their religious
beliefs by the threat of civil or criminal sanctions.”
Navajo Nation v. United States Forest Serv., 535 F.3d
1058, 1070 (9th Cir. 2008); see also Kaemmerling v.
Lappin, 553 F.3d 669, 678 (D.C. Cir. 2008) (“An
The religious exemption’s automatic acceptance of a selfcertification is particularly troublesome given that it has an
immediate detrimental effect on the employer’s female
employees. The religious exemption fails to “take adequate
account of the burdens . . . impose[d] on nonbeneficiaries.” Cutter,
544 U.S. at 720. Similarly, the exemption is not “measured so that
it does not override other significant interests.” Id. at 722; see also
Estate of Thornton v. Caldor, Inc., 472 U.S. 703, 709–10 (1985)
(invalidating a law that “arm[ed]” one type of religious objector
“with an absolute and unqualified right” to violate otherwise
applicable laws, holding that “[t]his unyielding weighting in favor
of [a religious objector] over all other interests” violates the
Religion Clauses).
3

36a
inconsequential or de minimis burden on religious
practice” is not a substantial burden). Whether a
government action imposes a substantial burden on
sincerely-held religious beliefs is a question of law.
Guam v. Guerrero, 290 F.3d 1210, 1222 n.20 (9th Cir.
2002).
The Supreme Court has not yet decided whether
the accommodation violates RFRA. In Hobby Lobby,
the Court suggested that it did not. The Court
described the accommodation as “effectively
exempt[ing]
certain
religious
nonprofit
organizations . . . from the contraceptive mandate.”
573 U.S. at 698. The Court characterized the
accommodation as “an approach that is less restrictive
than requiring employers to fund contraceptive
methods that violate their religious beliefs.” Id. at 730.
It observed that, “[a]t a minimum, [the accommodation
did] not impinge on the plaintiffs’ religious belief that
providing insurance coverage for the contraceptives at
issue here violates their religion, and it serves HHS’s
stated interests equally well.” Id. at 731. Specifically,
it highlighted that, “[u]nder the accommodation, the
plaintiffs’ female employees would continue to receive
contraceptive coverage without cost sharing for all
FDA-approved contraceptives, and they would
continue to ‘face minimal logistical and administrative
obstacles . . . because their employers’ insurers would
be responsible for providing information and coverage.”
Id. at 732 (citing 45 CFR §§ 147.131(c)–(d)).
Indeed, before Zubik, eight courts of appeals (of the
nine to have considered the issue) had concluded that
the accommodation process did not impose a

37a
substantial burden on religious exercise under RFRA.4
The Supreme Court then vacated the nine circuit cases
addressing the issue without discussing the merits.
See, e.g., Zubik, 136 S. Ct. at 1560. After Zubik, the
Third Circuit has reiterated that the accommodation
process did not impose a substantial burden under
RFRA. See Real Alternatives, Inc. v. Sec’y Dep't of
Health & Human Servs., 867 F.3d 338, 356 n.18 (3d
Cir. 2017) (“Although our judgment in Geneva was
vacated by the Supreme Court, it nonetheless sets
forth the view of our [c]ourt, which was based on
See Priests for Life v. U.S. Dep’t of Health & Human Servs., 772
F.3d 229 (D.C. Cir. 2014), vacated, Zubik, 136 S. Ct. at 1561;
Catholic Health Care Sys. v. Burwell, 796 F.3d 207 (2d Cir. 2015),
vacated, 136 S. Ct. 2450 (2016); Geneva Coll. v. Sec’y U.S. Dep’t
of Health & Human Servs., 778 F.3d 422 (3d Cir. 2015), vacated,
Zubik, 136 S. Ct. at 1561; E. Tex. Baptist Univ. v. Burwell, 793
F.3d 449 (5th Cir. 2015), vacated, Zubik, 136 S. Ct. at 1561; Mich.
Catholic Conference & Catholic Family Servs. v. Burwell, 807
F.3d 738 (6th Cir. 2015), vacated, 136 S. Ct. 2450 (2016); Grace
Schs. v. Burwell, 801 F.3d 788 (7th Cir. 2015), vacated, 136 S. Ct.
2011 (2016); Little Sisters of the Poor Home for the Aged, Denver,
Colo. v. Burwell, 794 F.3d 1151 (10th Cir. 2015), vacated, Zubik,
136 S. Ct. at 1561; Eternal Word Television Network v. Sec’y of
U.S. Dep’t Health & Human Servs., 818 F.3d 1122 (11th Cir.
2016), vacated, 2016 WL 11503064 (11th Cir. May 31, 2016) (No.
14-12696-CC), as modified by 2016 WL 11504187 (11th Cir. Oct.
3, 2016).
4

Only the Eighth Circuit has concluded otherwise. See Sharpe
Holdings, Inc. v. U.S. Dep’t of Health & Human Servs., 801 F.3d
927, 945 (8th Cir. 2015) (affirming grant of preliminary
injunction to religious objectors because “they [were] likely to
succeed on the merits of their RFRA challenge to the
contraceptive mandate and the accommodation regulations”),
vacated sub nom. Dep’t of Health & Human Servs. v. CNS Int’l
Ministries, No. 15-775, 2016 WL 2842448, at *1 (U.S. May 16,
2016).

38a
Supreme Court precedent, that we continue to believe
to be correct regarding . . . our conclusion that the
regulation at issue there did not impose a substantial
burden”).
We have not previously expressed any views on the
matter, whether before or after Zubik. We now hold
that the accommodation process likely does not
substantially burden the exercise of religion. An
organization with a sincere religious objection to
arranging contraceptive coverage need only send a selfcertification form to the insurance issuer or the TPA,
or send a written notice to DHHS. See 29 C.F.R.
§ 2590.715-2713A(b)(1)(ii). Once the organization has
taken the simple step of objecting, all actions taken to
pay for or provide the organization’s employees with
contraceptive care is carried out by a third party, i.e.,
insurance issuer or TPA. See, e.g., 45 C.F.R.
§ 147.131(d) (requiring that the issuer or third-party
administrator notify the employees in separate mailing
that that it will be providing contraceptive care
separate from the employer, with the mailing
specifying that employer is in no way “administer[ing]
or fund[ing]” the contraceptive care); 45 C.F.R.
§ 147.131(d) (prohibiting third parties from directly or
indirectly charging objecting organizations for the cost
of contraceptive coverage and obligating the third
parties to pay for the contraceptive care).
Once it has opted out, the organization’s obligation
to contract, arrange, pay, or refer for access to
contraception is completely shifted to third parties.
The organization may then freely express its
opposition to contraceptive care. Viewed objectively,
completing a form stating that one has a religious
objection is not a substantial burden—it is at most a de

39a
minimis burden. The burden is simply a notification,
after which the organization is relieved of any role
whatsoever in providing objectionable care. By
contrast, cases involving substantial burden under
RFRA have involved more significant burdens on
religious objectors. See O Centro, 546 U.S. at 425–26
(substantial burden where the Controlled Substances
Act prevented the religious objector plaintiffs from ever
again engaging in a sacramental ritual); Hobby Lobby,
573 U.S. at 719–26 (substantial burden, in the absence
of the accommodation, where the contraceptive care
requirement required for-profit corporations to pay
out-of-pocket for the use of religiously- objectionable
contraceptives by employees).
Appellants
further
argue
that
religious
organizations are forced to be complicit in the provision
of contraceptive care, even with the accommodation.
But even in the context of a self-insured plan subject to
ERISA, an objecting organization’s only act—and the
only act required by the government—is opting out by
form or notice. The objector need not separately
contract to provide or fund contraceptive care. The
accommodation, in fact, is designed to ensure such
organizations are not complicit and to minimize their
involvement. To the extent that appellants object to
third parties acting in ways contrary to an
organization’s religious beliefs, they have no recourse.
See Lyng v. Nw. Indian Cemetery Protective Ass’n, 485
U.S. 439, 449 (1988) (government action does not
constitute a substantial burden, even if the challenged
action “would interfere significantly with private
persons’ ability to pursue spiritual fulfillment
according to their own religious beliefs,” if the
government action does not coerce the individuals to
violate their religious beliefs or deny them “the rights,

40a
benefits, and privileges enjoyed by other citizens”).
RFRA does not entitle organizations to control their
employees’ relationships with third parties that are
willing and obligated to provide contraceptive care.
Because appellants likely have failed to
demonstrate a substantial burden on religious
exercise, we need not address whether the government
has shown a compelling interest or whether it has
adopted the least restrictive means of advancing that
interest. See Forest Serv., 535 F.3d at 1069. Because
the accommodation process likely does not violate
RFRA, the final rules are neither required by, nor
authorized under, RFRA.5 The district court did not err
in so concluding.
3.
“Unexplained inconsistency” between an agency’s
actions is “a reason for holding an interpretation to be
an arbitrary and capricious change.” Nat’l Cable &
Telecomms. Ass’n v. Brand X Internet Servs., 545 U.S.
967, 981 (2005). A rule change complies with the APA
if the agency (1) displays “awareness that it is
changing position,” (2) shows that “the new policy is
permissible under the statute,” (3) “believes” the new
policy is better, and (4) provides “good reasons” for the
new policy, which, if the “new policy rests upon factual
findings that contradict those which underlay its prior
policy,” must include “a reasoned explanation . . . for
disregarding facts and circumstances that underlay or
Little Sisters also points to 42 U.S.C. § 2000bb-4, but that
provision merely provides that exemptions that otherwise comply
with the Establishment Clause “shall not constitute a violation”
of RFRA. It does not address whether federal agencies have the
authority affirmatively to create exemptions in the first instance.
5

41a
were engendered by the prior policy.” FCC v. Fox
Television Stations, Inc., 556 U.S. 502, 515–16 (2009)
(emphasis omitted); see also Encino Motorcars, LLC v.
Navarro, 136 S. Ct. 2117, 2124–26 (2016) (describing
these principles).
The district court held that the states are also likely
to prevail on their claim that the agencies failed to
provide “a reasoned explanation . . . for disregarding
facts and circumstances that underlay or were
engendered by the prior policy.” We need not reach this
issue, having already concluded that no statute likely
authorized the agencies to issue the final rules and
that the rules were thus impermissible. We will reach
the full merits of this issue, if necessary, upon review
of the district court’s decision on the permanent
injunction
B.
A plaintiff seeking preliminary relief must
“demonstrate that irreparable injury is likely in the
absence of an injunction.” Winter, 555 U.S. at 22
(emphasis omitted). The analysis focuses on
irreparability, “irrespective of the magnitude of the
injury.” Simula, Inc. v. Autoliv, Inc., 175 F.3d 716, 725
(9th Cir. 1999).
The district court concluded that the states are
likely to suffer irreparable harm absent an injunction.
This decision was not an abuse of discretion. As
discussed in our prior opinion, the plaintiff states will
likely suffer economic harm from the final rules, and
such harm is irreparable because the states will not be
able to recover monetary damages flowing from the
final rules. California, 911 F.3d at 581. This harm is

42a
not speculative; it is sufficiently concrete and
supported by the record. Id.
C.
Because the government is a party, we consider the
balance of equities and the public interest together.
Drakes Bay Oyster Co. v. Jewell, 747 F.3d 1073, 1092
(9th Cir. 2014). The district court concluded that the
balance of equities tips sharply in favor of the plaintiff
states and that the public interest tip in favor of
granting the preliminary injunction. We have
considered the district court’s analysis carefully, and
we hold there is no basis to conclude that its decision
was illogical, implausible, or without support in the
record. Finalizing that issue must await any appeal
from the district court’s permanent injunction.
VI.
We affirm the preliminary injunction, but we
emphasize that our review here is limited to abuse of
discretion. Because of the limited scope of our review
and “because the fully developed factual record may be
materially different from that initially before the
district court,” our disposition is only preliminary.
Melendres v. Arpaio, 695 F.3d 990, 1003 (9th Cir. 2012)
(quoting Sports Form, Inc. v. United Press Int’l, Inc.,
686 F.2d 750, 753 (9th Cir. 1982)). At this stage,
“[m]ere disagreement with the district court’s
conclusions is not sufficient reason for us to reverse the
district court’s decision regarding a preliminary
injunction.” Nat’l Wildlife Fed’n v. Nat’l Marine
Fisheries Serv., 422 F.3d 782, 793 (9th Cir. 2005). The
injunction only preserves the status quo until the
district court renders judgment on the merits based on
a fully developed record.

43a
AFFIRMED
__________________________________________________
KLEINFELD, Senior Circuit Judge, dissenting:
I respectfully dissent. This case is moot, so we lack
jurisdiction to address the merits.
The casual reader may imagine that the dispute is
about provision of contraception and abortion services
to women. It is not. No woman sued for an injunction
in this case, and no affidavits have been submitted
from any women establishing any question in this case
about whether they will be deprived of reproductive
services or harmed in any way by the modification of
the regulation.
This case is a claim by several states to prevent a
modification of a regulation from going into effect,
claiming that it will cost them money. Two federal
statutes are at issue, the Affordable Care Act1 and the
Religious Freedom Restoration Act,2 as well as the
Trump Administration’s modification of an Obama
Administration
regulation
implementing
the
Affordable Care Act. But the injunction before us no
longer matters, because a national injunction is
already in effect, and has been since January 14 of this
year, preventing the modification from going into
effect.3 Nothing we say or do in today’s decision has any
practical effect on the challenged regulation. We are
1

42 U.S.C. §§ 18001 et seq.

2

42 U.S.C. §§ 2000bb et seq.

Pennsylvania v. Trump, 351 F. Supp. 3d 791, 835 (E.D. Pa.),
aff'd sub nom. Pennsylvania v. President United States, 930 F.3d
543 (3d Cir. 2019), as amended (July 18, 2019).
3

44a
racing to shut a door that has already been shut. We
are precluded, by the case-or-controversy requirement
of Article III, section 2, from opining on whether the door
ought to be shut. We are making the same mistake today
that we made in Yniguez v. Arizonans for Official English,4
when in our zeal to correct what we thought was a wrong,
we issued an injunction on behalf of an individual regarding
her workplace. She no longer worked there, so the Supreme
Court promptly corrected our error because the case was
moot.

The case arises from the difficulty of working out
the relationship between the two statutes, the
regulations under the Affordable Care Act, and a
sequence of Supreme Court decisions bearing on how
the tensions between the two statutes ought to be
relieved. The Affordable Care Act does not say a word
about contraceptive or sterilization services for women.
Congress delegated to the executive branch the entire
matter of “such additional preventive care and
screenings” as the executive agencies might choose to
provide for.
Executive branch agencies, within the Department
of Health and Human Services, created from this wideopen congressional delegation what is called “the
contraceptive mandate.” Here is the statutory
language:
A group health plan and a health insurance
issuer offering group or individual health
insurance coverage shall, at a minimum provide

Yniguez v. Arizonans for Official English, 69 F.3d 920 (9th Cir.
1995), vacated sub nom. Arizonans for Official English v. Arizona,
520 U.S. 43 (1997).
4

45a
coverage for and shall not impose any cost
sharing requirements for–
...
with respect to women, such additional
preventive care and screenings . . . as provided
for in comprehensive guidelines supported by
the
Health
Resources
and
Services
Administration for purposes of this paragraph.5
In 2011, the agencies (not Congress) issued the
guideline applying the no-cost-sharing statutory
provision to contraceptive and sterilization services.
And since then, the public fervor and litigation has
never stopped.
The agencies decided that an exemption ought to be
created for certain religious organizations. An interim
rule doing so was promulgated in 2011, after the
agencies “received considerable feedback” from the
public,6 then in 2012, after hundreds of thousands
more comments, the agencies modified the rule. The
Supreme Court weighed in on the ongoing controversy
about the religious accommodation exemption to the
contraceptives mandate three times, in Burwell v.
Hobby Lobby,7 Wheaton College v. Burwell,8 and Zubik
v. Burwell,9 in 2014 and 2016. None of the decisions
entirely resolved the tension between the Religious
5

42 U.S.C. § 300gg-13(a)(4) (emphasis added).

6

76 Fed. Reg. 46,623.

7

Burwell v. Hobby Lobby Stores, Inc., 573 U.S. 682, 735 (2014).

8

Wheaton Coll. v. Burwell, 573 U.S. 958 (2014).

9

Zubik v. Burwell, 136 S. Ct. 1557, 1559 (2016) (per curiam).

46a
Freedom Restoration Act and the Affordable Care Act
as extended by the contraceptive mandate regulations.
The Court instead gave the parties “an opportunity to
arrive at an approach going forward that accommodate
petitioners’ religious exercise while at the same time
ensuring that women covered by petitioners’ health
plans receive full and equal health coverage, including
contraceptive coverage.”10 Thousands of comments
kept coming to the agencies. After Zubik, the agencies
basically said they could not do what the Supreme
Court said to do: “no feasible approach . . . would
resolve the concerns of religious objectors, while still
ensuring that the affected women receive full and
equal health coverage.”11 But in 2017, after an
executive order directing the agencies to try again, the
agencies did so, issuing the interim final rules at issue
in our previous decision12 and the final rule at issue
now.
The reason why the case before us is moot is that
operation of the new modification to the regulation has
itself already been enjoined. The District Court for the
Eastern District of Pennsylvania issued a nationwide
injunction on January 14 of this year, enjoining

10

Id. at 1560 (internal quotation marks omitted).

Dep’t of Labor, FAQs About Affordable Care Act
Implementation Part 36, at 4, available at https://www.dol.gov/
sites/default/files/ebsa/about-ebsa/our-activities/resourcecenter/faqs/ aca-part-36.pdf.
11

82 Fed. Reg. 47,792, 47,807–08 (Oct. 13, 2017); 82 Fed. Reg.
47,838, 47,849 (Oct. 13, 2017); California v. Azar, 911 F.3d 558
(9th Cir. 2018), cert. denied sub nom. Little Sisters of the Poor
Jeanne Jugan Residence v. California, 139 S. Ct. 2716 (2019).
12

47a
enforcement of the regulation before us.13 The Third
Circuit affirmed that nationwide injunction on July 12
of this year.14 That nationwide injunction means that
the preliminary injunction before us is entirely without
effect. If we affirm, as the majority does, nothing is
stopped that the Pennsylvania injunction has not
already stopped. Were we to reverse, and direct that
the district court injunction be vacated, the rule would
still not go into effect, because of the Pennsylvania
injunction. Nothing the district court in our case did,
or that we do, matters. We are talking to the air,
without practical consequence. Whatever differences
there may be in the reasoning for our decision and the
Third Circuit’s have no material significance, because
they do not change the outcome at all; the new
regulation cannot come into effect.
When an appeal becomes moot while pending, as
ours has, the court in which it is being litigated must
dismiss it.15 The Supreme Court has repeatedly held
that “[t]o qualify as a case for federal-court
adjudication, ‘an actual controversy must be extant at
all stages of review, not merely at the time the
complaint is filed.’”16 “It is true, of course, that
mootness can arise at any stage of litigation, . . . that
federal courts may not give opinions upon moot

13

Pennsylvania v. Trump, 351 F. Supp. 3d 791 (E.D. Pa. 2019).

Pennsylvania v. President United States, 930 F.3d 543, 556 (3d
Cir. 2019), as amended (July 18, 2019).
14

15

Murphy v. Hunt, 455 U.S. 478, 481 (1982).

Arizonans for Official English, 520 U.S. at 67 (quoting Preiser
v. Newkirk, 422 U.S. 395, 401 (1975)).
16

48a
questions or abstract propositions.”17 “Many cases
announce the basic rule that a case must remain alive
throughout the course of appellate review.”18
The states will not spend a penny more with the
district court injunction before us now than they would
spend without it, because the new regulation that they
claim will cost them money cannot come into effect.
Because of the Pennsylvania nationwide injunction, we
have no case or controversy before us.
I disagree with the majority as well on standing and
on the merits. The standing issue before us now is new.
It is not the self-inflicted harm issue we resolved
(incorrectly, as I explained in my previous dissent19),
but the new question of whether there is any concrete
injury affording standing to the states in light of the
nationwide injunction. And on the merits, Chevron20
Calderon v. Moore, 518 U.S. 149, 150 (1996) (internal quotation
marks omitted).
17

13C C. Wright, A. Miller, & E. Cooper, Federal Practice and
Procedure § 3533.10, pp. 555 (3d ed.); see also U.S. v. SanchezGomez, 138 S. Ct. 1532, 1537 (2018), Kingdomware Technologies,
Inc. v. U.S., 136 S. Ct. 1969, 1975 (2016), Campbell-Ewald Co. v.
Gomez, 136 S. Ct. 663, 669 (2016), Genesis Healthcare Corp. v.
Symczyk, 569 U.S. 66, 71 (2013), Decker v. Northwest
Environmental Defense Center, 568 U.S. 597, 609 (2013), Chafin
v. Chafin, 568 U.S. 165, 171–72 (2013), Federal Election Com’n
[sic] v. Wisconsin Right To Life, Inc., 551 U.S. 449, 461 (2007),
Spencer v. Kemna, 523 U.S. 1, 7 (1998), Arizonans for Official
English, 520 U.S. at 67, Calderon, 518 U.S. at 150.
18

California v. Azar, 911 F.3d 558, 585 (9th Cir. 2018) (Kleinfeld,
J., dissenting), cert. denied sub nom. Little Sisters of the Poor
Jeanne Jugan Residence v. California, 139 S. Ct. 2716 (2019).
19

Chevron, U.S.A., Inc. v. Nat. Res. Def. Council, Inc., 467 U.S.
837, 843–44 (1984) (“If Congress has explicitly left a gap for the
20

49a
deference ought to be applied, since Congress
delegated the material issue, what “additional
preventive care and screenings” for women ought to be
without cost sharing requirements, to the Executive
Branch, and that branch resolved it in a reasonable
way not contrary to the statute. But it does not matter
which of us is correct. Either view could prevail here,
without any concrete consequence. The regulation we
address cannot come into effect.
Of course I agree with the majority that the
circumstances that mooted the case in Arizonans for
Official English differ from the circumstances that
moot the case before us. I cited it because there, as
here, in our zeal to correct what we thought was wrong,
we acted without jurisdiction because the case had
become moot. As for the proposition that we ought to
act under the exception for “cases capable of repetition,
yet evading review,” neither branch of the exception
applies. Most obviously, the changes in the regulations,
which are what matter, far from “evading review,”
have been reviewed to a fare-thee-well all over the
country.21 As for the likelihood of repetition, so far the
hundreds of thousands of comments about the
regulation, and the continual changes in the
regulation, suggest a likelihood that if the case comes
agency to fill, there is an express delegation of authority to the
agency to elucidate a specific provision of the statute by
regulation.”).
Pennsylvania v. President United States, 930 F.3d 543, 555 (3d
Cir. 2019), as amended (July 18, 2019); Massachusetts v. United
States Dep’t of Health & Human Servs., 923 F.3d 209, 228 (1st
Cir. 2019); California v. Azar, 911 F.3d 558, 566 (9th Cir. 2018),
cert. denied sub nom. Little Sisters of the Poor Jeanne Jugan
Residence v. California, 139 S. Ct. 2716 (2019).
21

50a
before us again in one form or another, it is fairly likely
to be at least somewhat different. Nor do I think that
comity is well-served by our presuming to review
whether the Eastern District of Pennsylvania, as
affirmed by the Third Circuit, had jurisdiction to issue
an injunction covering the Ninth Circuit.
We need not and should not reach the merits of this
preliminary injunction. This case is resolved by
mootness.

51a
APPENDIX B
UNITED STATES DISTRICT COURT
NORTHERN DISTRICT OF CALIFORNIA
STATE OF
CALIFORNIA, et at.,

Case No. 17-cv-05783HSG

Plaintiffs,

ORDER GRANTING
PLAINTIFFS’
MOTION FOR A
PRELIMINARY
INJUNCTION

v.
HEALTH AND HUMAN
SERVICES, et al.,
Defendants.

Re: Dkt. No. 174

Pending before the Court is Plaintiffs’ motion for a
preliminary injunction. See Dkt. No. 174. In short,
Plaintiffs seek to prevent the implementation of rules
creating a religious exemption (the “Religious Exemption”) and a moral exemption (the “Moral Exemption”) to the contraceptive mandate contained within
the Affordable Care Act (“ACA”). See id. at 1; Religious Exemptions and Accommodations for Coverage
of Certain Preventive Services Under the Affordable
Care Act, 83 Fed. Reg. 57,536 (Nov. 15, 2018) (“Religious Exemption”); Moral Exemptions and Accommodations for Coverage of Certain Preventive Services
Under the Affordable Care Act, 83 Fed. Reg. 57,592
(Nov. 15, 2018) (“Moral Exemption”) (collectively,
“the 2019 Final Rules” or “Final Rules”). Plaintiffs
are the States of California, Connecticut, Delaware,
Hawaii, Illinois, Maryland, Minnesota (by and
through its Department of Human Services), New
York, North Carolina, Rhode Island, Vermont, and

52a
Washington, the Commonwealth of Virginia, and the
District of Columbia.1 Federal Defendants are Alex
M. Azar, II, in his official capacity as Secretary of the
Department of Health and Human Services; the Department of Health and Human Services (“HHS”);
Alexander Acosta, in his official capacity as Secretary
of the Department of Labor; the Department of Labor;
Steven Mnuchin, in his official capacity as Secretary
of the Department of the Treasury; and the Department of the Treasury. Two additional parties were
previously granted the right to enter this case as
permissive intervenors: Little Sisters of the Poor,
Jeanne Jugan Residence (“Little Sisters”) and March
for Life Education and Defense Fund (“March for
Life”). See Dkt. Nos. 115, 134. Little Sisters is “a religious nonprofit corporation operated by an order of
Catholic nuns whose faith inspires them to spend
their lives serving the sick and elderly poor.” Motion
to Intervene, Dkt. No. 38 at 2. March for Life is a
“non-religious non-profit advocacy organization”
founded in response to the Supreme Court’s 1973 decision in Roe v. Wade. Motion to Intervene, Dkt. No.
87 at 3. Its stated purpose is “to oppose the destruction of human life at any stage before birth, including
by abortifacient methods that may act after the union
of a sperm and ovum.” Id.
For the reasons set out below, the motion is granted to maintain the status quo pending resolution of
Plaintiffs’ claims, and the enforcement of the Final
Rules in the Plaintiff States is preliminarily enjoined.
The Court will refer to Plaintiffs collectively as “States,” notwithstanding the District of Columbia’s participation in the
case.
1

53a
I. BACKGROUND
Before turning to the Plaintiffs’ challenge to the
Final Rules, the Court begins by recounting the sequence of relevant events, beginning with the enactment of the Affordable Care Act in 2010. Although
much of this background was already recounted in the
Court’s prior order, the Court reiterates it here for the
sake of clarity. See California v. Health & Human
Servs., 281 F. Supp. 3d 806 (N.D. Cal. 2017), aff’d in
part, vacated in part, remanded sub nom. California
v. Azar, 911 F.3d 558 (9th Cir. 2018).
A. The Affordable Care Act
In March 2010, Congress enacted the Affordable
Care Act. The ACA included a provision known as the
Women’s Health Amendment, which states:
A group health plan and a health insurance issuer offering group or individual health insurance coverage shall, at a minimum provide coverage for and shall not impose any cost sharing
requirements for . . . with respect to women,
such additional preventive care and screenings . . . as provided for in comprehensive
guidelines supported by the Health Resources
and Services Administration for purposes of
this paragraph.
42 U.S.C. § 300gg-13(a)(4).
B. The 2010 IFR and Subsequent Regulations
On July 19, 2010, under the authority of the Women’s Health Amendment, several federal agencies (including HHS, the Department of Labor, and the Department of the Treasury) issued an interim final rule
(“the 2010 IFR”). See 75 Fed. Reg. 41,726. It required,

54a
in part, that health plans provide “evidence-informed
preventive care” to women, without cost sharing and
in compliance with “comprehensive guidelines” to be
provided by HHS’s Health Resources and Services
Administration (“HRSA”). Id. at 41,728.
The agencies found they had statutory authority
“to promulgate any interim final rules that they determine[d were] appropriate to carry out the” relevant
statutory provisions. Id. at 41,729-30. The agencies
also determined they had good cause to forgo the general notice of proposed rulemaking required under the
Administrative Procedure Act (“APA”), 5 U.S.C. § 553.
Id. at 41,730. Specifically, the agencies determined
that issuing such notice would be “impracticable and
contrary to the public interest” because it would not
allow sufficient time for health plans to be timely designed to incorporate the new requirements under the
ACA, which were set to go into effect approximately
two months later. Id. The agencies requested that
comments be submitted by September 17, 2010, the
date the IFR was scheduled to go into effect.
On September 17, 2010, the agencies first promulgated regulations pursuant to the 2010 IFR. See 45
C.F.R.
§ 147.310(a)(1)(iv)
(HHS);
29
C.F.R.
§ 2590.715-2713 (Department of Labor); 26 C.F.R.
§ 54.9815-2713 (Department of the Treasury).2 As relevant here, the regulations were substantively identical to the 2010 IFR, stating that HRSA was to provide

The Department of the Treasury’s regulations were first promulgated in 2012, two years after those of HHS and the Department of Labor.
2

55a
“binding, comprehensive health plan coverage guidelines.”
C. The 2011 HRSA Guidelines
From November 2010 to May 2011, a committee
convened by the Institute of Medicine met in response
to the charge of HHS’s Office of the Assistant Secretary for Planning and Evaluation: to “convene a diverse committee of experts” related to, as relevant
here, women’s health issues. Inst. of Med., Clinical
Preventive Services for Women: Closing the Gaps, 1,
23 (2011), https://www.nap.edu/read/13181/chapter/1.
In July 2011, the committee issued a report recommending that private health insurance plans be required to cover all contraceptive methods approved by
the Food and Drug Administration (“FDA”), without
cost sharing. Id. at 102-10. On August 1, 2011, HRSA
issued its preventive care guidelines (“2011 Guidelines”), defining preventive care coverage to include
all FDA-approved contraceptive methods. See Health
Res. & Servs. Admin., Women’s Preventive Services
Guidelines, https://www.hrsa.gov/womens-guidelines
/index.html.3

On December 20, 2016, HRSA updated the guidelines (“2016
Guidelines”), clarifying that “[c]ontraceptive care should include
contraceptive counseling, initiation of contraceptive use, and follow-up care,” as well as “enumerating the full range of contraceptive methods for women” as identified by the FDA. See Health
Res. & Servs. Admin., Women’s Preventive Services Guidelines,
https://www.hrsa.gov/womens-guidelines-2016/index.html (last
updated Oct. 2017).
3

56a
D. The 2011 IFR and the Original Religious
Exemption
On August 3, 2011, the agencies issued an IFR
amending the 2010 IFR. See 76 Fed. Reg. 46,621 (“the
2011 IFR”). Based on the “considerable feedback” they
received regarding contraceptive coverage for women,
the agencies stated that it was “appropriate that
HRSA, in issuing [its 2011] Guidelines, take[] into
account the effect on the religious beliefs of certain
religious employers if coverage of contraceptive services were required.” Id. at 46,623. As such, the agencies provided HRSA with the “additional discretion to
exempt certain religious employers from the [2011]
Guidelines where contraceptive services are concerned.” Id. They defined a “religious employer” as
one that:
(1) [h]as the inculcation of religious values as
its purpose; (2) primarily employs persons who
share its religious tenets; (3) primarily serves
persons who share its religious tenets; and
(4) is a non-profit organization under [the relevant statutory provisions, which] refer to
churches, their integrated auxiliaries, and conventions or associations of churches, as well as
to the exclusively religious activities of any religious order.
Id.
The 2011 IFR went into effect on August 1, 2011.
The agencies again found that they had both statutory authority and good cause to forgo the APA’s advance notice and comment requirement. Id. at 46,624.
Specifically, they found that “providing for an additional opportunity for public comment [was] unneces-

57a
sary, as the [2010 IFR] . . . provided the public with
an opportunity to comment on the implementation of
the preventive services requirement in this provision,
and the amendments made in [the 2011 IFR were] in
fact based on such public comments.” Id. The agencies
also found that notice and comment would be “impractical and contrary to the public interest,” because
that process would result in a delay of implementation of the 2011 Guidelines. See id. The agencies further stated that they were issuing the rule as an IFR
in order to provide the public with some opportunity
to comment. Id. They requested comments by September 30, 2011.
On February 15, 2012, after considering more than
200,000 responses, the agencies issued a final rule
adopting the definition of “religious employer” set
forth in the 2011 IFR. See 77 Fed. Reg. 8,725. The final rule also established a temporary safe harbor,
during which the agencies
plan[ned] to develop and propose changes to
these final regulations that would meet two
goals—providing contraceptive coverage without cost-sharing to individuals who want it and
accommodating non-exempted, non-profit organizations’ religious objections to covering
contraceptive services . . . .
Id. at 8,727.
E. The Religious Accommodation
On March 21, 2012, the agencies issued an advance notice of proposed rulemaking (“ANPR”) requesting comments on “alternative ways of providing
contraceptive coverage without cost sharing in order
to accommodate non-exempt, non-profit religious or-

58a
ganizations with religious objections to such coverage.” 77 Fed. Reg. 16,501, 16,503. They specifically
sought to “require issuers to offer group health insurance
coverage without contraceptive coverage to such an organization (or its plan sponsor),” while also “provid[ing]
contraceptive coverage directly to the participants
and beneficiaries covered under the organization’s
plan with no cost sharing.” Id. The agencies requested
comment by June 19, 2012.
On February 6, 2013, after reviewing more than
200,000 comments, the agencies issued proposed rules
that (1) simplified the criteria for the religious employer exemption; and (2) established an accommodation for eligible organizations with religious objections
to providing contraceptive coverage. See 78 Fed. Reg.
8,456, 8,458-59. The proposed rule defined an “eligible
organization” as one that (1) “opposes providing coverage for some or all of the contraceptive services required to be covered”; (2) “is organized and operates
as a nonprofit entity”; (3) “holds itself out as a religious organization”; and (4) self-certifies that it satisfies these criteria. Id. at 8,462. Comments on the proposed rule were due April 5, 2013.
On July 2, 2013, after reviewing more than
400,000 comments, the agencies issued final rules
simplifying the religious employer exemption and establishing the religious accommodation. 78 Fed. Reg.
39,870.4 With respect to the latter, the final rule re-

As to the definition of a religious employer, the final rule “eliminate[ed] the first three prongs and clarif[ied] the fourth prong of
the definition” adopted in 2012. 78 Fed. Reg. 39,874. Under this
new definition, “an employer that [was] organized and operate[d]
4

59a
tained the definition of “eligible organization” set
forth in the proposed rule. Id. at 39,874. Under the
accommodation, an eligible organization that met a
“self-certification standard” was “not required to contract, arrange, pay, or refer for contraceptive coverage,” but its “plan participants and beneficiaries . . .
[would] still benefit from separate payments for contraceptive services without cost sharing or other
charge,” as required by law. Id. The final rules were
effective August 1, 2013.
F. The Hobby Lobby and Wheaton College
Decisions
On June 30, 2014, the Supreme Court issued its
opinion in Burwell v. Hobby Lobby Stores, Inc., in
which three closely-held corporations challenged the
requirement that they “provide health-insurance coverage for methods of contraception that violate[d] the
sincerely held religious beliefs of the companies’ owners.”
134 S. Ct. at 2759. The Court held that this requirement
violated the Religious Freedom Restoration Act of
1993 (“RFRA”), 42 U.S.C. § 2000bb et seq., because it
was not the “least restrictive means” of serving the
government’s proffered compelling interest in guaranteeing cost-free access to certain methods of contraception. See Hobby Lobby, 134 S. Ct. at 2781-82.5 The
Court pointed to the religious accommodation as support for this conclusion: “HHS itself has demonstrated
as a nonprofit entity and [was] referred to in section
6033(a)(3)(A)(i) or (iii) of the Code [was] considered a religious
employer for purposes of the religious employer exemption.” Id.
The Court assumed without deciding that such an interest was
compelling within the meaning of RFRA. Hobby Lobby, 134 S.
Ct. at 2780
5

60a
that it has at its disposal an approach that is less restrictive than requiring employers to fund contraceptive methods that violate their religious beliefs. . . .
HHS has already established an accommodation for
nonprofit organizations with religious objections.” Id.
at 2782. The Court stated that the Hobby Lobby ruling “[did] not decide whether an approach of this type
complies with RFRA for purposes of all religious
claims,” and said its opinion “should not be understood to hold that an insurance-coverage mandate
must necessarily fall if it conflicts with an employer’s
religious beliefs.” Id. at 2782-83.
Several days later, the Court issued its opinion in
Wheaton College v. Burwell, 134 S. Ct. 2806 (2014).
The plaintiff was a nonprofit college in Illinois that
was eligible for the accommodation. Id. at 2808 (Sotomayor, J., dissenting). Wheaton College sought an
injunction, however, “on the theory that its filing of a
self-certification form [would] make it complicit in the
provision of contraceptives by triggering the obligation for someone else to provide the services to which
it objects.” Id. The Court granted the application for
an injunction, ordering that it was sufficient for the
college to “inform[] the Secretary of Health and Human Services in writing that it is a nonprofit organization that holds itself out as religious and has religious objections to providing coverage for contraceptive services.” Id. at 2807. In other words, the college
was not required to “use the form prescribed by the
[g]overnment,” nor did it need to “send copies to
health insurance issuers or third-party administrators.” Id. The Court stated that its order “should not
be construed as an expression of the Court’s views on
the merits.” Id.

61a
G. Post-Hobby Lobby and -Wheaton Regulatory Actions
Shortly thereafter, on August 27, 2014, the agencies initiated two regulatory actions. First, in light of
Hobby Lobby, they issued proposed rules “amend[ing]
the definition of an eligible organization [for purposes
of the religious accommodation] to include a closely
held for-profit entity that has a religious objection to
providing coverage for some or all of the contraceptive
services otherwise required to be covered.” 79 Fed.
Reg. 51,118, 51,121. Comments were due on October
21, 2014.
Second, in light of Wheaton, the agencies issued
IFRs (“the 2014 IFRs”) providing “an alternative process for the sponsor of a group health plan or an institution of higher education to provide notice of its religious objection to coverage of all or a subset of contraceptive services, as an alternative to the EBSA Form
700 [i.e., the standard] method of self-certification.” 79
Fed. Reg. 51,092, 51,095. The agencies asserted they
had both statutory authority and good cause to forgo
the notice and comment period, stating that such a
process would be “impracticable and contrary to the
public interest,” particularly in light of Wheaton. Id.
at 51,095-96. The IFRs were effective immediately,
and comments were due October 27, 2014.
After considering more than 75,000 comments on
the proposed rule, the agencies issued final rules “extend[ing] the accommodation to a for-profit entity that
is not publicly traded, is majority-owned by a relatively small number of individuals, and objects to providing contraceptive coverage based on its owners’ religious beliefs”—i.e., to closely-held entities. 80 Fed.
Reg. 41,318, 41,324. The agencies also issued a final

62a
rule “continu[ing] to allow eligible organizations to
choose between using EBSA Form 700 or the alternative process consistent with the Wheaton interim order.” Id. at 41,323.
H. The Zubik Opinion and Subsequent Impasse
On May 16, 2016, the Supreme Court issued its
opinion in Zubik v. Burwell, 136 S. Ct. 1557 (2016)
(per curiam). The petitioners, primarily non-profit organizations, were eligible for the religious accommodation, but challenged the requirement that they
submit notice to either their insurer or the federal
government as a violation of RFRA. Zubik, 136 S. Ct.
at 1558. “Following oral argument, the Court requested supplemental briefing from the parties addressing
‘whether contraceptive coverage could be provided to
petitioners’ employees, through petitioners’ insurance
companies, without any such notice from petitioners.’”
Id. at 1558-59. After the parties stated that “such an
option [was] feasible,” the Court remanded to afford
them “an opportunity to arrive at an approach going
forward that accommodates petitioners’ religious exercise while at the same time ensuring that women
covered by petitioners’ health plans ‘receive full and
equal health coverage, including contraceptive coverage.’” Id. at 1559 (emphasis added). As in Wheaton,
“[t]he Court express[ed] no view on the merits of the
cases,” and did not decide “whether petitioners’ religious exercise has been substantially burdened,
whether the [g]overnment has a compelling interest,
or whether the current regulations are the least restrictive means of serving that interest.” Id. at 1560.
On July 22, 2016, the agencies issued a request for
information (“RFI”) on whether, in light of Zubik,

63a
there are alternative ways (other than those offered in current regulations) for eligible organizations that object to providing coverage for
contraceptive services on religious grounds to
obtain an accommodation, while still ensuring
that women enrolled in the organizations’
health plans have access to seamless coverage
of the full range of [FDA]-approved contraceptives without cost sharing.
81 Fed. Reg. 47,741, 47,741 (July 22, 2016). Comments were due September 20, 2016. On January 9,
2017, the agencies issued a document titled “FAQs
About Affordable Care Act Implementation Part 36”
(“FAQs”). See Dep’t of Labor, FAQs About Affordable
Care Act Implementation Part 36 (Jan. 9, 2017),
https://www.dol.gov/sites/default/files/ebsa/aboutebsa/our-activities/resource-center/faqs/aca-part36.pdf.
The FAQs stated that, based on the 54,000 comments received in response to the July 2016 RFI,
there was “no feasible approach . . . at this time that
would resolve the concerns of religious objectors,
while still ensuring that the affected women receive
full and equal health coverage, including contraceptive coverage.” Id. at 4.
I. The 2017 IFRs
On May 4, 2017, the President issued Executive
Order No. 13,798, directing the secretaries of the Departments of the Treasury, Labor, and HHS to “consider issuing amended regulations, consistent with
applicable law, to address conscience-based objections
to the preventive care mandate.” 82 Fed. Reg. 21,675,
21,675. Subsequently, on October 6, 2017, the agen-

64a
cies issued the Religious Exemption IFR and the
Moral Exemption IFR (collectively, “the 2017 IFRs”),
which were effective immediately. The 2017 IFRs departed from the previous regulations in several important ways.
1. The Religious Exemption IFR
First, with the Religious Exemption IFR, the
agencies substantially broadened the scope of the religious exemption, extending it “to encompass entities, and individuals, with sincerely held religious beliefs objecting to contraceptive or sterilization coverage,” and “making the accommodation process optional for eligible organizations.” 82 Fed. Reg. 47,792,
47,807-08. Such entities “will not be required to comply with a self-certification process.” Id. at 47,808.
Just as the IFR expanded eligibility for the exemption, it “likewise” expanded eligibility for the optional
accommodation. Id. at 47,812-13.
In introducing these changes, the agencies stated
they “recently exercised [their] discretion to reevaluate these exemptions and accommodations,” and considered factors including: “the interests served by the
existing Guidelines, regulations, and accommodation
process”; the “extensive litigation”; the President’s executive order; the interest in protecting the free exercise of religion under the First Amendment and
RFRA; the discretion afforded under the relevant
statutory provisions; and “the regulatory process and
comments submitted in various requests for public
comments.” Id. at 47,793. The agencies advanced several arguments they claimed justified the lack of an
advance notice and comment process for the Religious
Exemption IFR, which became effective immediately.

65a
First, the agencies cited 26 U.S.C. § 9833, 29
U.S.C. § 1191c, and 42 U.S.C. § 300gg-92, asserting
that those statutes authorized the agencies “to promulgate any interim final rules that they determine are
appropriate to carry out” the relevant statutory provisions. Id. at 47,813. Second, the agencies asserted
that even if the APA did apply, they had good cause to
forgo notice and comment because implementing that
process “would be impracticable and contrary to the
public interest.” Id. Third, the agencies noted that
“[i]n response to several of the previous rules on this
issue—including three issued as [IFRs] under the
statutory authority cited above—the Departments received more than 100,000 public comments on multiple occasions,” which included “extensive discussion
about whether and by what extent to expand the exemption.” Id. at 47,814. For all of these reasons, the
agencies asserted, “it would be impracticable and contrary to the public interest to engage in full notice and
comment rulemaking before putting these interim final rules into effect.” Id. at 47,815. Comments were
due on December 5, 2017.
2. The Moral Exemption IFR
Also on October 6, 2017, the agencies issued the
Moral Exemption IFR, “expand[ing] the exemption[]
to include additional entities and persons that object
based on sincerely held moral convictions.” 82 Fed.
Reg. 47,838, 47,849. Additionally, “consistent with
[their] expansion of the exemption, [the agencies] expand[ed] eligibility for the accommodation to include
organizations with sincerely held moral convictions
concerning contraceptive coverage,” while also making the accommodation process optional for those entities. Id. The agencies included in the IFR a section

66a
called “Congress’ History of Providing Exemptions for
Moral Convictions,” referencing statutes and legislative history, case law, executive orders, and state analogues. See id. at 47,844-48. The agencies justified the
immediate issuance of the Moral Exemption IFR
without an advance notice and comment process on
grounds similar to those offered regarding the Religious Exemption IFR, stating that “[o]therwise, our
regulations would simultaneously provide and deny
relief to entities and individuals that are, in the
[agencies’] view, similarly deserving of exemptions
and accommodations consistent[] with similar protections in other federal laws.” Id. at 47,855. Comments
were due on December 5, 2017.
3. Preliminary
2017 IFRs

Injunction

Against

the

On October 6, 2017, the States of California, Delaware, Maryland, and New York, and the Commonwealth of Virginia filed a complaint, see Dkt. No. 1,
which was followed by a First Amended Complaint on
November 1, see Dkt. No. 24 (“FAC”). Plaintiffs alleged that the 2017 IFRs violated Sections 553 and
706 of the Administrative Procedure Act, the Establishment Clause, and the Equal Protection Clause.
FAC ¶¶ 8-12, 116-37. Plaintiffs filed a motion for a
preliminary injunction on November 9, 2017. See Dkt.
No. 28.
a. The Court’s Nationwide Injunction
On December 21, 2017, the Court granted Plaintiffs’ motion for a preliminary injunction. See Dkt. No.
105. The Court held that Plaintiffs had “shown that,
at a minimum, they are likely to succeed on their
claim that Defendants violated the APA by issuing

67a
the 2017 IFRs without advance notice and comment.”
Id. at 17. In addition, the Court held that Plaintiffs
were likely to suffer irreparable harm, that the balance of equities tipped in Plaintiffs’ favor, and that
the public interest favored granting an injunction. Id.
Accordingly, the Court issued a nationwide preliminary injunction enjoining implementation of the 2017
IFRs. See id. at 28. The Court’s order reinstated the
“state of affairs” that existed prior to October 6, 2017,
including the exemption and accommodation as they
existed following the Zubik remand as well as any
court orders enjoining the Federal Defendants from
enforcing the rules against specific parties. See id. at
29.6
b. Intervenors Little Sisters and March
for Life Enter the Case
On December 29, 2017, the Court granted the Little Sisters’ motion to intervene. See Dkt. No. 115. And
on January 26, 2018, the Court granted March for
Life’s motion to intervene. See Dkt. No. 134.
c. Ninth Circuit Appeal and Decision
Limiting Scope of Injunction
Following the Court’s order granting Plaintiffs’
motion for a preliminary injunction, the agencies, Little Sisters, and March for Life appealed. See Dkt. Nos.
135-38, 142-43.

A federal district court in the Eastern District of Pennsylvania
also entered a preliminary injunction against the IFRs to “maintain the status quo” pending the outcome of a trial on the merits.
See Pennsylvania v. Trump, 281 F. Supp. 3d 553, 585 (E.D. Pa.
2017).
6

68a
On December 13, 2018, the Ninth Circuit issued
an opinion largely affirming this Court’s prior order,
but shrinking the geographic scope of the injunction
to encompass only the states that were plaintiffs at
that time. See California, 911 F.3d at 584. First, the
court held (on an issue of first impression) that venue
was proper in the Northern District of California because “common sense” dictated that “a state with
multiple judicial districts ‘resides’ in every district
within its borders.” Id. at 570. Second, the court held
that the States had standing to bring their procedural
APA claim because the States had shown “with reasonable probability[] that the IFRs will first lead to
women losing employer-sponsored contraceptive coverage, which will then result in economic harm to the
states.” Id. at 571-72. The court noted that the States
had no obligation to identify a specific woman who
would lose coverage, particularly given that the agencies’ regulatory impact analysis estimated that between 31,700 and 120,000 women would lose contraceptive coverage, and that “state and local governments will bear additional economic costs.” Id. at 57172. Third, the court held that the Plaintiffs were likely to succeed on the merits of their APA claim because
the agencies had neither good cause nor statutory authority for bypassing the usual notice and comment
procedure, and that the procedural violation was likely not harmless. Id. at 578-81. Fourth, the court affirmed this Court’s ruling that the Plaintiffs had established the other requirements to entitle them to
injunctive relief because they were likely to suffer irreparable harm absent an injunction, and the balance
of the equities and public interest tilted in favor of
granting an injunction. Id. at 581-82. Fifth, the court
concluded that the scope of the preliminary injunction

69a
was overbroad because an injunction applying only to
the Plaintiff- States would “provide complete relief to
them.” Id. at 584.
J. The 2019 Final Rules
The 2017 IFRs included a call for comments, due
by December 5, 2017. See 82 Fed. Reg. at 47,792; 82
Fed. Reg. at 47,838. Over the 60-day comment period,
the agencies received over 56,000 public comments on
the religious exemption rules, 83 Fed. Reg. at 57,540,
and over 54,000 public comments on the moral exemption rules, 83 Fed. Reg. at 57,596.
On November 15, 2018, the agencies promulgated
the Religious Exemption and Moral Exemption Final
Rules. See 83 Fed. Reg. 57,536; 83 Fed. Reg. 57,592.
The 2019 Final Rules are scheduled to take effect, superseding the enjoined IFRs, on January 14, 2019.
In substance, the Final Rules are nearly identical
to the 2017 IFRs. See Defendants’ Opposition, Dkt.
No. 198 (“Federal Opp.”) at 8 (noting that the “fundamental substance of the exemptions was finalized
as set forth in the IFRs”); see also Supplemental Brief
for the Federal Appellants at 1, California v. Azar,
911 F.3d 558 (9th Cir. 2018) (Nos. 18-15144, 1815166, 18- 15255), 2018 WL 6044850, at *1 (“The substance of the rules remains largely unchanged . . . and
none of the changes is material to the States’ substantive claims in this case.”). The Religious Exemption
made “various changes . . . to clarify the intended
scope of the language” in “response to public comments.” 83 Fed. Reg. at 57,537. Likewise, the Moral
Exemption Final Rule made “various changes . . . to
clarify the intended scope of the language” in “response to public. Comments.” 83 Fed. Reg. at 57,593.

70a
At least three changes in the Final Rules bear
mentioning. First, the Final Rules estimate that “no
more than 126,400 women of childbearing age will be
affected by the expanded exemptions,” which is an increase from the previous estimate of up to 120,000
women. Compare 83 Fed. Reg. at 57,551 n.26 with 82
Fed. Reg. at 47,823. Second, the Final Rules increase
their estimate of the expense of the exemptions to
$67.3 million nationwide annually. See 83 Fed. Reg.
at 57,581. Third, the Final Rules place increased emphasis on the availability of contraceptives at Title X
family-planning clinics as an alternative to contraceptives provided by women’s health insurers. See 83
Fed. Reg. at 57,551; 83 Fed. Reg. at 57,608; see also
83 Fed. Reg. at 25,502, 25,514 (proposed rule rendering women who lose contraceptive coverage because of
religious or moral exemptions eligible for Title X services).
K. Plaintiffs Challenge the Final Rules
On December 18, 2018, Plaintiffs filed a Second
Amended Complaint, alleging that the IFRs and Final
Rules violate Section 553 of the APA, and that the Final Rules violate Section 706 of the APA, the Establishment Clause, and the Equal Protection Clause.
See Dkt. No. 170 (“SAC”) ¶¶ 235-60. Original Plaintiffs—the States of California, Delaware, Maryland,
and New York, and the Commonwealth of Virginia—
were joined by the States of Connecticut, Hawaii, Illinois, Minnesota, North Carolina, Rhode Island, Vermont, and Washington, and the District of Columbia.
Id. at 13-26.
On December 19, Plaintiffs filed a motion for a
preliminary injunction, seeking to enjoin the implementation of the Final Rules. See Dkt. No. 174

71a
(“Mot.”) at 25. The Federal Defendants filed an opposition on January 3, 2019. See Federal Opp. That
same day, both the Little Sisters, see Dkt. No. 197
(“Little Sisters Opp.”), and March for Life, see Dkt.
No. 199 (“March for Life Opp.”), filed oppositions.7 The
States replied on January 8. See Dkt. No. 218 (“Reply”).8
The Court held a hearing on January 11, after
which it took the motion under submission.

The Little Sisters filed a corrected opposition brief on January
10. See Dkt. No. 174.
7

Numerous amici curiae also filed briefs to present their views
on the case. See Dkt. Nos. 212 (American Nurses Association;
American College of Obstetricians and Gynecologists; American
Academy of Nursing; American Academy of Pediatricians; Physicians for Reproductive Health; California Medical Association);
230 (California Women Lawyers; Girls Inc., If/When/How: Lawyering for Reproductive Justice; Lawyers Club of San Diego;
American Association of University Women; American Federation of State, County, and Municipal Employees; American Federation of Teachers; Colorado Women’s Bar Association; National
Association of Social Workers; National Association of Women
Lawyers; Service Employees International Union; Women’s Bar
Association of Massachusetts; Women’s Bar Association of the
District of Columbia; Women Lawyers on Guard, Inc.; Women’s
Bar Association of the State of New York); 231 (National Association for Female Executives; U.S. Women’s Chamber of Commerce); 232 (National Asian Pacific American Women’s Forum;
National Latina Institute for Reproductive Health; National
Women’s Law Center; SisterLove, Inc.); 233 (Commonwealth of
Massachusetts; States of Iowa, Maine, Michigan, Nevada, New
Jersey, New Mexico, Pennsylvania, and Oregon). The Court has
reviewed their filings and considered them in assessing this motion.
8

72a
II. LEGAL STANDARD
A preliminary injunction is a matter of equitable
discretion and is “an extraordinary remedy that may
only be awarded upon a clear showing that the plaintiff is entitled to such relief.” Winter v. Natural Res.
Def. Council, Inc., 555 U.S. 7, 22 (2008). “A plaintiff
seeking preliminary injunctive relief must establish
that [it] is likely to succeed on the merits, that [it] is
likely to suffer irreparable harm in the absence of preliminary relief, that the balance of equities tips in [its]
favor, and that an injunction is in the public interest.”
Id. at 20. Alternatively, an injunction may issue
where “the likelihood of success is such that serious
questions going to the merits were raised and the balance of hardships tips sharply in [the plaintiff’s] favor,” provided that the plaintiff can also demonstrate
the other two Winter factors. Alliance for the Wild
Rockies v. Cottrell, 632 F.3d 1127, 1131-32 (9th Cir.
2011) (citation and internal quotation marks omitted).
Under either standard, Plaintiffs bear the burden of
making a clear showing that they are entitled to this
extraordinary remedy. Earth Island Inst. v. Carlton,
626 F.3d 462, 469 (9th Cir. 2010). The most important
Winter factor is likelihood of success on the merits.
See Disney Enters., Inc. v. VidAngel, Inc., 869 F.3d
848, 856 (9th Cir. 2017).
III. ANALYSIS
A. Venue Is Proper in the Northern District
of California.
Despite a clear holding from the Ninth Circuit,
Federal Defendants continue to press their argument
that venue is not proper in the Northern District because the State of California resides for venue pur-

73a
poses only in the Eastern District, “where Sacramento, the seat of state government, is located.” Federal
Opp. at 10. But the Ninth Circuit held that 28 U.S.C.
1391 “dictates that a state with multiple judicial districts ‘resides’ in every district within its borders.”
California, 911 F.3d at 570. An “interpretation limiting residency to a single district in the state would
defy common sense.” Id. Given the clear precedent
from the Ninth Circuit on this issue, the Court need
not dwell on it: venue is proper in the Northern District.
B. Plaintiffs Have Standing to Sue.
The Little Sisters contend that the States lack
standing to sue, see Little Sisters Opp. at 9, and the
agencies “reserve the right to object” to relief for any
plaintiff that has not established standing, see Federal Opp. at 10 n.4. The Court finds that Plaintiffs have
established both Article III and statutory standing.
1. Plaintiffs Have Article III Standing.
A plaintiff seeking relief in federal court bears the
burden of establishing “the irreducible constitutional
minimum” of standing. Spokeo, Inc. v. Robins, 136 S.
Ct. 1540, 1547 (2016) (quoting Lujan v. Defenders of
Wildlife, 504 U.S. 555, 560 (1992)). First, the plaintiff
must have “suffered an injury in fact.” Spokeo, 136 S.
Ct. at 1547. This requires “an invasion of a legally
protected interest” that is concrete, particularized,
and actual or imminent, rather than conjectural or
hypothetical. Lujan, 504 U.S. at 560 (internal quotation marks omitted). Second, the plaintiff’s injury
must be “fairly traceable to the challenged conduct of
the defendant.” Spokeo, 136 S. Ct. at 1547. Third, the
injury must be “likely to be redressed by a favorable

74a
judicial decision.” Id. (citing Lujan, 504 U.S. at 56061).
“States are not normal litigants for the purposes of
invoking federal jurisdiction,” Massachusetts v. EPA,
549 U.S. 497, 518 (2007), and are “entitled to special
solicitude in [the] standing analysis,” id. at 520. For
instance, states may sue to assert their “quasisovereign interest in the health and well-being—both
physical and economic—of [their] residents in general.” Alfred L. Snapp & Son, Inc. v. Puerto Rico, 458
U.S. 592, 607 (1982). In that case, however, the “interest must be sufficiently concrete to create an actual
controversy between the State and the defendant”
such that the state is more than a nominal party. Id.
at 602.
Here, the Court need not rely on the special solicitude afforded to states, or their power to litigate their
quasi-sovereign interests on behalf of their citizens.
Much more simply, a state may establish standing by
showing a reasonably probable threat to its economic
interests. See California, 911 F.3d at 573; see also
Texas v. United States, 809 F.3d 134, 155 (5th Cir.
2015) (State of Texas had standing to mount APA
challenge to Deferred Action for Parents of Americans
and Lawful Permanent Residents program because
Texas would “incur significant costs in issuing driver’s
licenses to [program] beneficiaries”), aff’d by equally
divided Court, 136 S. Ct. 2271, 2272 (2016). Plaintiffs
have demonstrated at least two ways in which implementation of the Final Rules will damage their
States’ fiscs: through increased reliance on statefunded family-planning programs and through the
state-borne costs of unintended pregnancies.

75a
First, Plaintiffs have shown that the Final Rules
will “lead to women losing employer-sponsored contraceptive coverage, which will then result in economic harm to the states” as these women “turn to statebased programs or programs reimbursed by the
state.” California, 911 F.3d at 571-72. The Little Sisters take issue with the Ninth Circuit’s reasoning because “the States have still failed to identify anyone
who will actually be harmed by the Mandate.” Little
Sisters Opp. at 9. But the Ninth Circuit was clear
that the States need not identify a specific woman
likely to lose contraceptive coverage to establish
standing. California, 911 F.3d at 572. Even if the
States have not identified specific women who will be
impacted by the Final Rules, Federal Defendants
themselves have done much of the work to establish
that Plaintiffs have standing. The Religious Exemption states that up to approximately 126,400 “women
of childbearing age will be affected by the expanded
exemptions.” 83 Fed. Reg. at 57,551 n.26. At an estimated expense of $584 per year per woman impacted,
this amounts to $67.3 million nationwide annually.
See id. at 57,581.9 Further, the Final Rules explicitly
rely on Title X clinics as a backstop for women who
lose contraceptive coverage as a result of the Final
Rules. See id. at 57,551; 83 Fed. Reg. at 57,608; see
also 83 Fed. Reg. at 25,502. But Plaintiffs have shown
that in many of their States, these already cashstrapped Title X clinics are operated in conjunction
The Moral Exemption estimates that approximately 15 women
of childbearing age will lose their access to cost-free contraceptives. See 83 Fed. Reg. at 57,627. At an average cost of $584 annually, this amounts to $8,760 each year. See id. at 57,628.
9

76a
with state family planning services, meaning that any
increase in enrollment will likely increase costs to the
state. See Declaration of Kathryn Kost (“Kost Decl.”),
Dkt. No. 174-19 ¶ 48 (“Title X is able to serve only
one-fifth of the nationwide need for publicly funded
contraceptive care” and “cannot sustain additional
beneficiaries as a result of the Final Rules”); Declaration of Mari Cantwell (“Cantwell Decl.”), Dkt. No.
174-4 ¶ 18 (all California Title X clinics are also California Family Planning, Access, Care, and Treatment
program providers); Declaration of Lauren J. Tobias
(“Tobias Decl.”), Dkt. No. 174-33 ¶ 5 (New York Title
X clinics are same as state family planning program
clinics). Or the States will be forced to shoulder the
costs of the Final Rules more directly, as Federal Defendants refer women to Title X clinics funded directly by the state. See Declaration of Karen Nelson
(“Nelson Decl.”), Dkt. No. 174-25 ¶ 20 ($6 million of
Maryland’s Title X budget comes from state, $3 million from federal government).
In addition, the States have submitted voluminous
and detailed evidence documenting how their female
residents are predicted to lose access to contraceptive
coverage because of the Final Rules—and how those
women likely will turn to state programs to obtain
no-cost contraceptives, at significant cost to the
States. See, e.g., Cantwell Decl., Dkt. No. 174-4 ¶¶ 1618 (Final Rules will result in more women becoming
eligible for California’s Family Planning, Access,
Care, and Treatment program, meaning that “state
dollars may be diverted to provide” contraceptive coverage); Nelson Decl., Dkt. No. 174-25 ¶ 20 (“it will be
difficult for the current [State of Maryland] budget
levels to accommodate the increase in women seeking

77a
[Title X services] after losing contraception coverage
in their insurance plans”); Tobias Decl., Dkt. No. 1743 ¶ 5 (exemptions in Final Rules “will result in more
women receiving” New York Family Planning Program services, thus putting program at “risk [of] being overwhelmed by the increase in patients”); Declaration of Jonathan Werberg, Dkt. No. 174-36 ¶¶ 5-8
(identifying New York employers that are likely to
invoke exemptions “because of their involvement in
previous litigation”: Hobby Lobby, with 720 New York
employees; Nyack College, with 3,000 students and
1,100 employees in New York; and Charles Feinberg
Center for Messianic Jewish Studies, whose parent
university has 1,000 students nationwide). Of course,
under the status quo, these women have a statutory
entitlement to free contraceptives through their regular health insurance and thus impose no cost on the
States. The States have established a causal chain
linking them to harm if the Final Rules were implemented. See California, 911 F.3d at 571-72.
Second, the States have shown that the Final
Rules are likely to result in a decrease in the use of
effective contraception, thus leading to unintended
pregnancies which would impose significant costs on
the States. Some of the most effective contraceptive
methods are also among the most expensive. See Kost
Decl. ¶¶ 15-18, 24. For example, long-acting reversible contraceptives are among the most effective methods, but may cost a woman over $1,000. See id. ¶ 25.
Women who lose their entitlement to cost-free contraceptives are less likely to use an effective method, or
any method at all—resulting in unintended pregnancies. See id. ¶ 27, 36-42; Declaration of Lisa M. Hollier
(“Hollier Decl.”), Dkt. No. 174-15 ¶ 6; Declaration of

78a
Walker A. Wilson (“Wilson Decl.”), Dkt. No. 174-38
¶ 5 (Final Rules may cause women in North Carolina
to “forgo coverage and experience an unintended
pregnancy”); Nelson Decl., Dkt. No. 174-25 ¶ 30 (unintended pregnancy rate of women not using contraception is 45% and loss of coverage will result in more
unintended pregnancies); Declaration of Karyl T. Rattay (“Rattay Decl.”), Dkt. No. 174-30 (Final Rules
“will contribute to an increase in Delaware’s nationally high unintended pregnancy rate as women forego
needed contraception and other services”). Much of
the financial burden of these unintended pregnancies
will be borne by the States. See, e.g., Rattay Decl.,
Dkt. No. 174-30 (in 2010, 71.3% of unplanned births
in Delaware were publicly funded, costing Delaware
$36 million); Declaration of Nicole Alexander-Scott
(“Alexander-Scott Decl.”), Dkt. No. 174-7 ¶ 3 (unintended pregnancies likely to result from Final Rules
will impose costs on state of Rhode Island); Wilson
Decl., Dkt. No. 174-38 ¶ 5 (unintended pregnancies
likely to result from Final Rules will impose costs on
State of North Carolina); Declaration of Nathan Moracco (“Moracco Decl.”), Dkt. No. 174-23 ¶ 5 (State of
Minnesota “may bear a financial risk when women
lose contraceptive coverage” because State is obligated to pay for child delivery and newborn care for children born to low-income mothers).10

Of course, these financial costs to the States do not capture the
additional substantial costs—whether they be financial, professional, or personal—to women who unintendedly become pregnant after losing access to the cost-free contraceptives to which
they are entitled. See, e.g., Planned Parenthood of Se. Pa. v. Casey, 505 U.S. 833, 856 (1992) (“The ability of women to partici10

79a
In sum, Plaintiffs have shown that the challenged
Final Rules pose a reasonably probable threat to their
economic interests because they will be forced to pay
for contraceptives that are no longer provided costfree to women as guaranteed by the Affordable Care
Act, as the Ninth Circuit found with respect to the
five original Plaintiff States. See California, 911 F.3d
at 570. The States also have established a reasonable
probability that they will suffer economic harm from
the consequences of unintended pregnancies resulting
from the reduced availability of contraceptives. These
injuries are directly traceable to the exemptions created by the Final Rules. As the Ninth Circuit noted,
under the APA, the States “will not be able to recover
monetary damages.” Id. at 581 (citing 5 U.S.C. § 702
(permitting “relief other than money damages”)); see
also Haines v. Fed. Motor Carrier Safety Admin., 814
F.3d 417, 426 (6th Cir. 2016) (federal courts do not
have jurisdiction to adjudicate suits seeking monetary damages under the APA). Thus, granting a preliminary injunction is the only effective way to redress the potential harm to the States until the Court
can fully assess the merits. The States have established the requirements of Article III standing.
pate equally in the economic and social life of the Nation has
been facilitated by their ability to control their reproductive
lives.”); Brief of Amici Curiae U.S. Women’s Chamber of Commerce and National Association for Female Executives, Dkt. No.
231 at 12 (58% of women paid out-of-pocket costs for intrauterine
devices prior to Women’s Health Amendment, but only 13% by
March 2014); Brief of Amici Curiae American Association of University Women, et al., Dkt. No. 230 at 16–17 (explaining the
“tremendous and adverse personal, professional, social, and economic effects” of reducing women’s access to contraceptives).

80a
2. Plaintiffs Have Statutory Standing.
In addition to establishing Article III standing, a
plaintiff must show that it “has a cause of action under the statute.” Lexmark Int’l, Inc. v. Static Control
Components, Inc., 572 U.S. 118, 128 (2014). The APA
provides that a “person . . . adversely affected or aggrieved by agency action within the meaning of a relevant statute, is entitled to judicial review thereof.” 5
U.S.C. § 702. Courts have interpreted this provision
to mean that a plaintiff must “establish (1) that there
has been final agency action adversely affecting the
plaintiff, and (2) that, as a result, it suffers legal
wrong or that its injury falls within the zone of interests of the statutory provision the plaintiff claims was
violated.” Citizens for Better Forestry v. U.S. Dep’t of
Agric., 341 F.3d 961, 976 (9th Cir. 2003) (internal
quotation omitted).
First, a final rule is, as the name suggests, a final
agency action. See id. Second, Plaintiffs’ alleged injury—increased costs from providing contraceptives and
from the consequences of unintended pregnancies—is
within the zone of interests of the Women’s Health
Amendment, which was enacted to ensure that women would have access to cost-free contraceptives
through their health insurance. Cf. City of Sausalito
v. O’Neill, 386 F.3d 1186, 1204-05 (9th Cir. 2004)
(plaintiff city within zone of interests of Concessions
Management Improvement Act because it “assert[ed]
injury to its ‘proprietary interest’”); Citizens for Better
Forestry, 341 F.3d at 976 (plaintiffs had statutory
standing because “trying to protect the environment”
was within zone of interests of National Environmental Policy Act). Thus, Plaintiffs have established statutory standing.

81a
C. Plaintiffs Have Shown They Are Entitled
to a Preliminary Injunction.
Plaintiffs are entitled to a preliminary injunction
as to the Final Rules. As to both rules, Plaintiffs have
shown that they are likely to succeed, or at a minimum have raised serious questions going to the merits, on their claim that the Religious Exemption and
the Moral Exemption are inconsistent with the Women’s Health Amendment, and thus violate the APA.
Plaintiffs also have shown that they are likely to suffer irreparable harm as a result of this violation, that
the balance of hardships tips sharply in their favor,
and that the public interest favors granting the injunction.
1. Plaintiffs are likely to succeed in, or
have at a minimum raised serious
questions regarding, their argument
that the Religious Exemption is “not in
accordance with” the ACA, and thus
violates the APA.
Under the APA, “agency decisions may be set
aside only if ‘arbitrary, capricious, an abuse of discretion, or otherwise not in accordance with law.’”
Snoqualmie Indian Tribe v. FERC, 545 F.3d 1207,
1212 (9th Cir. 2008) (quoting 5 U.S.C. § 706(2)(A).
Plaintiffs argue that “[t]he Rules cannot be reconciled
with the text and purpose of the ACA—which seeks to
promote access to women’s healthcare, not limit it.”
Mot. at 10. The Court agrees that Plaintiffs are likely
correct, or have, at a minimum, raised serious questions going to the merits of this claim. To explain why,
the Court must address three contentions made by
the Federal Defendants and the Intervenors: (1) the
Contraceptive Mandate is not actually a “mandate” at

82a
all, but rather a policy determination wholly subject
to the agencies’ discretion; (2) the changes codified in
the Religious Exemption were mandated by RFRA;
and (3) even if the agencies were not required under
RFRA to adopt the Religious Exemption, they nonetheless had discretion to do so.
a. The “Contraceptive Mandate” in the
Women’s Health Amendment is in
fact a statutory mandate.
Echoing the Final Rules, the Federal Defendants
initially argue that “the ACA grants HRSA, and in
turn the Agencies, significant discretion to shape the
content and scope of any preventive-services guidelines adopted pursuant to § 300gg-13(a)(4).” Federal
Opp. at 17; see also Little Sisters Opp. at 12 (“The
ACA did not mandate contraceptive coverage. Instead, Congress delegated to HRSA discretion to determine the contours of the preventive services guidelines.”). Federal Defendants thus contend that this
section of the statute “must be understood as a positive grant of authority for HRSA to develop the women’s preventive-service guidelines and for the Agencies, as the administering Agencies of the applicable
statutes, to shape that development.” Federal Opp. at
18. Federal Defendants’ conclusion is that Section
300gg-13(a)(4) “thus authorized HRSA to adopt guidelines for coverage that include an exemption for certain employers, and nothing in the ACA prevents
HHS from supervising HRSA in the development of
those guidelines.” Id.
The Court rejects the Federal Defendants’ claim
that the ACA delegated total authority to the agencies
to exempt anyone they wish from the contraceptive
mandate. The Federal Defendants never appear to

83a
have denied that the statutory mandate is a mandate
until the issuance of the IFRs (and the ensuing litigation in this district and in the Eastern District of
Pennsylvania challenging the IFRs and now the Final
Rules). They cite no case in which a court has accepted this claim. To the contrary, this Court knows of no
Supreme Court, court of appeal or district court decision that did not presume that the ACA requires specified categories of health insurance plans and issuers
to provide contraceptive coverage at no cost to women.
See, e.g., Zubik, 136 S. Ct. at 1559 (“Federal regulations require petitioners to cover certain contraceptives as part of their health plans”); Hobby Lobby, 134
S. Ct. at 2762; California, 911 F.3d at 566 (ACA and
its regulations “require group health plans to cover
contraceptive care without cost sharing”). The United
States government also has admitted as much in its
consistent prior representations to the Supreme
Court. See Brief for Respondents at 25, Zubik, 136 S.
Ct. at 1557 (2016) (Nos. 14-1418, 14-1453, 14-1505,
15-35, 15-105, 15-119, 15-191) (recognizing “the generally applicable requirement to provide contraceptive
coverage”); id. at 37-38 (recognizing that “[t]he Affordable Care Act itself imposes an obligation on insurers to provide contraceptive coverage, 42 U.S.C. 7
300gg-13”).
Federal Defendants’ argument that the statute’s
language requiring coverage “as provided” by the regulations confers unbridled discretion on the agencies
to exempt anyone they see fit from providing coverage, Federal Opp. at 18-19, is inconsistent with the
ACA’s mandate that women’s contraceptive coverage
“shall” be provided by covered plans and issuers without cost sharing. The statute’s use of the phrase “as

84a
provided for in comprehensive guidelines” simply
cannot reasonably be read as a Congressional delegation of the plenary authority claimed by the Federal
Defendants. Instead, Congress permitted HRSA, a
health agency, to determine what “additional preventive care and screenings” in those guidelines must be
covered with respect to women. See Catholic Health
Care Sys. v. Burwell, 796 F.3d 207, 210 (2d Cir. 2015)
(“The ACA does not specify what types of preventive
care must be covered for female plan participants and
beneficiaries. Instead, Congress left that issue to be
determined via regulation by the [HRSA].”) (emphasis
added), vacated and remanded, 136 S. Ct. 2450
(2016). Without dispute, the guidelines continue to
identify contraceptive services as among those for
which health plans and insurers “shall, at a minimum
provide coverage . . . and shall not impose any cost
sharing requirements.” See Health Res. & Serv. Admin., Women’s Preventive Services Guidelines,
https://www.hrsa.gov/womens-guidelines2016/index.html (last updated Oct. 2017). Moreover,
in 2012, “[t]he Senate voted down the so-called conscience amendment, which would have enabled any
employer or insurance provider to deny coverage
based on its asserted ‘religious beliefs or moral convictions.’” Hobby Lobby, 134 S. Ct. at 2789 (Ginsburg, J.,
dissenting) (citing 158 Cong. Rec. S539 (Feb. 9, 2012)
and S1162-73 (Mar. 1, 2012)).
Accordingly, the Court rejects the Federal Defendants’ claim that the ACA delegates to the agencies
complete discretion to implement any exemptions
they choose, including those at issue here. See Pennsylvania, 281 F.Supp.3d at 579 (rejecting government’s argument that “HRSA may determine not only

85a
the services covered by the ACA, but also the manner
or reach of that coverage,” because “the ACA contains
no statutory language allowing the Agencies to create
such sweeping exemptions to the requirements to cover ‘preventive services,’ which, as interpreted by those
same agencies, include mandatory no-cost coverage of
contraceptive services”).
To the extent the Federal Defendants rely on the
existence of the church exemption instituted in 2013
to support their position, Federal Opp. at 18-19, the
legality of that exemption is not before the Court. The
Court notes, however, that the church exemption was
rooted in provisions of the Internal Revenue Code
that apply to churches, their integrated auxiliaries,
and conventions or associations of churches, as well
as to the exclusively religious activities of any religious order. See 78 Fed. Reg. at 39,874 (classifying
“an employer that [was] organized and operate[d] as a
nonprofit entity and [was] referred to in section
6033(a)(3)(A)(i) or (iii) of the Code [as] a religious employer for purposes of the religious employer exemption.”). While a court could someday be presented
with the question of whether the church exemption is
uniquely required by law given the special legal status afforded to churches and their integrated auxiliaries, the existence of that exemption simply does not
mean that the agencies have boundless authority to
implement any other exemptions they choose.
b. The Religious Exemption likely is
not required by RFRA.
Because the Women’s Health Amendment, including the requirement to cover the preventive care and
screenings identified in the guidelines, is a law of
general applicability, the next question is whether

86a
RFRA requires the government to relieve qualifying
entities of the obligation to comply by providing the
Religious Exemption, as opposed to the accommodation provided for under the pre-IFR version of the
rules currently in force. The Court finds that the Religious Exemption likely is not required by RFRA.
“RFRA suspends generally applicable federal laws
that ‘substantially burden a person’s exercise of religion’ unless the laws are ‘the least restrictive means
of furthering a compelling governmental interest.’”
Oklevueha Native Amer. Church of Hawaii v. Lynch,
828 F.3d 1012, 1015 (9th Cir. 2016) (internal quotation and citation omitted). The Ninth Circuit has held
that “[u]nder RFRA, a ‘substantial burden’ is imposed
only when individuals are forced to choose between
following the tenets of their religion and receiving a
governmental benefit . . . or coerced to act contrary to
their religious beliefs by the threat of civil or criminal
sanctions. . . .” Navajo Nation v. United States Forest
Serv., 535 F.3d 1058, 1070 (9th Cir. 2008). The government “is not required to prove a compelling interest for its action or that its action involves the least
restrictive means to achieve its purpose, unless the
plaintiff first proves the government action substantially burdens his exercise of religion.” Id. at 1069.
The Federal Defendants and the Little Sisters argue that the current accommodation, under which eligible organizations are not required to contract, arrange, pay, or refer for contraceptive coverage, substantially burdens religious objectors’ exercise of religion. Federal Opp. at 22; Little Sisters Opp. at 15
(contending that “RFRA mandates a broad religious
exemption” from the contraceptive coverage requirement). Federal Defendants and the Little Sisters ar-

87a
gue that even requiring objectors to notify the government that they are opting out of the otherwiseapplicable obligation to cover contraceptive services
for their female employees, students, or beneficiaries
makes them complicit in the provision of products incompatible with their religious beliefs. Federal Opp.
at 22 (“The accommodation, like the Mandate, imposes a substantial burden because it requires some religious objectors to ‘act in a manner that they sincerely
believe would make them complicit in a grave moral
wrong as the price of avoiding a ruinous financial
penalty.’”) (quoting Sharpe Holdings, Inc. v. Dep’t of
Health & Human Serv., 801 F.3d 927, 941 (8th Cir.
2015), vacated sub nom. Dep’t of Health & Human
Servs. v. CNS Int’l Ministries, 84 U.S.L.W. 3630, 2016
WL 2842448, at *1 (2016); Little Sisters Opp. at 16
(“The Little Sisters cannot, in good conscience, provide these services on their health benefits plan or authorize others to do so for them.”).
While the Ninth Circuit has not considered this
question, nine other courts of appeal have. Of those
courts, all other than the Eighth Circuit (in the
Sharpe Holdings decision on which the Federal Defendants exclusively rely) concluded that the accommodation does not impose a substantial burden on objectors’ exercise of religion.11 This Court agrees with

See Priests for Life v. U.S. Dep’t of Health & Human Servs.,
772 F.3d 229 (D.C. Cir. 2014), vacated sub nom. Zubik, 136 S. Ct.
at 1561; Catholic Health Care Sys. v. Burwell, 796 F.3d 207 (2d
Cir. 2015), vacated, 136 S. Ct. 2450 (2016); Geneva Coll. v. Sec’y
U.S. Dep’t of Health & Human Servs., 778 F.3d 422 (3d Cir.
2015), vacated sub nom. Zubik, 136 S. Ct. at 1561; E. Tex. Baptist Univ. v. Burwell, 793 F.3d 449 (5th Cir. 2015), vacated sub
11

88a
the eight courts that so held, and finds that Plaintiffs
are likely to prevail on this argument.
First, whether a burden is substantial is an objective question: a court “must assess the nature of a
claimed burden on religious exercise to determine
whether, as an objective legal matter, that burden is
‘substantial’ under RFRA.” Catholic Health Care Sys.,
796 F.3d at 217.12 In other words, “[w]hether a law
substantially burdens religious exercise under RFRA
is a question of law for courts to decide, not a question
nom. Zubik, 136 S. Ct. at 1561; Mich. Catholic Conference &
Catholic Family Servs. v. Burwell, 807 F.3d 738 (6th Cir. 2015),
vacated, 136 S. Ct. 2450 (2016); Univ. of Notre Dame v. Burwell,
786 F.3d 606 (7th Cir. 2015), vacated, 136 S. Ct. 2007 (2016);
Grace Schs. v. Burwell, 801 F.3d 788 (7th Cir. 2015), vacated,
136 S. Ct. 2011 (2016); Little Sisters of the Poor Home for the
Aged, Denver, Colo. v. Burwell, 794 F.3d 1151 (10th Cir. 2015),
vacated sub nom. Zubik, 136 S. Ct. at 1561; Eternal Word Television Network v. Sec’y of U.S. Dep’t Health & Human Servs., 818
F.3d 1122 (11th Cir. 2016), vacated No. 14-12696, 2016 WL
11503064 (11th Cir. May 31, 2016). Only the Eighth Circuit has
found that the religious accommodation as it existed before the
promulgation of the 2017 IFRs imposed a substantial burden on
religious exercise under RFRA. See Sharpe Holdings, 801 F.3d at
945 (affirming grant of preliminary injunction to religious objectors because “they [were] likely to succeed on the merits of their
RFRA challenge to the contraceptive mandate and the accommodation regulations”), vacated sub nom. Dep’t of Health & Human
Servs. v. CNS Int’l Ministries, 84 U.S.L.W. 3630, 2016 WL
2842448, at *1 (2016); Dordt Coll. v. Burwell, 801 F.3d 946 (8th
Cir. 2015) (applying reasoning of Sharpe Holdings to similar
facts), vacated, 136 S. Ct. 2006 (2016).
While all eight of the decisions finding no substantial burden
were vacated by Zubik or other Supreme Court decisions, the
Court finds the analysis and reasoning of those cases highly persuasive. The Eighth Circuit’s decision in Sharpe Holdings has
been vacated as well.
12

89a
of fact.” Priests for Life, 772 F.3d at 247. Importantly,
the Court may not, and does not here, question the
“sincerity of [a party’s] belief that providing, paying
for, or facilitating access to contraceptive services is
contrary to [its] faith,” or its judgment that “participation in the accommodation violates this belief.”
Catholic Health Care Sys., 796 F.3d at 217. But
“[w]hether the regulation objected to imposes a substantial burden is an altogether different inquiry.” Id.
at 218.
As several courts have noted, the Supreme Court’s
decision in Hobby Lobby “did not collapse the distinction between beliefs and substantial burden, such
that the latter could be established simply through
the sincerity of the former.” Catholic Health Care
Sys., 796 F.3d at 218; see also Eternal Word, 818 F.3d
at 1145 (noting that “nothing in RFRA or case law . . .
allows a religious adherent to dictate to the courts
what the law requires,” and explaining that “questions about what a law means are not the type of ‘difficult and important questions of religion and moral
philosophy’ for which courts must defer to religious
adherents”) (citing Hobby Lobby, 134 S. Ct. at 2778).
Both before and after the Supreme Court’s decision in Wheaton College, all courts of appeal to consider the question, with the exception of the Eighth
Circuit, have concluded that requiring religious objectors to notify the government of their objection to
providing contraceptive coverage, so that the government can ensure that the responsible insurer or thirdparty administrator steps in to meet the ACA’s requirements, does not impose a substantial burden on
religious exercise. As the Eleventh Circuit explained
post-Wheaton in Eternal Word, under the accommoda-

90a
tion “the only action required of the eligible organization is opting out: literally, the organization’s notification of its objection,” at which point all responsibilities
related to contraceptive coverage fall upon its insurer
or TPA. 818 F.3d at 1149. The Eleventh Circuit noted
that “such an opt out requirement is ‘typical of religious objection accommodations that shift responsibility to non-objecting entities only after an objector declines to perform a task on religious grounds.’” Id. (citing Little Sisters of the Poor, 794 F.3d at 1183).
The eight courts of appeal also found that an objector’s “complicity” argument does not establish a
substantial burden, because it is the ACA and the
guidelines that entitle plan participants and beneficiaries to contraceptive coverage, not any action taken
by the objector. As the Eternal Word court explained:
The ACA and the HRSA guidelines—not the
opt out—are . . . the ‘linchpins’ of the contraceptive mandate because they entitle women
who are plan participants and beneficiaries
covered by group health insurance plans to contraceptive coverage without cost sharing. In
other words, women are entitled to contraceptive coverage regardless of their employer’s action (or lack of action) with respect to seeking
an accommodation. Because a woman’s entitlement to contraceptive benefits does not turn
on whether her eligible organization employer
chooses to comply with the law (by providing
contraceptive coverage or seeking an accommodation) or pay a substantial penalty (in the
form of a tax) for noncompliance, we cannot say
that the act of opting out imposes a substantial
burden.

91a
818 F.3d at 1149. See also, e.g., Little Sisters of the
Poor, 794 F.3d at 1174 (“[S]hifting legal responsibility
to provide coverage away from the plaintiffs relieves
rather than burdens their religious exercise. The ACA
and its implementing regulations entitle plan participants and beneficiaries to coverage whether or not the
plaintiffs opt out.”); East Texas Baptist Univ. v. Burwell, 793 F.3d 449, 459 (5th Cir. 2015) (“[T]he plaintiffs claim that their completion of Form 700 or submission of a notice to HHS will authorize or trigger
payments for contraceptives. Not so. The ACA already
requires contraceptive coverage. . . .”).
The Eleventh Circuit in Eternal Word summarized
its analysis by holding that it “simply [could] not say
that RFRA affords the plaintiffs the right to prevent
women from obtaining contraceptive coverage to
which federal law entitles them based on the de minimis burden that the plaintiffs face in notifying the
government that they have a religious objection.” 818
F.3d at 1150. This Court agrees.
Moreover, as several courts have noted, in Hobby
Lobby the Supreme Court at least suggested (without
deciding) that the accommodation likely was not precluded by RFRA. See, e.g., Catholic Health Care Sys.,
796 F.3d at 217 (“Indeed, in Hobby Lobby, the Supreme Court identified this accommodation as a way
to alleviate a substantial burden on the religious exercise of for-profit corporations . . . .”), East Texas
Baptist Univ., 793 F.3d at 462 (“The Hobby Lobby
Court . . . actually suggested in dictum that the accommodation does not burden religious exercise. . . .”).
Hobby Lobby described the accommodation as “effectively exempt[ing] certain religious nonprofit organizations . . . from the contraceptive mandate.” 134 S.

92a
Ct. at 2763. The Court characterized the accommodation as “an approach that is less restrictive than requiring employers to fund contraceptive methods that
violate their religious beliefs.” Id. at 2782. While making clear that it did not “decide today whether an approach of this type complies with RFRA for purposes
of all religious claims,” the Court said that “[a]t a
minimum, [the accommodation did] not impinge on
the plaintiffs’ religious belief that providing insurance
coverage for the contraceptives at issue here violates
their religion, and it serves HHS’s stated interests
equally well.” Id. Specifically, the Court said that
“[u]nder the accommodation, the plaintiffs’ female
employees would continue to receive contraceptive
coverage without cost sharing for all FDA- approved
contraceptives, and they would continue to ‘face minimal logistical and administrative obstacles . . . because their employers’ insurers would be responsible
for providing information and coverage. . . .” Id. (citation omitted).
The Little Sisters raise two arguments to suggest
that the reasoning referenced above should not control. First, they contend that in the Zubik case, the
government made factual concessions that “removed
any basis for lower courts’ prior holding that the
Mandate did not impose a substantial burden on the
religious exercise of objecting employers because the
provision of contraceptives was separate from their
plans.” Little Sisters Opp. at 6. Second, they point to
what they characterize as “unanimous rulings” postZubik entering “permanent injunctions against the

93a
Mandate as a violation of RFRA.” Id. at 16.13 The
Court does not find either argument persuasive at
this stage.
With regard to the government’s Zubik “concession,” the Court cannot in the limited time available
before the Final Rules are scheduled to take effect review the entirety of the Zubik record to place the
statements identified in context. But even assessing
on their face the handful of facts proffered, it is not
self-evident that the representations have the definitive effect posited by the Little Sisters. See id. at 6
(citing following exchange during the Zubik oral argument: “Chief Justice Roberts: ‘You want the coverage for contraceptive services to be provided, I think
as you said, seamlessly. You want it to be in one insurance package. . . . Is that a fair understanding of
the case?’ Solicitor General Verrilli: “I think it is one
fair understanding of the case.’”) (ellipses as in Little
Sisters Opp.). On the present record, the Court cannot
conclude that the “one fair understanding” comment,
or the other few representations cited, fatally undermined the core conclusion of the eight courts of appeal
that requiring a religious objector simply to notify the
government of its objection, consistent with Wheaton
College, does not substantially burden religious exercise. The Court thus believes it likely that the answer
to the legal question posed in that on-point authority
The Court notes that the district court in Pennsylvania found,
post-Zubik, that the IFRs “are not required under RFRA because
the Third Circuit—twice now—has foreclosed the Agencies’ legal
conclusion that the Accommodation Process imposes a substantial burden.” 281 F.Supp.3d at 581. This decision undercuts the
Little Sisters’ unanimity claim.
13

94a
is not altered by the position taken by the government
in Zubik. This conclusion, like all of the Court’s preliminary analysis in this order, is subject to reevaluation once a fuller record is developed. See California, 911 F.3d at 584 (noting that “the fully developed factual record may be materially different from
that initially before the district court”).
Relatedly, the Court finds that nothing in the postZubik district court decisions cited by the Little Sisters compels the conclusion that the Religious Exemption was mandated by RFRA. The Zubik remand order gave the parties the “opportunity to arrive at an
approach going forward that accommodates petitioners’ religious exercise while at the same time ensuring
that women covered by petitioners’ health plans ‘receive full and equal health coverage, including contraceptive coverage.’” 136 S. Ct. at 1560 (emphasis added). While expressing “no view on the merits of the
cases,” id., the Supreme Court said that “[n]othing in
this opinion, or in the opinions or orders of the courts
below, is to affect the ability of the Government to ensure that women covered by petitioners’ health plans
‘obtain, without cost, the full range of FDA approved
contraceptives.’” Id. at 1560-61 (quoting Wheaton College, 134 S. Ct. at 2807) (emphasis added). In her concurrence, Justice Sotomayor stressed her understanding that the majority opinion “allows the lower courts
to consider only whether existing or modified regulations could provide seamless contraceptive coverage to
petitioners’ employees, through petitioners’ insurance
companies, without any notice from petitioners.” Zubik, 136 S. Ct. at 1561 (Sotomayor, J., concurring) (internal quotations and ellipses omitted).

95a
Following remand, however, as reflected in the
IFRs and now the Final Rules, the Federal Defendants simply reversed their position and stopped defending the accommodation, and now seemingly disavow any obligation to ensure coverage under the ACA.
As a result, the post-Zubik orders were entered without objection by the government, based on the agencies’ new position that the accommodation violates
RFRA. See, e.g., Wheaton Coll. v. Azar, No. 1:13-cv08910, Dkt. 119 at 2 (N.D. Ill. Feb. 22, 2018) (noting
that “[a]fter reconsideration of their position, Defendants now agree that enforcement of the currently operative rules regarding the ‘contraceptive mandate’
against employers with sincerely held religious objections would violate RFRA, and thus do not oppose
Wheaton’s renewed motion for injunctive and declaratory relief”). In other words, it appears to the Court
that no party in these cases purported to represent, or
even consider the substantial interests of, the women
who now will be deprived of “full and equal health
coverage, including contraceptive coverage.” Cf. Zubik, 136 S. Ct. at 1560. Counsel for the Little Sisters
confirmed at oral argument that none of those decisions have been appealed (presumably for the same
reason). So the eight appellate courts upon whose
reasoning this Court relies have not had the opportunity to decide whether any subsequent developments would change their conclusions. For all of these
reasons, the Court finds that nothing about the postZubik orders cited by the Little Sisters changes its
conclusion that Plaintiffs are likely to succeed in their
argument that the Final Rules are not mandated by
RFRA.

96a
c. There are serious questions going to
the merits as to whether the Religious Exemption is otherwise permissible.
The Federal Defendants and the Little Sisters further argue that even if the Religious Exemption is not
required by RFRA, the agencies have discretion under
RFRA to implement it. Federal Opp. at 21 (“[N]othing
in RFRA prohibits the Agencies from now employing
the more straightforward choice of an exemption—
much like the existing and unchallenged exemption
for churches.”); Little Sisters Opp. at 17 (“RFRA thus
contemplates that the government may choose to
grant discretionary benefits or exemptions to religious
groups over and above those which are strictly required by RFRA.”). As accurately summarized by the
Little Sisters, the question is thus whether Congress
has “delegated authority to the agencies to create exemptions to protect religious exercise,” such that
RFRA “operates as a floor on religious accommodation, not a ceiling.” Little Sisters Opp. at 17. While
addressed only relatively briefly by the parties, this
argument raises what appears to be a complex issue
at the intersection of RFRA, Free Exercise, and Establishment Clause jurisprudence.
The Court begins with a foundational premise:
what the government is permitted to do under a statute or the Constitution presents a pure question of
law for the courts, and the agencies’ views on this legal question are entitled to no deference (except to the
extent required by Chevron as to statutory interpretation). See Hobby Lobby, 134 S. Ct. at 2775 n.30 (noting that “conscience amendment” rejected by Congress “would not have subjected religious-based objec-

97a
tions to the judicial scrutiny called for by RFRA, in
which a court must consider not only the burden of a
requirement on religious adherents, but also the government’s interest and how narrowly tailored the requirement is”); see also Board of Trustees of Univ. of
Alabama v. Garrett, 531 U.S. 356, 365 (2001) (recognizing the “long-settled principle that it is the responsibility of this Court, not Congress, to define the substance of constitutional guarantees” (citing City of
Boerne v. Flores, 521 U.S. 507, 519-24 (1997));
Snoqualmie Indian Tribe, 545 F.3d at 1212-13 (“An
agency’s interpretation or application of a statute is a
question of law reviewed de novo,” subject to Chevron
deference to agency’s permissible construction if statute is silent or ambiguous on a particular point). The
Little Sisters acknowledged at oral argument that
they do not contend the Court owes Chevron deference to the agencies’ interpretation of RFRA.
On the other hand, the Federal Defendants assert,
relying on Ricci v. DeStefano, 557 U.S. 557, 585
(2009), that “[i]f agencies were legally prohibited from
offering an exemption unless they concluded that no
other possible accommodation would be consistent
with RFRA, the result would be protracted and unnecessary litigation.” Federal Opp. at 21-22. This argument is neither supported by the cited authority
nor relevant.
First, Ricci does not support the Federal Defendants’ argument. Ricci involved a city’s decision not to
certify the results of a promotion examination taken
by its firefighters. 557 U.S. at 562. The city based its
decision on its apparent fear that it would be sued for
adopting a practice that had a disparate impact on
minority firefighters, in violation of Title VII. Id. at

98a
563. The Supreme Court characterized its analysis as
focused on how to “resolve any conflict between the
disparate-treatment and disparate-impact provisions
of Title VII.” Id. at 584. The Court found that “applying the strong-basis-in-evidence standard to Title VII
gives effect to both the disparate- treatment and disparate impact provisions, allowing violations of one in
the name of compliance with the other only in certain
narrow circumstances”—specifically, when a government actor had a strong basis in evidence to conclude
that race-conscious action was necessary to remedy
past racial discrimination. Id. at 582-83. The Court
described this standard as limiting employers’ discretion in making race-based decisions “to cases in which
there is a strong basis in evidence of disparate-impact
liability,” but said it was “not so restrictive that it allows employers to act only when there is a provable,
actual violation.” Id. at 583. Accordingly, the Court
“h[e]ld only that under Title VII, before an employer
can engage in intentional discrimination for the asserted purpose of avoiding or remedying an unintentional disparate impact, the employer must have a
strong basis in evidence to believe it will be subject to
disparate-impact liability if it fails to take the raceconscious, discriminatory action.” Id. at 585.
The Court does not view Ricci as shedding any
light on whether a federal agency has plenary discretion under RFRA to grant any exemption it chooses
from an otherwise generally-applicable law passed by
Congress. The Federal Defendants cite no case applying Ricci in the RFRA context, or otherwise engaging
in an analysis comparable to the Supreme Court’s in
that case. Second, and more fundamentally, Federal
Defendants’ argument is irrelevant, because the

99a
courts, not the agencies, are the arbiters of what the
law and the Constitution require. The Court questions the Little Sisters’ contention that RFRA effected
a wholesale delegation to executive agencies of the
power to create exemptions to laws of general applicability in the first instance, based entirely on their
own view of what the law requires.14 As this case definitively demonstrates, such views can change dramatically based on little more than a change in administration. In any event, there is no dispute that
both the prior and current Administrations have contended that they have administered the ACA in a
manner consistent with RFRA. But the courts are not
concerned, at all, with the Federal Defendants’ desire
to “avoid litigation,” especially where that avoidance
means depriving a large number of women of their
statutory rights under the ACA. Rather, the courts
have a duty to independently decide whether the Final Rules comport with statutory and Constitutional
The Court notes that Guam v. Guerrero, 290 F.3d 1210 (9th
Cir. 2002), the case cited by the Little Sisters, addressed Congress’s power to carve out religious exemptions from statutes of
general applicability. It is true that the ACA is subject to the requirements of RFRA. See Hobby Lobby, 134 S. Ct. at 2775 n.30
(explaining that “any Federal statutory law adopted after November 16, 1993 is subject to RFRA unless such law explicitly
excludes such application by reference to RFRA (quoting 42
U.S.C. § 2000bb-3(b)) (internal quotations and emphasis omitted). But here, as noted earlier, in 2012 Congress declined to
adopt a “conscience amendment” authorizing a “blanket exemption for religious or moral objectors” that was similar in many
ways to the Final Rules at issue here. See id. at n.37 (majority
opinion) and 2789 (Ginsburg, J., dissenting). Whether Congress
could choose to amend the ACA to include exemptions like those
in the Final Rules is not before the Court in this case.
14

100a
requirements, as they have done in many analogous
cases involving RFRA, and the Court rejects the Federal Defendants’ suggestion that “an entity faced with
potentially conflicting legal obligations should be afforded some leeway,” Federal Opp. at 21. Ultimately,
this Court (and quite possibly the Supreme Court)
will have to decide the legal questions presented in
this case, but no “leeway” will be given to the government’s current position in doing so.
Moving to the substance of the issue, the Court
first notes that the Ninth Circuit has held that a
plaintiff’s “failure to demonstrate a substantial burden under RFRA necessarily means that [it has]
failed to establish a violation of the Free Exercise
Clause, as RFRA’s prohibition on statutes that burden religion is stricter than that contained in the Free
Exercise Clause.” Fernandez v. Mukasey, 520 F.3d
965, 966 n.1 (9th Cir. 2008). This holding is not dispositive of the dispute here, however, because the Supreme Court has said that “‘there is room for play in
the joints’ between the Clauses, some space for legislative action neither compelled by the Free Exercise
Clause nor prohibited by the Establishment Clause.”
Cutter v. Wilkinson, 544 U.S. 709, 719 (2005) (internal
quotation and citation omitted).
As the Little Sisters note, “[g]ranting government
funding, benefits, or exemptions, to the extent permissible under the Establishment Clause, shall not
constitute a violation” of RFRA. 42 U.S.C. § 2000bb-4.
But the Supreme Court has explained that “[a]t some
point, accommodation may devolve into ‘an unlawful
fostering of religion.’” Corp. of Presiding Bishop of
Church of Jesus Christ of Latter-Day Saints v. Amos,
483 U.S. 327, 334-35 (1987) (quoting Hobbie [sic] v.

101a
Unemployment Appeals Comm’n of Fla., 480 U.S. 136,
145 (1987)). That is one of the core disputes here: given its plain impact on women’s entitlement to coverage under the ACA, is the Religious Exemption permissible under RFRA even if it is not mandated by
RFRA? The Court finds that Plaintiffs have raised at
least “serious questions going to the merits” as to this
legal question. Alliance for the Wild Rockies, 632 F.3d
at 1131-32.
The Court knows of no decision that has squarely
addressed this issue in the context of the ACA. As the
Court has discussed above, the Religious Exemption
has the effect of depriving female employees, students
and other beneficiaries connected to exempted religious objectors of their statutory right under the ACA
to seamlessly-provided contraceptive coverage at no
cost. That deprivation appears to occur without even
requiring any direct notice to the women affected by
an objector’s decision to assert the Religious Exemption. See 83 Fed. Reg. at 57,558. Courts, including the
Supreme Court in Hobby Lobby, have recognized that
a court evaluating a RFRA claim must “take adequate
account of the burdens a requested accommodation
may impose on nonbeneficiaries.” Hobby Lobby, 134 S.
Ct. at 2781 n.37 (citing Cutter, 544 U.S. at 720 (internal quotations omitted)); see also Priests for Life, 772
F.3d at 266 (“When the interests of religious adherents collide with an individual’s access to a government program supported by a compelling interest,
RFRA calls on the government to reconcile the competing interests. In so doing, however, RFRA does not
permit religious exercise to ‘unduly restrict other persons, such as employees, in protecting their own interests, interest the law deems compelling.’”) (citing

102a
Hobby Lobby, 134 S. Ct. at 2786-87 (Kennedy, J., concurring)); Priests for Life, 772 F.3d at 272 (“Limiting
the exemption, but making the [accommodation] opt
out available, limits the burdens that flow from organizations ‘subjecting their employees to the religious views of the employer.’”) (citing 77 Fed. Reg. at
8,728 (February 2012 final rule adopting definition of
“religious employer” as set forth in 2011 IFR)).
In Cutter, the Supreme Court, in rejecting a facial
constitutional attack on the Religious Land Use and
Institutionalized Persons Act, cited Estate of
Thornton v. Caldor, Inc., 472 U.S. 703 (1985), for the
principle that courts “[p]roperly applying [RLUIPA]
must take adequate account of the burdens a requested accommodation may impose on nonbeneficiaries.”
544 U.S. at 720. The Cutter Court noted that if inmate requests for religious accommodations “impose[d] unjustified burdens on other institutionalized
persons,” “adjudication in as-applied challenges would
be in order.” Id. at 726. In dissent in Hobby Lobby,
Justice Ginsburg observed that “[n]o tradition, and no
prior decision under RFRA, allows a religion-based
exemption when the accommodation would be harmful to others—here, the very persons the contraceptive
coverage requirement was designed to protect.” 134 S.
Ct. at 2801 (Ginsburg, J., dissenting). The Hobby
Lobby majority, in turn, said that its holding “need
not result in any detrimental effect on any third party,” because “the Government can readily arrange for
other methods of providing contraceptives, without
cost sharing, to employees who are unable to obtain
them under their health-insurance plans due to their
employers’ religious objections,” including by offering

103a
the accommodation. 134 S. Ct. at 2781 n.37 (citing
discussion at 2781-82).
The arguments of the Federal Defendants, and especially the Little Sisters, thus raise questions that
the Supreme Court did not reach in Hobby Lobby, Zubik, or Wheaton College. There is substantial debate
among commentators as to how to assess the legality
of accommodations not mandated by RFRA when
those accommodations impose harms on third parties,
given the statute’s directive that it does not preclude
accommodations allowed by the Establishment
Clause. Compare Frederick Mark Gedicks & Rebecca
G. Van Tassell, RFRA Exemptions from the Contraception Mandate: An Unconstitutional Accommodation of Religion, 49 Harv. C.R.-C.L. L. Rev. 343 (2014)
with Carl H. Esbeck, Do Discretionary Religious Exemptions Violate the Establishment Clause?, 106 Ky.
L.J. 603 (2018). Understandably, given the large
number of substantive and procedural issues that
must be addressed at the preliminary injunction
stage, the parties have provided relatively brief arguments on this central question of law. See Mot. At
14-15; Federal Opp. at 20-23; Little Sisters Opp. at
17-19.
In light of the discussion in Hobby Lobby and Cutter regarding the requirement that a court consider
harm to third parties when evaluating an accommodation claim under RFRA, the Court concludes under
Alliance that serious questions going to the merits
have been raised by the Plaintiffs as to their APA
claim that the Religious Exemption is contrary to law.
The Alliance standard recognizes that the “district
court at the preliminary injunction stage is in a much
better position to predict the likelihood of harm than

104a
the likelihood of success.” Leiva-Perez v. Holder, 640
F.3d 962, 968 (9th Cir. 2011) (quoting Alliance for the
Wild Rockies, 632 F.3d at 1139 (Mosman, J., concurring)). As the Ninth Circuit explained in a preAlliance case applying the standard, “‘serious questions’ refers to questions which cannot be resolved one
way or the other at the hearing on the injunction and
as to which the court perceives a need to preserve the
status quo lest one side prevent resolution of the
questions or execution of any judgment by altering
the status quo.” Republic of the Philippines v. Marcos,
862 F.2d 1355, 1362 (9th Cir. 1988). “Serious questions are ‘substantial, difficult and doubtful, as to
make them a fair ground for litigation and thus for
more deliberative investigation.’” Id. (quoting Hamilton Watch Co. v. Benrus Watch Co., 206 F.2d 738, 740
(2d Cir. 1952) (Frank, J.)). Under these circumstances, the Court finds that this case involves just such
substantial and difficult questions.
This is especially true given the Federal Defendants’ complete reversal on the key question of whether the government has a compelling interest in
providing seamless and cost-free contraceptive coverage to women under the ACA. The Hobby Lobby majority assumed, without deciding, that “the interest in
guaranteeing cost-free access to the four challenged
contraceptive methods is compelling within the meaning of RFRA.” 134 S. Ct. at 2780. Justice Kennedy
concurred, stating that it was “important to confirm
that a premise of the Court’s opinion is its assumption
that the HHS regulation here at issue furthers a legitimate and compelling interest in the health of female
employees.” Id. at 2786 (Kennedy, J., concurring). Until the reversal that led to the IFRs and Final Rules,

105a
the agencies agreed that this interest was compelling.
See Supplemental Brief for Respondents at 1, Zubik v.
Burwell, 136 S. Ct. 1557 (2016) (No. 14-1418), 2016
WL 1445915, at *1 (explaining that rules in existence
in April 2016 “further[ed] the compelling interest in
ensuring that women covered by every type of health
plan receive full and equal health coverage, including
contraceptive coverage”).
The Court believes Plaintiffs are likely correct that
“the Rules provide no new facts and no meaningful
discussion that would discredit their prior factual
findings establishing the beneficial and essential nature of contraceptive healthcare for women,” Reply at
11. Instead, the Final Rules on this point rest, at bottom, on new legal assertions by the agencies. See, e.g.,
83 Fed. Reg. at 57,547 (“[T]he Departments now believe the administrative record on which the Mandate
rested was—and remains—insufficient to meet the
high threshold to establish a compelling governmental interest in ensuring that women covered by plans
of objecting organizations receive cost-free coverage
through those plans.”). Given the “serious reliance interests” of women who would lose coverage to which
they are statutorily entitled if the Final Rules go into
effect, the Court believes that Plaintiffs are also likely
to prevail on their claim that the agencies failed to
provide “a reasoned explanation . . . for disregarding
facts and circumstances that underlay or were engendered by the prior policy.” FCC v. Fox Television Stations, Inc., 556 U.S. 502, 515-16 (2009). As this case
proceeds to a merits determination, the Court will
have to determine how to develop the relevant record
regarding the compelling interest question. And the
parties’ positions on the legal issues described above

106a
will need to be laid out in substantially greater detail
for the Court to sufficiently address the merits of this
claim on a full record in the next stages of the case.
2. Plaintiffs are likely to succeed in showing that the Moral Exemption is “not in
accordance with” the ACA, and thus
violates the APA.
Further, Plaintiffs are likely to succeed in their
argument that the Moral Exemption is not in accordance with the ACA. In contrast to the Religious Exemption, there is no dispute that the Moral Exemption implicates neither RFRA nor the Religion Clauses of the Constitution. Despite this, Intervenor March
for Life’s brief focuses primarily on defending the Religious Exemption, to which March for Life is not entitled. See March for Life Opp. at 3-4 (acknowledging
that March for Life is a “pro-life, non-religious entit[y]”; compare March for Life Opp. at 6 (“RFRA requires the religious exemption”), 10 (“[T]he Final
Rules are an entirely permissible accommodation of
religion, which as a general matter does not violate
the Establishment Clause.”), 10 (“[T]he Final Rules do
not compel women to participate in the religious beliefs of their employers, but rather merely ensure that
a religious employer will not be conscripted to provide
what his or her conscience will not permit.”). The
main purpose of the March for Life brief appears to be
to establish that the Religious Exemption could not
possibly run afoul of the Establishment Clause because the Moral Exemption exists. See id. at 9 (“[T]he
Final Rules protect both religious . . . and nonreligious . . . actors, thereby dispelling any argument
that the federal government intended to advance religious interests.”).

107a
Whatever complexities may exist with regard to
the Religious Exemption, as discussed above, they do
not apply to the Moral Exemption. Congress mandated the coverage that is the subject matter of this dispute, and rejected a “conscience amendment” that
would exempt entities like March for Life from this
generally-applicable statutory requirement. The Final
Rules note that “[o]ver many decades, Congress has
protected conscientious objections including based on
moral convictions in the context of health care and
human services, and including health coverage, even
as it has sought to promote access to health services.”
83 Fed. Reg. at 57,594. But that highlights the problem: here, it was the agencies, not Congress, that implemented the Moral Exemption, and it is inconsistent with the language and purpose of the statute
it purports to interpret. The Court finds that Plaintiffs are likely to prevail on their claim that the Moral
Exemption is contrary to the ACA, and thus unlawful
under the APA. Again, the Court does not dispute the
sincerity, or minimize the substance, of March for
Life’s moral objection.
3. Plaintiffs are likely to suffer irreparable harm unless the Court enjoins the
Final Rules.
The Court finds that the Plaintiffs are likely to
suffer irreparable harm unless the Final Rules are
enjoined to maintain the status quo pending resolution of the case on the merits. In its order remanding
this case, the Ninth Circuit found that “it is reasonably probable that the states will suffer economic harm
from the IFRs.” California, 911 F.3d at 581; see also
id. at 571 (“The states show, with reasonable probability, that the IFRs will first lead to women losing

108a
employer-sponsored contraceptive coverage, which
will then result in economic harm to the states.”). As
the Ninth Circuit explained, economic harm is not recoverable for a violation of the APA. See id. at 581
(citing 5 U.S.C. § 702 (permitting “relief other than
money damages”)); see also Haines v. Fed. Motor Carrier Safety Admin., 814 F.3d 417, 426 (6th Cir. 2016)
(federal courts do not have jurisdiction to adjudicate
suits seeking monetary damages under the APA).15
The States have equally shown a likelihood of irreparable injury from the Final Rules. The Final
Rules themselves estimate that tens of thousands of
women nationwide will lose contraceptive coverage,
and suggest that these women may be able to obtain
substitute services at Title X family-planning clinics.
See 83 Fed. Reg. at 57,551 n.26 (up to 126,400 women
nationwide will lose coverage as result of Religious
Exemption); id. at 57,551 (suggesting Title X familyplanning clinics as alternative to insurer-provided
contraceptives). The States have submitted substantial evidence documenting the fiscal harm that will
flow to them as a result of the Final Rules. See, e.g.,
Cantwell Decl., Dkt. No. 174-4 ¶¶ 16-18 (Final Rules
will result in more women becoming eligible for California’s Family Planning, Access, Care, and Treatment program, meaning that “state dollars may be
diverted to provide” contraceptive coverage); Tobias
Decl., Dkt. No. 174-33 ¶ 5 (exemptions in Final Rules
“will result in more women receiving” New York Family Planning Program services, thus putting program
The Federal Defendants contend the Ninth Circuit’s “conclusion was in error,” Federal Opp. at 8, presumably to preserve
their argument for the record.
15

109a
at “risk [of] being overwhelmed by the increase in patients”); Rattay Decl., Dkt. No. 174-30 ¶ 7 (Final
Rules “will contribute to an increase in Delaware’s
nationally high unintended pregnancy rate as women
forego needed contraception and other services”); Moracco Decl., Dkt. No. 174-23 ¶ 5 (State of Minnesota
“may bear a financial risk when women lose contraceptive coverage” because state is obligated to pay for
child delivery and newborn care for children born to
low-income mothers). Thus, Plaintiffs have satisfied
the irreparable harm prong of the inquiry.
4. The balance of the equities tips sharply
in Plaintiffs’ favor, and the public
interest favors granting preliminary
injunctive relief to preserve the status
quo pending resolution of the merits.
Plaintiffs also prevail on the balance of equities
and public interest analyses. When the government is
a party to a case in which a preliminary injunction is
sought, the balance of the equities and public interest
factors merge. Drakes Bay Oyster Co. v. Jewell, 747
F.3d 1073, 1092 (9th Cir. 2014). Broadly speaking,
there are two interests at stake in that balance: the
interest in ensuring that health plans cover contraceptive services with no cost-sharing, as provided for
under the ACA, and the interest in protecting “the
sincerely held religious [and moral] objections of certain entities and individuals.” See 83 Fed. Reg. at
57,537; see also 83 Fed. Reg. at 57,593.
With these interests in mind, the Court concludes
that the balance of equities tips sharply in Plaintiffs’
favor. As the Court found previously, Plaintiffs face
potentially dire public health and fiscal consequences
from the implementation of the Final Rules. Plaintiffs

110a
point out that under the Final Rules, contraceptive
coverage for employees and beneficiaries in existing
health plans could be dropped with 60 days’ notice
that the employer is revoking its use of the accommodation process, or when a new plan year begins. See
Mot. at 20. These changes likely will increase the
Plaintiffs’ costs of providing contraceptive care to
their residents. See Declaration of Phuong H. Nguyen,
Dkt. No. 174-26 ¶¶ 11-15 (Final Rules likely to increase demand for no- and low-cost contraception services funded by State of California); Declaration of
Jennifer Welch, Dkt. No. 174-35 ¶¶ 10-12 (some women who lose insurer-provided contraceptive coverage
as result of Final Rules likely to enroll in State of Illinois’s Medicaid program). Plaintiffs persuasively
submit that the suggestion in the Final Rules that
women turn to Title X clinics actually will increase
the number of women who will have to be covered by
state programs. Mot. at 23 (citing Cantwell Decl.,
Dkt. No. 174-4 ¶¶ 16-18; Tobias Decl., Dkt. No. 17433 ¶ 5). Moreover, Plaintiffs face substantial costs
stemming from a higher rate of unintended pregnancies that are likely to occur if women lose access to the
seamless, no-cost contraceptive coverage afforded under the rules now in place. See Alexander-Scott
Decl[.], Dkt. No. 174-7 ¶ 3 (unintended pregnancies
likely to result from Final Rules will impose costs on
State of Rhode Island); Wilson Decl., Dkt. No. 174-38
¶ 5 (unintended pregnancies likely to result from Final Rules will impose costs on State of North Carolina). In essence, for many thousands of women in the
Plaintiff States, the mandatory coverage structure
now in place under the ACA will disappear, requiring
them to piece together coverage from Title X clinics or
state agencies, or to pay for such coverage themselves.

111a
This reality will cause substantial, and irreparable,
harm to the Plaintiff States, and their showing compellingly establishes that the Final Rules do not in
practice “ensur[e] that women covered by petitioners’
health plans ‘receive full and equal health coverage,
including contraceptive coverage.’” Cf. Zubik, 136 S.
Ct. at 1560.
On the other hand, maintaining the status quo
that preceded the Final Rules and the 2017 IFRs—in
which eligible entities still would be permitted to
avail themselves of the exemption or the accommodation—does not constitute an equivalent harm to the
Federal Defendants or Intervenors pending resolution
of the merits. The Federal Defendants cite Maryland
v. King, 133 S. Ct. 1, 3 (2012) (Roberts, C.J., in chambers), for the premise that “the government suffers
irreparable institutional injury whenever its laws are
set aside by a court.” Federal Opp. at 24. But Maryland actually held that “any time a State is enjoined
by a court from effectuating statutes enacted by representatives of its people, it suffers a form of irreparable injury.” 133 S. Ct. at 3 (citation omitted). Here,
of course, the “representatives of the people”—the
United States Congress—passed the ACA, and the
precise question in this case is whether the Executive’s attempt to implement the Final Rules is inconsistent with Congress’s directives.
The Federal Defendants also note—correctly—that
“the government and the public at large have a substantial interest in protecting religious liberty and
conscience.” Federal Opp. at 24; see also California v.
Azar, 911 F.3d at 582-83 (acknowledging that “free
exercise of religion and conscience is undoubtedly,
fundamentally important,” and recognizing that

112a
“[r]egardless of whether the accommodation violates
RFRA, some employers have sincerely-held religious
and moral objections to the contraceptive coverage requirement.”). However, it is significant that after the
Court enjoined the IFRs in December 2017, the Federal Defendants and Intervenors stipulated to a stay
of this case pending resolution of their appeals, which
kept the existing structure, including the accommodation, in place for a year and delayed resolution of the
merits of the claims. On balance, because the Court
has concluded that Plaintiffs are likely to show that
the Final Rules are not mandated by RFRA, and that
the existing accommodation does not substantially
burden religious exercise, it finds that maintaining
the status quo for the time being, pending a prompt
resolution of the merits of Plaintiffs’ claims, is warranted based on the record presented.16 Plaintiffs
have shown that the balance of equities tips sharply
in their favor, and that the public interest favors
granting a preliminary injunction. Because the
standard set forth in Winter is met, the Court grants
Plaintiffs’ motion.17
Without question, religious and moral objectors similarly situated to the Little Sisters and March for Life are directly affected
by a preliminary injunction against the implementation of the
Final Rules. The Court notes that these two particular intervenors, and apparently many others, are subject to court orders
prohibiting the Federal Defendants from enforcing the mandate
or accommodation requirements against them. Those orders (and
any other similar orders) are unaffected by the injunction entered here. See Little Sisters Opp. at 7 (listing orders); March for
Life Opp. at 4.
16

Because the Court finds that entry of a preliminary injunction
is warranted on the basis discussed above, it need not at this
17

113a
D. This Preliminary Injunction Enjoins Enforcement of the Final Rules Only In the
Plaintiff States.
Plaintiffs ask the Court to grant a nationwide injunction, contending that the Court “cannot simply
draw a line around the plaintiff States and impose an
injunction only as to those States to ensure complete
relief.” Mot. at 25. Federal Defendants and March for
Life respond that even if the Court grants equitable
relief, a nationwide injunction is inappropriate. See
Federal Opp. at 25; March for Life Opp. at 22-24.
“The scope of an injunction is within the broad discretion of the district court.” TrafficSchool.com, Inc. v.
Edriver Inc., 653 F.3d 820, 829 (9th Cir. 2011). “Crafting a preliminary injunction is an exercise of discretion and judgment, often dependent as much on the
equities of a given case as the substance of the legal
issues it presents.” Trump v. Int’l Refugee Assistance
Project, 137 S. Ct. 2080, 2087 (2017). A nationwide
injunction is proper when “necessary to give Plaintiffs
a full expression of their rights.” Hawaii v. Trump,
878 F.3d 662, 701 (9th Cir. 2017), rev’d on other
grounds, 138 S. Ct. 2392 (2018).
This is, of course, not the first time the Court has
had to determine the proper geographic scope of a
preliminary injunction in this case. In response to the
Plaintiffs’ challenge to the IFRs, the Court issued a
nationwide injunction. See Dkt. No. 105 at 28-29. On
appeal, the Ninth Circuit held that the nationwide

time consider the additional bases for injunctive relief advanced
by Plaintiffs.

114a
scope of the injunction was overbroad and an abuse of
discretion. California, 911 F.3d at 585.
In doing so, the Ninth Circuit made clear that injunctive relief “must be no broader and no narrower
than necessary to redress the injury shown by the
plaintiff states.” Id. The court reasoned that prohibiting enforcement of the IFRs in the Plaintiff States only, rather than across the entire country, “would provide complete relief” because it “would prevent the
economic harm extensively detailed in the record.” Id.
at 584. The court cautioned that “[d]istrict judges
must require a showing of nationwide impact or sufficient similarity to the plaintiff states to foreclose litigation in other districts.” Id. And the Ninth Circuit
stressed that “nationwide injunctive relief may be inappropriate where a regulatory challenge involves
important or difficult questions of law, which might
benefit from development in different factual contexts
and in multiple decisions by the various courts of appeals.” Id. at *15 (citation omitted). As discussed at
length above, the issues presented on this motion,
much more than the notice-and-comment requirement
that was the basis of the Court’s prior order granting
a preliminary injunction, implicate exactly these
types of important and difficult questions of law.
The Court fully recognizes that limiting the scope
of this injunction to the Plaintiff States means that
women in other states are at risk of losing access to
cost-free contraceptives when the Final Rules take
effect. Plaintiffs also contend that women who reside
in their States may still lose their entitlement to costfree contraceptives because they receive their health
insurance coverage from an employer or family member located elsewhere. But Plaintiffs provide little ev-

115a
idence of the effect this will have on their own States.
Cf. Declaration of Dr. Jennifer Childs-Roshak, Dkt.
No. 174-8 ¶ 16 (discussing effect in Massachusetts);
Declaration of Robert Pomales, Dkt. No. 174-28 ¶ 9
(same); Mot. at 25 n.24 (California hosts 25,000 students from out-of-state and New York hosts 35,000).
Plaintiffs do note that women who live in the Plaintiff
States may live in one state but commute to another
state for work. See Reply at 15 n.17 (noting high percentage of Maryland, Virginia, Delaware, and District
of Columbia residents who commute to work in another state).
On the present record, the Court cannot conclude
that the high threshold set by the Ninth Circuit for a
nationwide injunction, in light of the concerns articulated in the California opinion, has been met. The
Court also finds it significant that a judge in the District of Massachusetts found in 2018 that the state
lacked standing to proceed as to claims similar to
those here, in an order that has been appealed to the
First Circuit. See Massachusetts v. United States Dep’t
of Health & Human Servs., 301 F. Supp. 3d 248, 250
(D. Mass. 2018). This parallel litigation highlights the
potential direct legal conflicts that could result were
this Court to enter a nationwide injunction. Accordingly, this preliminary injunction prohibits the implementation of the Final Rules in the Plaintiff States
only.
IV. CONCLUSION
For the reasons set forth above, Plaintiffs’ motion
for a preliminary injunction is GRANTED, effective
as of the date of this order. A case management conference is set for January 23, 2019 at 2:00 p.m. At the
case management conference, the parties should be

116a
prepared to discuss a plan for expeditiously resolving
this matter on the merits, whether through a bench
trial, cross-motions for summary judgment, or other
means. The parties shall submit a joint case management statement by January 18, 2019.
IT IS SO ORDERED.
Dated: 1/13/19
/s/ Haywood S. Gilliam, Jr.
HAYWOOD S. GILLIAM, JR.
United States District Judge

117a
APPENDIX C
RELEVANT STATUTORY PROVISIONS
42 U.S.C. § 2000bb-1 provides:
§ 2000bb-1. Free exercise of religion protected
(a) In general
Government shall not substantially burden a person’s
exercise of religion even if the burden results from a
rule of general applicability, except as provided in
subsection (b) of this section.
(b) Exception
Government may substantially burden a person’s
exercise of religion only if it demonstrates that
application of the burden to the person—
(1) is in furtherance of a compelling governmental
interest; and
(2) is the least restrictive means of furthering that
compelling governmental interest.
(c) Judicial relief
A person whose religious exercise has been burdened
in violation of this section may assert that violation as
a claim or defense in a judicial proceeding and obtain
appropriate relief against a government. Standing to
assert a claim or defense under this section shall be
governed by the general rules of standing under article
III of the Constitution.

118a
42 U.S.C. § 300gg-13(a)(4) provides:
§ 300gg-13.
services

Coverage

of

preventive

health

(a) In general
A group health plan and a health insurances issuer
offering group or individual health insurance coverage
shall, at a minimum provide coverage for and shall not
impose any cost sharing requirements for—
*
*
*
(4) with respect to women, such additional preventive
care and screenings not described in paragraph (1) as
provided for in comprehensive guidelines supported by
the Health Resources and Services Administration for
purposes of this paragraph.
*

*

*

119a
29 U.S.C. § 1185d provides:
§ 1185d. Additional market reforms
(a) General rule
Except as provided in subsection (b)—
(1) the provisions of part A of title XXVII of the Public
Health Service Act (as amended by the Patient
Protection and Affordable Care Act) shall apply to
group health plans, and health insurance issuers
providing health insurance coverage in connection
with group health plans, as if included in this subpart;
and
(2) to the extent that any provision of this part
conflicts with a provision of such part A with respect
to group health plans, or health insurance issuers
providing health insurance coverage in connection
with group health plans, the provisions of such part A
shall apply.
(b) Exception
Notwithstanding subsection (a), the provisions of
sections 2716 and 2718 of title XXVII of the Public
Health Service Act (as amended by the Patient
Protection and Affordable Care Act) shall not apply
with respect to self-insured group health plans, and
the provisions of this part shall continue to apply to
such plans as if such sections of the Public Health
Service Act (as so amended) had not been enacted.

120a
26 U.S.C. § 4980D provides:
§ 4980D. Failure to meet certain group health
plan requirements
(a) General rule.—There is hereby imposed a tax on
any failure of a group health plan to meet the
requirements of chapter 100 (relating to group health
plan requirements).
(b) Amount of tax.—
(1) In general.—The amount of the tax imposed by
subsection (a) on any failure shall be $100 for each day
in the noncompliance period with respect to each
individual to whom such failure relates.
(2) Noncompliance period.—For purposes of this
section, the term “noncompliance period” means, with
respect to any failure, the period—
(A) beginning on the date such failure first occurs, and
(B) ending on the date such failure is corrected.
(3) Minimum tax for noncompliance period where
failure discovered after notice of examination.—
Notwithstanding paragraphs (1) and (2) of subsection
(c)—
(A) In general.—In the case of 1 or more failures with
respect to an individual—
(i) which are not corrected before the date a notice of
examination of income tax liability is sent to the
employer, and
(ii) which occurred or continued during the period
under examination, the amount of tax imposed by
subsection (a) by reason of such failures with respect
to such individual shall not be less than the lesser of

121a
$2,500 or the amount of tax which would be imposed
by subsection (a) without regard to such paragraphs.
(B) Higher minimum tax where violations are more
than de minimis.—To the extent violations for which
any person is liable under subsection (e) for any year
are more than de minimis, subparagraph (A) shall be
applied by substituting “$15,000” for “$2,500” with
respect to such person.
(C) Exception for church plans.—This paragraph shall
not apply to any failure under a church plan (as
defined in section 414(e)).
(c) Limitations on amount of tax.—
(1) Tax not to apply where failure not discovered
exercising reasonable diligence.—No tax shall be
imposed by subsection (a) on any failure during any
period for which it is established to the satisfaction of
the Secretary that the person otherwise liable for such
tax did not know, and exercising reasonable diligence
would not have known, that such failure existed.
(2) Tax not to apply to failures corrected within certain
periods.—No tax shall be imposed by subsection (a) on
any failure if—
(A) such failure was due to reasonable cause and not
to willful neglect, and
(B) (i) in the case of a plan other than a church plan
(as defined in section 414(e)), such failure is corrected
during the 30-day period beginning on the first date
the person otherwise liable for such tax knew, or
exercising reasonable diligence would have known,
that such failure existed, and
(ii) in the case of a church plan (as so defined), such
failure is corrected before the close of the correction

122a
period (determined under the rules of section
414(e)(4)(C)).
(3) Overall limitation for unintentional failures.— In
the case of failures which are due to reasonable cause
and not to willful neglect—
(A) Single employer plans.—
(i) In general.—In the case of failures with respect to
plans other than specified multiple employer health
plans, the tax imposed by subsection (a) for failures
during the taxable year of the employer shall not
exceed the amount equal to the lesser of—
(I) 10 percent of the aggregate amount paid or
incurred by the employer (or predecessor employer)
during the preceding taxable year for group health
plans, or
(II) $500,000.
(ii) Taxable years in the case of certain controlled
groups.—For purposes of this subparagraph, if not all
persons who are treated as a single employer for
purposes of this section have the same taxable year,
the taxable years taken into account shall be
determined under principles similar to the principles
of section 1561.
(B) Specified multiple employer health plans.—
(i) In general.—In the case of failures with respect to
a specified multiple employer health plan, the tax
imposed by subsection (a) for failures during the
taxable year of the trust forming part of such plan
shall not exceed the amount equal to the lesser of—
(I) 10 percent of the amount paid or incurred by such
trust during such taxable year to provide medical care

123a
(as defined in section 9832(d)(3)) directly or through
insurance, reimbursement, or otherwise, or
(II) $500,000.
For purposes of the preceding sentence, all plans of
which the same trust forms a part shall be treated as
one plan.
(ii) Special rule for employers required to pay tax.—If
an employer is assessed a tax imposed by subsection
(a) by reason of a failure with respect to a specified
multiple employer health plan, the limit shall be
determined under subparagraph (A) (and not under
this subparagraph) and as if such plan were not a
specified multiple employer health plan.
(4) Waiver by Secretary.—In the case of a failure
which is due to reasonable cause and not to willful
neglect, the Secretary may waive part or all of the tax
imposed by subsection (a) to the extent that the
payment of such tax would be excessive relative to the
failure involved.
(d) Tax not to apply to certain insured small employer
plans.—
(1) In general.—In the case of a group health plan of a
small employer which provides health insurance
coverage solely through a contract with a health
insurance issuer, no tax shall be imposed by this
section on the employer on any failure (other than a
failure attributable to section 9811) which is solely
because of the health insurance coverage offered by
such issuer.
(2) Small employer.—
(A) In general.—For purposes of paragraph (1), the
term “small employer” means, with respect to a

124a
calendar year and a plan year, an employer who
employed an average of at least 2 but not more than
50 employees on business days during the preceding
calendar year and who employs at least 2 employees
on the first day of the plan year. For purposes of the
preceding sentence, all persons treated as a single
employer under subsection (b), (c), (m), or (o) of section
414 shall be treated as one employer.
(B) Employers not in existence in preceding year.—In
the case of an employer which was not in existence
throughout the preceding calendar year, the
determination of whether such employer is a small
employer shall be based on the average number of
employees that it is reasonably expected such
employer will employ on business days in the current
calendar year.
(C) Predecessors.—Any reference in this paragraph to
an employer shall include a reference to any
predecessor of such employer.
(3) Health insurance coverage; health insurance
issuer.—For purposes of paragraph (1), the terms
“health insurance coverage” and “health insurance
issuer” have the respective meanings given such terms
by section 9832.
(e) Liability for tax.—The following shall be liable for
the tax imposed by subsection (a) on a failure:
(1) Except as otherwise provided in this subsection,
the employer.
(2) In the case of a multiemployer plan, the plan.
(3) In the case of a failure under section 9803 (relating
to guaranteed renewability) with respect to a plan
described in subsection (f)(2)(B), the plan.

125a
(f) Definitions.—For purposes of this section—
(1) Group health plan.—The term “group health plan”
has the meaning given such term by section 9832(a).
(2) Specified multiple employer health plan.—The
term “specified multiple employer health plan” means
a group health plan which is—
(A) any multiemployer plan, or
(B) any multiple employer welfare arrangement (as
defined in section 3(40) of the Employee Retirement
Income Security Act of 1974, as in effect on the date of
the enactment of this section).
(3) Correction.—A failure of a group health plan shall
be treated as corrected if—
(A) such failure is retroactively undone to the extent
possible, and
(B) the person to whom the failure relates is placed in
a financial position which is as good as such person
would have been in had such failure not occurred.

126a
26 U.S.C. § 4980H provides:
§ 4980H. Shared responsibility for employers
regarding health coverage.
(a) Large employers not offering health coverage
If—
(1) any applicable large employer fails to offer to its
full-time employees (and their dependents) the
opportunity to enroll in minimum essential coverage
under an eligible employer-sponsored plan (as defined
in section 5000A(f)(2)) for any month, and
(2) at least one full-time employee of the applicable
large employer has been certified to the employer
under section 1411 of the Patient Protection and
Affordable Care Act as having enrolled for such month
in a qualified health plan with respect to which an
applicable premium tax credit or cost-sharing
reduction is allowed or paid with respect to the
employee, then there is hereby imposed on the
employer an assessable payment equal to the product
of the applicable payment amount and the number of
individuals employed by the employer as full-time
employees during such month.
(b) Large employers offering coverage with employees
who qualify for premium tax credits or cost-sharing
reductions
(1) In general
If—
(A) an applicable large employer offers to its full-time
employees (and their dependents) the opportunity to
enroll in minimum essential coverage under an

127a
eligible employer-sponsored plan (as defined in section
5000A(f)(2)) for any month, and
(B) 1 or more full-time employees of the applicable
large employer has been certified to the employer
under section 1411 of the Patient Protection and
Affordable Care Act as having enrolled for such month
in a qualified health plan with respect to which an
applicable premium tax credit or cost-sharing
reduction is allowed or paid with respect to the
employee, then there is hereby imposed on the
employer an assessable payment equal to the product
of the number of full-time employees of the applicable
large employer described in subparagraph (B) for such
month and an amount equal to 1/12 of $3,000.
(2) Overall limitation
The aggregate amount of tax determined under
paragraph (1) with respect to all employees of an
applicable large employer for any month shall not
exceed the product of the applicable payment amount
and the number of individuals employed by the
employer as full-time employees during such month.
(c) Definitions and special rules
For purposes of this section—
(1) Applicable payment amount.
The term “applicable payment amount” means, with
respect to any month, 1/12 of $2,000.
(2) Applicable large employer
(A) In general
The term “applicable large employer” means, with
respect to a calendar year, an employer who employed

128a
an average of at least 50 full-time employees on
business days during the preceding calendar year.
(B) Exemption for certain employers
(i) In general.
An employer shall not be considered to employ more
than 50 full-time employees if—
(I) the employer’s workforce exceeds 50 full-time
employees for 120 days or fewer during the calendar
year, and
(II) the employees in excess of 50 employed during
such 120-day period were seasonal workers.
(ii) Definition of seasonal workers
The term “seasonal worker” means a worker who
performs labor or services on a seasonal basis as
defined by the Secretary of Labor, including workers
covered by section 500.20(s)(1) of title 29, Code of
Federal Regulations and retail workers employed
exclusively during holiday seasons.
(C) Rules for determining employer size
For purposes of this paragraph—
(i) Application of aggregation rule for employers
All persons treated as a single employer under
subsection (b), (c), (m), or (o) of section 414 of the
Internal Revenue Code of 1986 shall be treated as 1
employer.
(ii) Employers not in existence in preceding year
In the case of an employer which was not in existence
throughout the preceding calendar year, the
determination of whether such employer is an
applicable large employer shall be based on the

129a
average number of employees that it is reasonably
expected such employer will employ on business days
in the current calendar year.
(iii) Predecessors
Any reference in this subsection to an employer shall
include a reference to any predecessor of such
employer.
(D) Application
penalties

of

employer

size

to

assessable

(i) In general
The number of individuals employed by an applicable
large employer as full-time employees during any
month shall be reduced by 30 solely for purposes of
calculating—
(I) the assessable payment under subsection (a), or
(II) the overall limitation under subsection (b)(2).
(ii) Aggregation
In the case of persons treated as 1 employer under
subparagraph (C)(i), only 1 reduction under subclause
(I) or (II) shall be allowed with respect to such persons
and such reduction shall be allocated among such
persons ratably on the basis of the number of full-time
employees employed by each such person.
(E) Full-time
employees

equivalents

treated

as

full-time

Solely for purposes of determining whether an
employer is an applicable large employer under this
paragraph, an employer shall, in addition to the
number of full-time employees for any month
otherwise determined, include for such month a

130a
number of full-time employees determined by dividing
the aggregate number of hours of service of employees
who are not full-time employees for the month by 120.
(F) Exemption for health coverage under TRICARE or
the Department of Veterans Affairs.—-Solely for
purposes of determining whether an employer is an
applicable large employer under this paragraph for
any month, an individual shall not be taken into
account as an employee for such month if such
individual has medical coverage for such month
under—
(i) chapter 55 of title 10, United States Code, including
coverage under the TRICARE program, or
(ii) under a health care program under chapter 17
or 18 of title 38, United States Code, as determined
by the Secretary of Veterans Affairs, in coordination
with the Secretary of Health and Human Services
and the Secretary.
(3) Applicable premium tax credit and cost-sharing
reduction.
The term “applicable premium tax credit and costsharing reduction” means—
(A) any premium tax credit allowed under section 36B,
(B) any cost-sharing reduction under section 1402 of
the Patient Protection and Affordable Care Act, and
(C) any advance payment of such credit or reduction
under section 1412 of such Act.
(4) Full-time employee
(A) In general

131a
The term “full-time employee” means, with respect to
any month, an employee who is employed on average
at least 30 hours of service per week.
(B) Hours of service
The Secretary, in consultation with the Secretary of
Labor, shall prescribe such regulations, rules, and
guidance as may be necessary to determine the hours
of service of an employee, including rules for the
application of this paragraph to employees who are not
compensated on an hourly basis.
(5) Inflation adjustment
(A) In general
In the case of any calendar year after 2014, each of the
dollar amounts in subsection (b) and paragraph (1)
shall be increased by an amount equal to the product
of—
(i) such dollar amount, and
(ii) the premium adjustment percentage (as defined in
section 1302(c)(4) of the Patient Protection and
Affordable Care Act) for the calendar year.
(B) Rounding
If the amount of any increase under subparagraph (A)
is not a multiple of $10, such increase shall be rounded
to the next lowest multiple of $10.
(6) Other definitions
Any term used in this section which is also used in the
Patient Protection and Affordable Care Act shall have
the same meaning as when used in such Act.

132a
(7) Tax nondeductible
For denial of deduction for the tax imposed by this
section, see section 275(a)(6).
(d) Administration and procedure
(1) In general
Any assessable payment provided by this section shall
be paid upon notice and demand by the Secretary, and
shall be assessed and collected in the same manner as
an assessable penalty under subchapter B of chapter
68.
(2) Time for payment
The Secretary may provide for the payment of any
assessable payment provided by this section on an
annual, monthly, or other periodic basis as the
Secretary may prescribe.
(3) Coordination with credits, etc.
The Secretary shall prescribe rules, regulations, or
guidance for the repayment of any assessable payment
(including interest) if such payment is based on the
allowance or payment of an applicable premium tax
credit or cost-sharing reduction with respect to an
employee, such allowance or payment is subsequently
disallowed, and the assessable payment would
not have been required to be made but for such
allowance or payment.

133a
26 U.S.C. § 5000A provides:
§ 5000A. Requirement to maintain minimum
essential coverage
(a) Requirement to maintain minimum essential
coverage
An applicable individual shall for each month
beginning after 2013 ensure that the individual, and
any dependent of the individual who is an applicable
individual, is covered under minimum essential
coverage for such month.
(b) Shared responsibility payment
(1) In general
If a taxpayer who is an applicable individual, or an
applicable individual for whom the taxpayer is liable
under paragraph (3), fails to meet the requirement of
subsection (a) for 1 or more months, then, except as
provided in subsection (e), there is hereby imposed on
the taxpayer a penalty with respect to such failures in
the amount determined under subsection (c).
(2) Inclusion with return
Any penalty imposed by this section with respect to
any month shall be included with a taxpayer’s return
under chapter 1 for the taxable year which includes
such month.
(3) Payment of penalty
If an individual with respect to whom a penalty is
imposed by this section for any month—
(A) is a dependent (as defined in section 152) of
another taxpayer for the other taxpayer’s taxable year

134a
including such month, such other taxpayer shall be
liable for such penalty, or
(B) files a joint return for the taxable year including
such month, such individual and the spouse of such
individual shall be jointly liable for such penalty.
(c) Amount of penalty
(1) In general
The amount of the penalty imposed by this section on
any taxpayer for any taxable year with respect to
failures described in subsection (b)(1) shall be equal to
the lesser of—
(A) the sum of the monthly penalty amounts
determined under paragraph (2) for months in the
taxable year during which 1 or more such failures
occurred, or
(B) an amount equal to the national average premium
for qualified health plans which have a bronze level of
coverage, provide coverage for the applicable family
size involved, and are offered through Exchanges for
plan years beginning in the calendar year with or
within which the taxable year ends.
(2) Monthly penalty amounts
For purposes of paragraph (1)(A), the monthly penalty
amount with respect to any taxpayer for any month
during which any failure described in subsection (b)(1)
occurred is an amount equal to 1/12 of the greater of
the following amounts:
(A) Flat dollar amount
An amount equal to the lesser of—

135a
(i) the sum of the applicable dollar amounts for all
individuals with respect to whom such failure occurred
during such month, or
(ii) 300 percent of the applicable dollar amount
(determined without regard to paragraph (3)(C)) for
the calendar year with or within which the taxable
year ends.
(B) Percentage of income
An amount equal to the following percentage of the
excess of the taxpayer’s household income for the
taxable year over the amount of gross income specified
in section 6012(a)(1) with respect to the taxpayer for
the taxable year:
(i) 1.0 percent for taxable years beginning in 2014.
(ii) 2.0 percent for taxable years beginning in 2015.
(iii) Zero percent for taxable years beginning after
2015.
(3) Applicable dollar amount
For purposes of paragraph (1)—
(A) In general
Except as provided in subparagraphs (B) and (C), the
applicable dollar amount is $0.
(B) Phase in
The applicable dollar amount is $95 for 2014 and $325
for 2015.
(C) Special rule for individuals under age 18
If an applicable individual has not attained the age of
18 as of the beginning of a month, the applicable dollar
amount with respect to such individual for the month

136a
shall be equal to one-half of the applicable dollar
amount for the calendar year in which the month
occurs.
(4) Terms relating to income and families
For purposes of this section—
(A) Family size
The family size involved with respect to any taxpayer
shall be equal to the number of individuals for whom
the taxpayer is allowed a deduction under section 151
(relating to allowance of deduction for personal
exemptions) for the taxable year.
(B) Household income
The term “household income” means, with respect to
any taxpayer for any taxable year, an amount equal to
the sum of—
(i) the modified adjusted gross income of the taxpayer,
plus
(ii) the aggregate modified adjusted gross incomes of
all other individuals who—
(I) were taken into account in determining the
taxpayer’s family size under paragraph (1), and
(II) were required to file a return of tax imposed by
section 1 for the taxable year.
(C) Modified adjusted gross income
The term “modified adjusted gross income” means
adjusted gross income increased by—
(i) any amount excluded from gross income under
section 911, and

137a
(ii) any amount of interest received or accrued by the
taxpayer during the taxable year which is exempt from
tax.
(d) Applicable individual
For purposes of this section—
(1) In general
The term “applicable individual” means, with respect
to any month, an individual other than an individual
described in paragraph (2), (3), or (4).
(2) Religious exemptions
(A) Religious conscience exemptions
(i) In general
Such term shall not include any individual for any
month if such individual has in effect an exemption
under section 1311(d)(4)(H) of the Patient Protection
and Affordable Care Act which certifies that—
(I) such individual is a member of a recognized
religious sect or division thereof which is described in
section 1402(g)(1), and is adherent of established
tenets or teachings of such sect or division as described
in such section; or
(II) such individual is a member of a religious sect or
division thereof which is not described in section
1402(g)(1), who relies solely on a religious method of
healing, and for whom the acceptance of medical
health services would be inconsistent with the
religious beliefs of the individual.

138a
(ii) Special rules
(I) Medical health services defined
For purposes of this subparagraph, the term “medical
health services” does not include routine dental, vision
and
hearing
services,
midwifery
services,
vaccinations, necessary medical services provided to
children, services required by law or by a third party,
and such other services as the Secretary of Health and
Human Services may provide in implementing section
1311(d)(4)(H) of the Patient Protection and Affordable
Care Act.
(II) Attestation required
Clause (i)(II) shall apply to an individual for months
in a taxable year only if the information provided by
the individual under section 1411(b)(5)(A) of such Act
includes an attestation that the individual has not
received medical health services during the preceding
taxable year.
(B) Health care sharing ministry
(i) In general
Such term shall not include any individual for any
month if such individual is a member of a health care
sharing ministry for the month.
(ii) Health care sharing ministry
The term “health care sharing ministry” means an
organization—
(I) which is described in section 501(c)(3) and is
exempt from taxation under section 501(a),
(II) members of which share a common set of ethical or
religious beliefs and share medical expenses among

139a
members in accordance with those beliefs and without
regard to the State in which a member resides or is
employed,
(III) members of which retain membership even after
they develop a medical condition,
(IV) which (or a predecessor of which) has been in
existence at all times since December 31, 1999, and
medical expenses of its members have been shared
continuously and without interruption since at least
December 31, 1999, and
(V) which conducts an annual audit which is
performed by an independent certified public
accounting firm in accordance with generally accepted
accounting principles and which is made available to
the public upon request.
(3) Individuals not lawfully present
Such term shall not include an individual for any
month if for the month the individual is not a citizen
or national of the United States or an alien lawfully
present in the United States.
(4) Incarcerated individuals
Such term shall not include an individual for any
month if for the month the individual is incarcerated,
other than incarceration pending the disposition of
charges.
(e) Exemptions
No penalty shall be imposed under subsection (a) with
respect to—
(1) Individuals who cannot afford coverage

140a
(A) In general
Any applicable individual for any month if the
applicable
individual’s
required
contribution
(determined on an annual basis) for coverage for the
month exceeds 8 percent of such individual’s
household income for the taxable year described in
section 1412(b)(1)(B) of the Patient Protection and
Affordable Care Act. For purposes of applying this
subparagraph, the taxpayer’s household income shall
be increased by any exclusion from gross income for
any portion of the required contribution made through
a salary reduction arrangement.
(B) Required contribution
For purposes of this paragraph, the term “required
contribution” means—
(i) in the case of an individual eligible to purchase
minimum essential coverage consisting of coverage
through an eligible-employer-sponsored plan, the
portion of the annual premium which would be paid by
the individual (without regard to whether paid
through salary reduction or otherwise) for self-only
coverage, or
(ii) in the case of an individual eligible only to
purchase minimum essential coverage described in
subsection (f)(1)(C), the annual premium for the
lowest cost bronze plan available in the individual
market through the Exchange in the State in the
rating area in which the individual resides (without
regard to whether the individual purchased a qualified
health plan through the Exchange), reduced by the
amount of the credit allowable under section 36B for
the taxable year (determined as if the individual was

141a
covered by a qualified health plan offered through the
Exchange for the entire taxable year).
(C) Special rules for individuals related to employees
For purposes of subparagraph (B)(i), if an applicable
individual is eligible for minimum essential coverage
through an employer by reason of a relationship to an
employee, the determination under subparagraph (A)
shall be made by reference to1 required contribution
of the employee.
(D) Indexing
In the case of plan years beginning in any calendar
year after 2014, subparagraph (A) shall be applied by
substituting for “8 percent” the percentage the
Secretary of Health and Human Services determines
reflects the excess of the rate of premium growth
between the preceding calendar year and 2013 over
the rate of income growth for such period.
(2) Taxpayers with income below filing threshold
Any applicable individual for any month during a
calendar year if the individual’s household income for
the taxable year described in section 1412(b)(1)(B) of
the Patient Protection and Affordable Care Act is less
than the amount of gross income specified in section
6012(a)(1) with respect to the taxpayer.
(3) Members of Indian tribes
Any applicable individual for any month during which
the individual is a member of an Indian tribe (as
defined in section 45A(c)(6)).
(4) Months during short coverage gaps

142a
(A) In general
Any month the last day of which occurred during a
period in which the applicable individual was not
covered by minimum essential coverage for a
continuous period of less than 3 months.
(B) Special rules
For purposes of applying this paragraph—
(i) the length of a continuous period shall be
determined without regard to the calendar years in
which months in such period occur,
(ii) if a continuous period is greater than the period
allowed under subparagraph (A), no exception shall be
provided under this paragraph for any month in the
period, and
(iii) if there is more than 1 continuous period described
in subparagraph (A) covering months in a calendar
year, the exception provided by this paragraph shall
only apply to months in the first of such periods.
The Secretary shall prescribe rules for the collection of
the penalty imposed by this section in cases where
continuous periods include months in more than 1
taxable year.
(5) Hardships
Any applicable individual who for any month is
determined by the Secretary of Health and Human
Services under section 1311(d)(4)(H) to have suffered
a hardship with respect to the capability to obtain
coverage under a qualified health plan.
(f) Minimum essential coverage
For purposes of this section—

143a
(1) In general
The term “minimum essential coverage” means any of
the following:
(A) Government sponsored programs
Coverage under—
(i) the Medicare program under part A of title XVIII of
the Social Security Act,
(ii) the Medicaid program under title XIX of the
Social Security Act,
(iii) the CHIP program under title XXI of the
Social Security Act or under a qualified CHIP
look-alike program (as defined in section 2107(g) of
the Social Security Act),
(iv) medical coverage under chapter 55 of title
10, United States Code, including coverage under
the TRICARE program;
(v) a health care program under chapter 17 or 18 of
title 38, United States Code, as determined by the
Secretary of Veterans Affairs, in coordination with the
Secretary of Health and Human Services and the
Secretary,
(vi) a health plan under section 2504(e) of title
22, United
States
Code
(relating
to
Peace Corps volunteers); or
(vii)
the
Nonappropriated
Fund
Health
Benefits
Program
of
the
Department
of
Defense, established
under
section
349
of
the National
Defense Authorization Act
for Fiscal Year 1995 (Public Law 103-337; 10 U.S.C.
1587 note).

144a
(B) Employer-sponsored plan
Coverage under an eligible employer-sponsored plan.
(C) Plans in the individual market
Coverage under a health plan offered in the individual
market within a State.
(D) Grandfathered health plan
Coverage under a grandfathered health plan.
(E) Other coverage
Such other health benefits coverage, such as a State
health benefits risk pool, as the Secretary of Health
and Human Services, in coordination with the
Secretary, recognizes for purposes of this subsection.
(2) Eligible employer-sponsored plan
The term “eligible employer-sponsored plan” means,
with respect to any employee, a group health plan or
group health insurance coverage offered by an
employer to the employee which is—
(A) a governmental plan (within the meaning of
section 2791(d)(8) of the Public Health Service Act), or
(B) any other plan or coverage offered in the small or
large group market within a State.
Such term shall include a grandfathered health plan
described in paragraph (1)(D) offered in a group
market.
(3) Excepted benefits
essential coverage

not

treated

as

minimum

The term “minimum essential coverage” shall not
include health insurance coverage which consists of
coverage of excepted benefits—

145a
(A) described in paragraph (1) of subsection (c) of
section 2791 of the Public Health Service Act; or
(B) described in paragraph (2), (3), or (4) of such
subsection if the benefits are provided under a
separate policy, certificate, or contract of insurance.
(4) Individuals residing outside United States or
residents of territories
Any applicable individual shall be treated as having
minimum essential coverage for any month—
(A) if such month occurs during any period described
in subparagraph (A) or (B) of section 911(d)(1) which
is applicable to the individual, or
(B) if such individual is a bona fide resident of any
possession of the United States (as determined under
section 937(a)) for such month.
(5) Insurance-related terms
Any term used in this section which is also used in title
I of the Patient Protection and Affordable Care Act
shall have the same meaning as when used in such
title.
(g) Administration and procedure
(1) In general
The penalty provided by this section shall be paid upon
notice and demand by the Secretary, and except as
provided in paragraph (2), shall be assessed and
collected in the same manner as an assessable penalty
under subchapter B of chapter 68.
(2) Special rules
Notwithstanding any other provision of law—

146a
(A) Waiver of criminal penalties
In the case of any failure by a taxpayer to timely pay
any penalty imposed by this section, such taxpayer
shall not be subject to any criminal prosecution or
penalty with respect to such failure.
(B) Limitations on liens and levies
The Secretary shall not—
(i) file notice of lien with respect to any property of a
taxpayer by reason of any failure to pay the penalty
imposed by this section, or
(ii) levy on any such property with respect to such
failure.

147a
45 C.F.R. § 147.132 provides:
§ 147.132. Religious exemptions in connection
with coverage of certain preventive health
services.
(a) Objecting entities. (1) Guidelines issued under
§ 147.130(a)(1)(iv) by the Health Resources and
Services Administration must not provide for or
support the requirement of coverage or payments for
contraceptive services with respect to a group health
plan established or maintained by an objecting
organization, or health insurance coverage offered or
arranged by an objecting organization, to the extent
of the objections specified below. Thus the Health
Resources and Service Administration will exempt
from any guidelines’ requirements that relate to the
provision of contraceptive services:
(i) A group health plan and health insurance
coverage provided in connection with a group health
plan to the extent the non-governmental plan sponsor
objects as specified in paragraph (a)(2) of this section.
Such non-governmental plan sponsors include, but
are not limited to, the following entities—
(A) A church, an integrated auxiliary of a church, a
convention or association of churches, or a religious
order.
(B) A nonprofit organization.
(C) A closely held for-profit entity.
(D) A for-profit entity that is not closely held.
(E) Any other non-governmental employer.
(ii) A group health plan, and health insurance
coverage provided in connection with a group health

148a
plan, where the plan or coverage is established or
maintained by a church, an integrated auxiliary of a
church, a convention or association of churches, a
religious order, a nonprofit organization, or other
non-governmental organization or association, to the
extent the plan sponsor responsible for establishing
and/or maintaining the plan objects as specified in
paragraph (a)(2) of this section. The exemption in
this paragraph applies to each employer,
organization, or plan sponsor that adopts the plan;
(iii) An institution of higher education as defined in
20 U.S.C. 1002, which is non-governmental, in its
arrangement of student health insurance coverage, to
the extent that institution objects as specified in
paragraph (a)(2) of this section. In the case of student
health insurance coverage, this section is applicable
in a manner comparable to its applicability to group
health insurance coverage provided in connection
with a group health plan established or maintained
by a plan sponsor that is an employer, and references
to “plan participants and beneficiaries” will be
interpreted as references to student enrollees and
their covered dependents; and
(iv) A health insurance issuer offering group or
individual insurance coverage to the extent the issuer
objects as specified in paragraph (a)(2) of this section.
Where a health insurance issuer providing group
health insurance coverage is exempt under this
subparagraph (iv), the group health plan established
or maintained by the plan sponsor with which the
health insurance issuer contracts remains subject to
any
requirement
to
provide
coverage
for
contraceptive services under Guidelines issued under

149a
§ 147.130(a)(1)(iv) unless it is also exempt from that
requirement.
(2) The exemption of this paragraph (a) will apply to
the extent that an entity described in paragraph
(a)(1) of this section objects, based on its sincerely
held religious beliefs, to its establishing, maintaining,
providing, offering, or arranging for (as applicable):
(i) Coverage or payments
contraceptive services; or

for

some

or

all

(ii) A plan, issuer, or third party administrator that
provides or arranges such coverage or payments.
(b) Objecting individuals. Guidelines issued under
§ 147.130(a)(1)(iv) by the Health Resources and
Services Administration must not provide for or
support the requirement of coverage or payments for
contraceptive services with respect to individuals
who object as specified in this paragraph (b), and
nothing in § 147.130(a)(1)(iv), 26 CFR 54.9815–2713
(a)(1)(iv), or 29 CFR 2590.715–2713(a)(1)(iv) may be
construed to prevent a willing health insurance
issuer offering group or individual health insurance
coverage, and as applicable, a willing plan sponsor of
a group health plan, from offering a separate policy,
certificate or contract of insurance or a separate
group health plan or benefit package option, to any
group health plan sponsor (with respect to an
individual) or individual, as applicable, who objects to
coverage or payments for some or all contraceptive
services based on sincerely held religious beliefs.
Under this exemption, if an individual objects to
some but not all contraceptive services, but the
issuer, and as applicable, plan sponsor, are willing to
provide the plan sponsor or individual, as applicable,

150a
with a separate policy, certificate or contract of
insurance or a separate group health plan or benefit
package option that omits all contraceptives, and the
individual agrees, then the exemption applies as if
the individual objects to all contraceptive services.
(c) Definition. For the purposes of this section,
reference to “contraceptive” services, benefits, or
coverage includes contraceptive or sterilization items,
procedures, or services, or related patient education
or counseling, to the extent specified for purposes of
§ 147.130(a)(1)(iv).
(d) Severability. Any provision of this section held to
be invalid or unenforceable by its terms, or as applied
to any person or circumstance, shall be construed so
as to continue to give maximum effect to the
provision permitted by law, unless such holding shall
be one of utter invalidity or unenforceability, in
which event the provision shall be severable from
this section and shall not affect the remainder thereof
or the application of the provision to persons not
similarly situated or to dissimilar circumstances.

